<html>
<title> - MARINE SANCTUARIES: FISHERIES, ACCESS, THE ENVIRONMENT, AND MARITIME HERITAGE</title>
<body><pre>[Senate Hearing 115-224]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-224

                 MARINE SANCTUARIES: FISHERIES, ACCESS,
                 THE ENVIRONMENT, AND MARITIME HERITAGE

=======================================================================

                                HEARING

                               BEFORE THE

     SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, AND COAST GUARD

                                 OF THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 27, 2017

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                            


                Available online: http://www.govinfo.gov
       
       
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
29-977 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="cfa8bfa08facbabcbba7aaa3bfe1aca0a2e1">[email&#160;protected]</a>        
       
       
       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
TED CRUZ, Texas                      AMY KLOBUCHAR, Minnesota
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JERRY MORAN, Kansas                  BRIAN SCHATZ, Hawaii
DAN SULLIVAN, Alaska                 EDWARD MARKEY, Massachusetts
DEAN HELLER, Nevada                  CORY BOOKER, New Jersey
JAMES INHOFE, Oklahoma               TOM UDALL, New Mexico
MIKE LEE, Utah                       GARY PETERS, Michigan
RON JOHNSON, Wisconsin               TAMMY BALDWIN, Wisconsin
SHELLEY MOORE CAPITO, West Virginia  TAMMY DUCKWORTH, Illinois
CORY GARDNER, Colorado               MAGGIE HASSAN, New Hampshire
TODD YOUNG, Indiana                  CATHERINE CORTEZ MASTO, Nevada
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
                      Renae Black, Senior Counsel
                                 ------                                

            SUBCOMMITTEE ON OCEANS, ATMOSPHERE, FISHERIES, 
                            AND COAST GUARD

DAN SULLIVAN, Alaska, Chairman       GARY PETERS, Michigan, Ranking
ROGER F. WICKER, Mississippi         MARIA CANTWELL, Washington
DEB FISCHER, Nebraska                RICHARD BLUMENTHAL, Connecticut
JAMES INHOFE, Oklahoma               BRIAN SCHATZ, Hawaii
MIKE LEE, Utah                       EDWARD MARKEY, Massachusetts
RON JOHNSON, Wisconsin               CORY BOOKER, New Jersey
CORY GARDNER, Colorado               TAMMY BALDWIN, Wisconsin
TODD YOUNG, Indiana
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on June 27, 2017....................................     1
Statement of Senator Sullivan....................................     1
Statement of Senator Peters......................................     3
    Letter dated July 10, 2017 from Charles N. Wiesen, Board 
      President, Friends of Thunder Bay National Marine Sanctuary 
      to Hon. Gary Peters........................................     3
Statement of Senator Markey......................................    62
    Letter dated June 23, 2017 from Kevin Powers, Stellwagen Bank 
      National Marine Sanctuary Volunteer to Senator Dan Sullivan 
      and Senator Gary Peters....................................    63

                               Witnesses

Ernest Weiss, Natural Resources Director, Aleutians East Borough.     6
    Prepared statement...........................................     7
Captain Scott Hickman, Owner, Circle H Outfitters................     9
    Prepared statement...........................................    11
Captain Jeremiah O'Brien, former President, Morro Bay Commercial 
  Fishermen's Association........................................    21
    Prepared statement...........................................    23
    Letter dated January 31, 2017 to Michael Flores, President, 
      California Fish and Game Commission from Karen Grimmer, 
      Acting Superintendent, Monterey Bay National Marine 
      Sanctuary..................................................    60
Vice Admiral Conrad C. Lautenbacher Jr., former Administrator, 
  National Oceanic and Atmospheric Administration................    52
    Prepared statement...........................................    53

                                Appendix

Kristen J. Sarri, President and Chief Executive Officer, National 
  Marine Sanctuary Foundation, prepared statement................    67
Letter from Stephen D. Kroll to Senator Gary Peters regarding 
  Executive Order 13795, Section 4(b)--America First Offshore 
  Energy.........................................................    73
Letter to Senator Dan Sullivan from Margaret (P.J.) Webb, Public 
  Interest Attorney at Law.......................................    74
Letter dated June 23, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Vicki Nichols Goldstein, Founder and Director, 
  Inland Ocean Coalition.........................................    74
Letter dated June 23, 2017 to Senator Dan Sullivan from Dan 
  Haifley, Executive Director, O'Neill Sea Odyssey...............    75
Letter dated June 23, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Betsy Alles, Executive Director, Sheboygan 
  County Chamber of Commerce.....................................    76
Letter dated June 23, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Howard H. Hoege III, President and CEO, The 
  Mariner's Museum and Park......................................    76
Letter dated June 23, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Kevin Powers, Volunteer, Stellwagen Bank 
  National Marine Sanctuary......................................    78
Letter dated June 23, 2017 to Subcommittee on Marine Sanctuaries: 
  Fisheries, Access, the Environment, and Maritime Heritage, c/o 
  U.S. Senate Committee on Commerce, Science, and Transportation 
  from Amy K, Wilson, Ph.D., President/CEO, Visit Sheboygan, Inc.    79
Letter dated June 25, 2017 to U.S. Senate Commerce Committee's 
  Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard 
  from Brad Snook, Chair, Surfrider Foundation San Luis Obispo...    81
Letter dated June 26, 2017 to Senator Dan Sullivan from Karl 
  Kempton, Health Food Grower....................................    81
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Kathy Tank, Executive Director, Port 
  Washington Tourism Council Inc.................................    82
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Jason Ring, President, Manitowoc Area Visitor 
  & Convention Bureau............................................    82
Great Lakes and St. Lawrence Cities Initiative, Resolution 05-
  2017M submitted by Denis Coderre, Chair, Great Lakes and St. 
  Lawrence Initiative and Mayor, City of Montreal................    83
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Stephen M. Bunker, Chairman, Friends of 
  Mallows Potomac NMS............................................    84
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Kathy Dahlkemper, County Executive, Erie 
  County, Pennsylvania...........................................    85
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Philip Church, County Administrator, County of 
  Oswego and Chairman, Great Lake Ontario National Marine 
  Sanctuary Nomination Task Force................................    86
Letter dated June 26, 2017 to Senator Dan Sullivan from Bruce 
  Popham, Chair, Florida Keys National Marine Sanctuary Advisory 
  Council and Owner, Marathon Boat Yard and Marine Center........    90
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Cathryn R. Newton, Special Advisor to the 
  Chancellor, Provost for Faculty Engagement and Professor of 
  Earth and Interdisciplinary Sciences, Syracuse University......    91
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Michael Vandersteen, Mayor, City of Sheboygan.    92
Letter dated June 26, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Jan Newton, NANOOS Executive Director and 
  Senior Principal Oceanographer, University of Washington 
  Applied Physics Laboratory.....................................    93
Letter dated June 27, 2017 to Senator Dan Sullivan from Christine 
  Heinrichs......................................................    93
Letter dated June 27, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Joel Dunn, President and CEO, Chesapeake 
  Conservancy....................................................    94
Letter dated June 28, 2017 to Senator Gary Peters from Jackie 
  Krawczak, President/CEO, Alpena Area Chamber of Commerce.......    95
Letter dated June 28, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Laura Howes, Director, Marine Education and 
  Conservation, Boston Harbor Cruises............................    95
Letter dated July 10, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Keith Creagh, Director, State of Michigan 
  Department of Natural Resources................................    96
Letter dated July 10, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Noah Oppenheim, Executive Director, Pacific 
  Coast Federation of Fishermen's Association....................    97
Letter dated July 11, 2017 to Senator Dan Sullivan and Senator 
  Gary Peters from Jon Forrest Dohlin, Vice President and 
  Director, Wildlife Conservation Society's New York Aquarium....    98
Response to written questions submitted to Ernest Weiss by:
    Hon. Dan Sullivan............................................   100
    Hon. Gary Peters.............................................   101
Response to written questions submitted to Captain Scott Hickman 
  by:
    Hon. Dan Sullivan............................................   101
    Hon. Gary Peters.............................................   103
Response to written questions submitted by Hon. Dan Sullivan to 
  Captain Jeremiah O'Brien.......................................   103
Response to written questions submitted by Hon. Gary Peters to 
  Vice Admiral Conrad C. Lautenbacher Jr.........................   105

 
                     MARINE SANCTUARIES: FISHERIES,
                        ACCESS, THE ENVIRONMENT,
                         AND MARITIME HERITAGE

                              ----------                              


                         TUESDAY, JUNE 27, 2017

                               U.S. Senate,
Subcommittee on Oceans, Atmosphere, Fisheries, and 
                                       Coast Guard,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:30 a.m. in 
room SR-253, Russell Senate Office Building, Hon. Dan Sullivan, 
Chairman of the Subcommittee, presiding.
    Present: Senators Sullivan [presiding], Gardner, Young, 
Peters, Markey, and Booker.

            OPENING STATEMENT OF HON. DAN SULLIVAN, 
                    U.S. SENATOR FROM ALASKA

    Senator Sullivan. The Subcommittee on Oceans, Atmosphere, 
Fisheries, and the Coast Guard will now come to order.
    Good morning. I'd like to thank our witnesses for appearing 
today before this Subcommittee. Many have traveled a very long 
way to get here, and we very much appreciate that.
    This morning, we're going to talk about the National Marine 
Sanctuary Act, which grants the Secretary of Commerce the 
authority to designate areas of additional restriction and 
management over areas in America's oceans and Great Lakes and 
their unique conservation, cultural, or historic significance. 
While the concept of National Marine Sanctuaries are well 
intentioned, many of these protected areas have caused some 
challenges for coastal and Great Lakes communities across the 
country that are dependent upon the abundant resources found in 
America's waters.
    Recognizing these concerns, President Trump recently issued 
an Executive Order that pauses the Secretary from issuing any 
new designations and instituting a review of current 
sanctuaries. Just last week, NOAA initiated a public comment 
period for this review. Now, marine sanctuaries vary in size, 
with some less than one square mile and others that exceed 
6,000 square miles. Today, sanctuaries encompass more than 
600,000 square miles.
    Similar to the Antiquities Act, the National Marine 
Sanctuary Act is one of the few laws that allows for unilateral 
and restrictive conservation designations solely by the 
Executive Branch. This is an extraordinary power. Designating 
national parks, forests, wilderness areas, wild and scenic 
rivers, and other conservation areas all typically require 
congressional action and, of course, stakeholder input, which 
encourages an open and public process that takes local views 
into account, an important element and subtopic of today's 
hearing.
    In 2014, NOAA reestablished a process by which individuals 
and entities may nominate areas for consideration as a National 
Marine Sanctuary. The criteria for areas that are eligible to 
become a National Marine Sanctuary is considerably broad. Since 
then, a multitude of nominations have been submitted. This is 
of serious concern, given the limited resources we currently 
have available to manage these areas.
    As new areas are designated, existing resources are 
stretched ever thinner. The Sanctuary Act wisely recognized 
this potential pitfall and includes language that prohibits the 
creation of new sanctuaries if their establishment would 
threaten the management efforts of other sanctuaries.
    Another aspect of the sanctuary designation and 
establishment process that I look forward to hearing about in 
today's hearing is NOAA's consideration of the views of the 
public, local communities, and existing management bodies, such 
as the councils under the Magnuson-Stevens Act. The Sanctuary 
Act requires stakeholder engagement, but has no stipulation 
that any of it be taken into consideration. This can lead to 
communities who are most impacted by these designations feeling 
betrayed by the agency when the established sanctuaries are 
unrecognizable to the very communities that spent years working 
to form a mutually beneficial designation and management 
structure.
    In addition, the National Marine Sanctuary designation 
process gives NOAA virtually limitless authority to outline the 
regulations that apply in these sanctuaries. Among other 
things, National Marine Sanctuaries establish duplicative 
regulations that can limit sustainable and economically 
beneficial commercial and recreational fishing, usurping the 
authority of existing management entities such as the Regional 
Fisheries Management Councils, as I already mentioned, that 
have established authority under the Magnuson-Stevens Act. When 
this happens, the protection of America's precious marine 
resources is taken out of the hands of the very institutions 
and experts who have so successfully managed these resources 
for generations.
    Since enactment in 1972, the Sanctuary Act has been 
reauthorized six times, most recently in 2000. That was over 
seventeen years ago.
    Today, we will hear from some of these user groups and 
communities about challenges and deficiencies in the 
designation and management of sanctuaries, and I know their 
expertise and experiences will help guide us to make sure, if 
we have any beneficial changes to the program, it includes more 
effective, efficient, and responsive ways in which to engage 
local communities who are impacted the most.
    I want to recognize Senator Peters for his focus on this 
issue as well and recognize him for any opening statement he 
might have.
    Senator Peters.

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Well, thank you, Mr. Chairman. Thank you 
for calling this hearing together, and I'd like to thank each 
of our witnesses for making the time to come before us today 
and testify. I know many of you had to travel a great distance 
to be here, and that effort is very much appreciated.
    Sanctuaries are very dear and near to my heart as well as 
to Michigan's economy. I think we have a really good story to 
tell about the Thunder Bay Sanctuary in my state. In fact, I 
received a note from a fellow Michigander yesterday that I'd 
like to have entered into the record.
    [The information referred to follows:]

           Friends of Thunder Bay National Marine Sanctuary
                                          Alpena, MI, July 10, 2017

Hon. Gary Peters,
United States Senate,
Washington, DC.

Dear Senator Peters,

    I am writing to you in regard to Executive Order 13795, Section 
4(b)--America First Offshore Energy. On behalf of the Friends of 
Thunder Bay National Marine Sanctuary (TBNMS), a nonprofit 501(c) 3 
organization formed in 2010 by a group of local residents who strongly 
believe in the sanctuary's mission, we ask for your support. With the 
sanctuary headquarters located in Alpena, Michigan, I cannot tell you 
how many times I have heard local residents and business leaders say, 
``The sanctuary is the best thing that's ever happened to northeast 
Michigan.''
    In addition to fostering awareness and stewardship of one of the 
world's largest bodies of fresh water, the sanctuary has had a 
remarkable impact on boosting tourism and the local economy. Just 
yesterday evening a new hotel across the Thunder Bay River from the 
NOAA Alpena headquarters and Great Lakes Maritime Heritage Center had 
its ribbon cutting, and another hotel is in the works just down the 
road.
    Nearly 80,000 people visit the Great Lakes Maritime Heritage Center 
a year. On average, 10,000 purchase tickets to explore the shipwrecks 
aboard the Lady Michigan, a glass-bottom boat that seats up to 100 
passengers per cruise.
    That does not include the number of boat cruises that are dedicated 
to education. More than 6,000 school children come to the center each 
year to experience what it's like to be in the middle of a Great Lake 
and explore shipwrecks in the deep waters below them. They learn about 
the Great Lakes watershed, ecology, and how the maritime industry 
continues to shape the region.
    An Alpena High School teacher created an ecology class called 
``Shipwreck Alley.'' An elementary teacher was recognized as the ``2017 
Michigan Science Teacher of the Year.'' His students participate in 
TBNMS underwater robotics and micro-plastics programs, spending class 
time in the sanctuary's makerspace and aboard the glass-bottom boat. 
Alpena Community College now offers a Marine Technology degree program 
that works in close collaboration with the TBNMS professional divers 
and marine archaeologists. In fact, two graduates of this program now 
work for the sanctuary and other graduates are in high demand in the 
private sector.
    The long-term success and expansion of TBNMS has generated 
substantial interest in the region as a recreational and research 
destination point, helping to diversify the local economy and spur new 
investment in the area. From national research entities like the 
American Association of Underwater Sciences hosting its annual 
conference in Alpena this September and the Michigan State Parks 
expanding and improving adjacent park and boating facilities, to the 
growth in lodging, restaurants and recreational businesses that include 
cycling, paddling and diving, there is no doubt that the sanctuary is 
making a significant impact on the quality of life and sustainability 
of the region.
    To turn back the clock on this progress and the local residents, 
businesses, and educational institutions who have given so much of 
themselves to promote the assets of the sanctuary would be a 
detrimental blow to the region. The Friends of Thunder Bay National 
Marine Sanctuary wholeheartedly asks for your support in ensuring the 
sanctuary retains its current designation and continues to thrive as a 
national treasure.
            Most sincerely,
                                         Charles N. Wiesen,
                                                   Board President.

    Senator Peters. His name is Steven Kroll. He runs a charter 
operation out of Rogers City, Michigan, and he urges in the 
letter for us to maintain the expansion of the Thunder Bay 
National Marine Sanctuary. In fact, in that letter, he writes, 
and I quote, ``There has been a steady increase in our area of 
new businesses. Even where I live, 40 miles north of Alpena in 
the expanded area, empty storefront buildings are being 
occupied with new businesses, and we are seeing growth again.''
    The economic boom has been tremendous in my state. In 2005, 
even before there was an expansion of the sanctuary, counties 
surrounding the old boundaries of the sanctuary garnered $100 
million in sales related to Thunder Bay. This generated $39 
million in personal income to residents and about 1,700 jobs.
    Last year, I had the great pleasure to scuba dive on 
Shipwreck Alley, which is in Thunder Bay Sanctuary, and the 
cold, clear, fresh water preserves these shipwrecks dating back 
to the 19th century in basically pristine condition. There's 
nothing like getting up close to them, and it's an experience 
that once somebody has that opportunity will never forget. In 
fact, the one ship I dove on, as we were approaching it, you 
couldn't see it, and then it came into your view, and it was 
like a ghost ship that had just dropped on the bottom of the 
lake. It was a miraculous vision to see.
    But you don't have to be a certified diver to see firsthand 
these incredible pieces of American history. We have glass 
bottom boats that allow you to stay dry but still have a close-
up view of these beautiful national treasures, some of which 
are only a few feet underneath the surface.
    This trove of artifacts has formed the basis for developing 
world-class, historical, and archeological research programs 
centered around the sanctuary. In addition to the jobs and 
dollars infused into the local economy, Thunder Bay serves as 
an educational and historical treasure that preserves 110 known 
shipwrecks that document over 200 years of maritime history. 
Thunder Bay has been so successful, I'm happy to say, that now 
our neighbors in Wisconsin want a sanctuary of their own, and 
they have been working the grass roots process to make that a 
reality.
    But I will say it always wasn't this way. Back in 1997, the 
City of Alpena, in fact, actually passed a referendum opposing 
the sanctuary, and true to the construct and intent of the 
Sanctuaries Act, NOAA did not force the sanctuary on the 
locals. Instead, NOAA, the state, the City of Alpena, and the 
Sanctuary Advisory Council came to the negotiating table, and 
they worked for 3 years to find consensus before moving 
forward. NOAA made changes to the regulations for Thunder Bay 
to make them more consistent with existing state laws.
    Then Secretary of Commerce Bill Daley was quoted as saying, 
and I quote, ``The sanctuary will only succeed with the support 
of the state and the local community.'' I think Secretary Daley 
was right, and since the 2000 designation of Thunder Bay, it 
has become, without question, one of the crown jewels of 
Michigan's tourism industry today.
    So I'm looking forward to hearing the testimony today. We 
have witnesses, like Captain Hickman, who are going through the 
arduous process that it takes to get it right when it comes to 
managing sanctuaries in a way that has community support. We 
have before us stakeholders, like Captain O'Brien and Mr. 
Weiss, who have concerns about possible new designations, and 
we have before us Admiral Lautenbacher, who has seen the 
diversity of the 13 sanctuaries that protect right now roughly 
about 1 percent of U.S. ocean waters.
    If sanctuaries are not the right fit, I want to go on the 
record--if they're not the right fit in other places, we would 
like to have them in the Great Lakes. So we will take those 
sanctuaries as much as we can in my area. And in the same vein, 
the Committee has received also numerous letters of support for 
today's hearing from community leaders of a variety of 
sanctuaries all across the country, and I would ask, Mr. 
Chairman, that those letters could be entered into the record 
as well as Mr. Kroll's letter that I referenced.
    Senator Sullivan. Without objection.
    Senator Peters. Thank you, Mr. Chairman, and I'll turn this 
back to the Chairman and look forward to the testimony of our 
witnesses.
    Senator Sullivan. Well, thank you, Senator Peters.
    I want to again thank the witnesses. I also want to give 
you a context of what's going on with healthcare and marking up 
a number of bills on Armed Services. I can guarantee there's a 
lot of member interest in this topic. Hopefully, we're going to 
have other members here. There's just a lot going on in the 
Senate this morning, and so there's, hopefully, going to be a 
little bit of in and out. But that does not take away from our 
appreciation for the witnesses here, many of whom, I think it's 
safe to say, traveled not just hours but, in some cases, days 
to get here.
    We have Mr. Ernest Weiss, the Natural Resources Director 
from the Aleutians East Borough in the great state of Alaska, 
one of my constituents. He has an excellent background of 
providing the residents of the borough--which, hopefully, Mr. 
Weiss will describe in a little bit more detail, because it's 
quite a unique place in America--with representation of various 
fisheries, advisory and management bodies, and he assists in 
the development and implementation of scientific efforts and 
regulations and is, importantly and currently, a member of the 
Advisory Panel on the North Pacific Fisheries Management 
Council.
    Mr. Weiss, welcome.
    We also have Captain Scott Hickman, who is the Owner of 
Circle H Outfitters in Galveston, Texas, and a recipient of the 
National Marine Sanctuary Foundation Volunteer of the Year 
Award; Captain Jeremiah O'Brien, the past President of Morro 
Bay Commercial Fishermen's Association; and Vice Admiral Conrad 
Lautenbacher, who was the previous NOAA Administrator from 2001 
through 2008. So we have a very distinguished panel. I again 
want to welcome them.
    You will each have 5 minutes to deliver an oral opening 
statement, and a longer written statement, if you so choose, 
will be included for the record.
    Why don't we begin, sir, with you, Mr. Weiss?

    STATEMENT OF ERNEST WEISS, NATURAL RESOURCES DIRECTOR, 
                     ALEUTIANS EAST BOROUGH

    Mr. Weiss. Chairman Sullivan, Ranking Member Peters, thank 
you for the opportunity.
    I work for the Aleutians East Borough, which is on the 
Alaska Peninsula and encompasses also the easternmost Aleutian 
Islands. Our southern coast opens to the Western Gulf of 
Alaska, and our northern shores on the Bristol Bay and the 
Bering Sea. Our six communities are dependent on access to the 
abundant marine resources. There are no roads connecting our 
communities to the rest of Alaska. All travel is by air or by 
sea.
    Our local fishermen work on these waters nearly all year 
round. Right now, they're fishing for salmon, but later on, 
they'll fish for cod, halibut, crab, and pollock. Our borough 
fishermen are regulars now at the management processes at the 
Alaska Board of Fisheries for state waters fisheries and the 
North Pacific Management Council for Fisheries in Federal 
waters. Both of these management bodies use excellent 
scientific methods and a rigorous public process.
    The North Pacific Council uses ecosystem-based management 
and has put in place substantial marine protections in Alaskan 
waters. Over 95 percent of the Aleutians Islands Management 
Area is closed to bottom troll to minimize impacts to the 
bottom and the essential fish habitat. Sea line protections are 
in place in the Arctic. Nearly 150,000 square nautical miles 
are closed to all fishing until there's better scientific data 
available. There's closures to bottom contact gear in place to 
protect coral gardens and other closures to troll and bottom 
troll to protect crab and rockfish habitats. The council 
process in the North Pacific is working to protect our marine 
resources.
    There are currently no National Marine Sanctuaries in 
Alaska, but in 2014, the nomination process was reestablished, 
and that process mandates community-based development of a 
nomination, and that's great. Any nomination should start with 
the local community, but the final rule states that communities 
in this context are defined as a collection of interested 
individuals or groups. We believe that communities that are 
adjacent to a proposed sanctuary with the potential to be the 
most impacted should be the drivers of any new sanctuary 
nomination.
    Aleutians East Borough got involved in this process in 
December 2014 when the group, Public Employees for 
Environmental Responsibility, or PEER, based in Washington, 
D.C., proposed the Aleutians Island National Marine Sanctuary, 
a massive 554,000 nautical square miles, an area larger than 
the land mass of the state of Alaska. It would have encompassed 
all the Aleutian, Pribilof, and Shumagin Islands, all Bristol 
Bay, and most of the Alaska Peninsula, engulfing our entire 
region.
    When the proposal was made public, letters and resolutions 
in opposition to the proposed sanctuary came pouring in from 
local tribes, communities, and other groups. I'm not aware of 
any local support for the PEER proposal. In the end, the 
process worked, and in January 2015, NOAA deemed the Aleutians 
Island's proposal not sufficient.
    In October of last year, 2016, a much smaller sanctuary, 
less than 3,000 square nautical miles, was proposed by the City 
of St. George. The proposed St. George Unangan Heritage 
National Marine Sanctuary would create a sanctuary 30 miles 
seaward from the island of St. George on the Pribilof Islands 
except toward their neighboring island of St. Paul to the north 
where the boundary would only extend 20 miles, and there would 
be a buffer zone around the St. George harbor to allow for 
development there.
    But besides the City of St. George, other local entities 
had mixed reactions, including opposition, to that proposed 
sanctuary. So in January of this year, NOAA added the St. 
George Sanctuary to the inventory of nominations for 
consideration, and the City of St. George has been outreaching 
to other community members to say that a St. George Sanctuary 
would not negatively impact the harbor expansion or local 
fisheries.
    The process to nominate National Marine Sanctuaries is a 
public process that necessarily includes local stakeholders, 
and that's a good thing. However, the process would be 
strengthened by requiring initial involvement in proposal 
submission by local community groups that would be most 
impacted. Regional Fishery Management Councils must be 
consulted prior to designation, but in the North Pacific, the 
Council is already the right management authority, doing the 
work, supported by communities, protecting the marine 
environment, while providing research and educational 
opportunities.
    Thanks for your consideration. I'll be happy to answer any 
questions.
    [The prepared statement of Mr. Weiss follows:]

    Prepared Statement of Ernest Weiss, Natural Resources Director, 
                         Aleutians East Borough
    Chairman Sullivan, Ranking Member, Members of the Subcommittee, 
thank you for the opportunity to participate in this hearing on Marine 
Sanctuaries: Fisheries, Access, the Environment and Maritime Heritage. 
For the record, my name is Ernest Weiss and I am employed as the 
Natural Resources Director for the Aleutians East Borough, in southwest 
Alaska. Our Borough rests on the Alaska Peninsula, the easternmost 
Aleutian Islands and the Shumagin Islands. Our southern coast opens to 
the western Gulf of Alaska, and our northern shore is on Bristol Bay 
and the Bering Sea. Our six communities of King Cove, Cold Bay, Sand 
Point, Akutan, False Pass and Nelson Lagoon are dependent on access to 
the abundant marine resources, including subsistence and commercial 
fishing, and our native Aleut people claim good stewardship of this 
region for thousands of years. There are roads in our communities, but 
there are no roads connecting our communities to each other or to the 
rest of Alaska. All travel is by air or by sea.
    Our local fishermen work on these waters nearly all year round. 
Right now the emphasis is on sockeye salmon, and later pink salmon 
along with other salmon will hopefully fill the nets. But over the year 
the local fleet will gear up for cod, halibut, crab, pollock and 
whatever other fishery presents itself. These local fishermen and other 
boats that deliver to our shore-based fish processing plants support 
state and local taxes and keep the local economies moving. The local 
people, dependent on these waters for generations, have become regular 
participants in the fishery management processes--the Alaska Board of 
Fisheries meetings for State-waters fisheries and the North Pacific 
Fishery Management Council meetings for fisheries in the exclusive 
economic zone (EEZ) off the State of Alaska. Both of these management 
bodies utilize a rigorous science-based approach, with ample 
opportunities for public input.
    The North Pacific Fishery Management Council (NPFMC) does an 
excellent job of protecting our fisheries and marine environment using 
an ecosystem based management approach. Working with the National 
Marine Fisheries Service (NMFS), the Council has put in place 
substantial protections in the waters off Alaska that provide over half 
of the Nation's seafood products. Over 95 percent (277,100 nm\2\) of 
the Aleutian Islands Management Area is closed to bottom trawl to 
minimize impacts on the benthic environment and essential fish habitat. 
Steller sea lion protection measures prohibit trawling in some areas 
and all marine traffic in other areas. In the Arctic, 148,393 nm\2\ in 
the Chukchi and Beaufort Sea are closed to all fishing, at least until 
better scientific data is available. There are closures to all bottom 
contact gear in place to protect coral gardens and other closures to 
trawl and bottom trawl gear to protect crab and rockfish habitat. The 
dynamic Council process in the North Pacific is working to great 
success.
    There are currently no National Marine Sanctuaries in Alaska, nor, 
I would argue, any need for Sanctuaries, based on the work of NMFS and 
the NPFMC. However, the final rule published in the Federal Register on 
June 13, 2014 to re-establish the Sanctuary Nomination Process opened 
the door for new sanctuary nominations. In theory, the Sanctuary 
Nomination process seems logical. The nomination process mandates the 
``community-based development of a nomination'', and we support that 
concept--that any nomination should start with the local community. 
However, we feel there is a problem with the Sanctuary Nomination 
process definition of a ``community''. The Final Rule states:

        ``Communities may submit applications to have NOAA consider 
        nominations of areas of the marine and Great Lakes environments 
        as national marine sanctuaries. Communities, in this context, 
        are defined as a collection of interested individuals or groups 
         (e.g., a friends of group, a chamber of commerce); local, 
        tribal, state, or national agencies; elected officials; or 
        topic-based stakeholder groups, at the local, regional or 
        national level (e.g., a local chapter of an environmental 
        organization, a regionally-based fishing group, a national-
        level recreation or tourism organization, academia or science-
        based group, or an industry association).''

    In the Sanctuary Nomination Process, ``communities'' does not 
necessarily mean local communities. So anyone can nominate a National 
Marine Sanctuary, but we believe that local communities that are 
adjacent to the proposed sanctuary with the potential to be the most 
impacted should be the main drivers of any new sanctuary nomination or 
designation. The Aleutians East Borough got involved in the nomination 
process 6 months after the Final Rule was published, when in December 
2014 a sanctuary was nominated that actually would have engulfed our 
entire region.
    The Aleutian Island National Marine Sanctuary (AINMS) was proposed 
December 22, 2014 by Public Employees for Environmental Responsibility 
based in Washington, DC. This massive proposed sanctuary of 554,000 
nm\2\, larger than the land mass of the State of Alaska, would have 
encompassed all of the Aleutian, Pribilof and Shumagin Islands, all of 
Bristol Bay and most of the Alaska Peninsula. The Aleutians East 
Borough was not contacted prior to the proposal, however the Qagan 
Tayagungin Tribe of Sand Point responded to a request for support by 
the Alaska Inter-Tribal Council, one week prior to the proposal 
submission, in staunch opposition. When the proposal was made public, 
letters and resolutions in opposition to the AINMS came pouring in from 
local groups and communities, including the King Cove Agdaagux Tribe, 
the City of Unalaska, the Marine Conservation Alliance, the Akutan 
Corporation, the City of Adak and the Aleutians East Borough.
    The ridiculous overreach of the proposed sanctuary made it easy for 
groups to oppose, and in the end, the process worked. On January 23, 
2015 the Office of Marine Sanctuaries responded that the AINMS proposal 
was ``not sufficient''. And the opposition continued to be heard. In 
March 2015 the Southwest Alaska Municipal Conference opposed the AINMS 
in SWAMC Resolution 15-02, and the 2015 Alaska Legislature passed 
Legislative Resolve 6, sponsored by the District 37 Representative 
Bryce Edgmon:

        ``BE IT RESOLVED that the Alaska State Legislature is 
        vehemently opposed to the nomination by the Washington, D.C., 
        based Public Employees for Environmental Responsibility, or any 
        similar nomination, for the creation of an Aleutian Islands 
        National Marine Sanctuary.''

    On October 1, 2016, a much smaller sanctuary, less than 3000 nm\2\, 
was proposed by the City of St George. The proposed St. George Unangan 
Heritage National Marine Sanctuary would create a sanctuary 30 miles 
seaward from the island of St. George, one of the Pribilof Islands, 
except towards St. Paul Island to the north, where the boundary would 
only extend 20 miles. The proposed sanctuary would also include a 
buffer zone around the St. George Harbor, to allow for development and 
commerce there.
    Besides the City of St. George, other local entities have had mixed 
reactions to the proposed sanctuary around St. George. The St. George 
Traditional Council had neither supported nor opposed the proposal as 
of late last year. Other local groups have voiced opposition. The 
Aleutian Pribilof Island Community Development Association, the 
Community Development Quota (CDQ) group representing communities 
including St. George opposes the proposed sanctuary. Also the St. 
George Tanaq Corporation and the Aleutian Pribilof Islands Association 
both oppose the proposal. The Alaska Federation of Natives passed 
Resolution 16-23 at their October 2016 annual conference in more 
generic terms:

        ``NOW THEREFORE BE IT RESOLVED by the delegates of the 2016 AFN 
        Annual Convention that AFN opposes the creation of any National 
        Marine Sanctuary or Marine National Monument that jeopardizes 
        the economic health and vitality of one or more rural 
        communities reliant on commercial and/or subsistence fisheries 
        in Alaska.
        BE IT FURTHER RESOLVED that the delegates mandate tribal 
        consultation and engagement with Alaska Native individuals and 
        organizations that may be impacted prior to designating Marine 
        National Monuments and Sanctuaries in Alaska.''

    The Aleutians East Borough remains neutral to the proposed St. 
George sanctuary. And while it was submitted by a local group, it 
appears the proposed sanctuary is not supported by a majority of local 
residents in the region. On January 27, 2017 NOAA announced the 
addition of the St. George Unangan Heritage National Marine Sanctuary 
to the inventory of nominations for consideration. As part of an 
outreach effort at the 2017 SWAMC conference in March, William Douros, 
West Coast Regional Director of National Marine Sanctuaries, and Pat 
Pletnikoff, Mayor of City of St. George tried to assure members 
attending the Conference that a St. George Sanctuary would not 
negatively impact the harbor expansion or local fisheries.
    The process to nominate and ultimately designate national marine 
sanctuaries is a public process that necessarily includes local 
stakeholders and the regional fishery management councils--that is a 
good thing. However, the process would be strengthened by requiring 
initial involvement in proposal submission by local community groups 
that would be most impacted, closest to the proposed sanctuary. 
Regional fishery management councils must be consulted prior to 
designation, but in the North Pacific, the local fishery management 
council is the right management authority in place, already doing the 
work of a sanctuary. The North Pacific Fishery Management Council is 
supported by the local communities, and the Council utilizes an 
effective ecosystem based process to protect and conserve the marine 
environment, while providing research and educational opportunities.
    The Aleutians East Borough understands that National Marine 
Sanctuaries have National significance, not just of concern to local 
communities. But again, we believe the Council is the appropriate body 
in place to address not only the National significance criteria, but 
also any management considerations. We feel the waters of the North 
Pacific are already well protected, and we view future sanctuary 
designation protections as needlessly permanent and static, and 
potentially harmful to the local economies.
    Thank you for your consideration. I am happy to answer any 
questions you may have.

    Senator Sullivan. Thank you, Mr. Weiss.
    Mr. Hickman.

          STATEMENT OF CAPTAIN SCOTT HICKMAN, OWNER, 
                      CIRCLE H OUTFITTERS

    Mr. Hickman. Good morning. Mr. Chairman, Chairman Sullivan, 
Ranking Member Peters, thank you for having me here today, and 
members of the Committee.
    I'm Captain Scott Hickman. I'm a 30-year professional 
fisherman in the Gulf of Mexico. I'm a volunteer--I started--I 
have the heart of a volunteer, started when I was 18 years old 
and I volunteered to serve my country in the Marine Corps. I 
sat on numerous advisory panels for the Gulf Council, as well 
as serving on the Flower Garden Banks National Marine Sanctuary 
Council as the recreational seat.
    For centuries, in the Gulf of Mexico----
    Senator Sullivan. For the record, we have a couple of 
Marines on the dais here, so we're liking your testimony 
already.
    Mr. Hickman. Semper Fi, sirs.
    For centuries, in the U.S. Gulf of Mexico, thousands of men 
and women for countless generations have responsibly and 
sustainably accessed, while wisely harvesting, the bounty of 
both the Gulf's fisheries and our energy resources. Until just 
the last few years, the U.S. Government has practiced a proven 
and balanced multiple-use management policy for the America's 
people's resources in the Gulf of Mexico.
    Today, there are thousands of fishermen and oil rig workers 
offshore in Gulf of Mexico carefully and safely working to 
simultaneously harvest a tiny portion of the resources while 
responsibly providing the protections necessary to assure there 
will be plenty of resources for tomorrow. The non-harvestable 
resources are equally important and must be protected from 
over-fishing and unfortunate oil spills seen in countries 
around this world.
    Care comes in many forms, some from responsible 
regulations, but more from engaged stakeholders working to 
protect and responsibly manage resources in nationally 
significant places. That's why I volunteered and currently 
serve on the Council. Many other fishing industry leadership 
roles and members do these same tasks day to day and work hard 
for these sanctuaries.
    We must select only places that are truly nationally 
significant to all of our folks in the United States. The 
Federal agencies charged with regulating and managing multi-use 
activities must be sensitive to the balance of protecting and 
enhancing American jobs in our coastal communities, just as 
much as protecting marine life from over-fishing and 
significant oil destruction.
    The National Marine Sanctuaries program is a critical part 
of finding that balance, but only if the stakeholders in the 
Gulf of Mexico are part of this process. That is why the 
National Marine Sanctuaries law created advisory councils of 
broad stakeholder groups for each sanctuary. For the Flower 
Garden Banks National Marine Sanctuary, there are eight 
stakeholder groups represented on the Council, along with non-
voting agency representatives, over 20 men and women that do an 
amazing job of educating and listening to one another to 
collaborate in developing solutions. Federal management in the 
Gulf of Mexico is so much better for the dedication and 
commitment of these SAC members.
    In 2007, the SAC recommended a boundary expansion, now 
called Alternative 2, that is over 100 square miles smaller 
than the NOAA preferred Alternative Number 3 recommended today. 
The current SAC is working cooperatively to make an additional 
boundary expansion recommendation anticipated in 2017, this 
year. Sadly, we have been marginalized in the current process.
    In February 2015, the NEPA process caused the Office of 
National Marine Sanctuary staff to go behind closed doors to 
develop the Draft Environmental Impact Statement and 
recommendations. This should be amended to have SAC members 
involved in the DEIS process and development. The 2007 SAC 
recommended the addition of six banks with a slight alteration 
of the existing three, but staff's preferred alternative added 
six additional banks to the 2007 recommendation with more 
arbitrary boundaries encompassing twice as much area, leaving 
many areas off limits to fishing and drilling as it is 
proposed.
    Interagency coordination for platforms to be reefed-in-
place is consistently delayed, often over 2 years. When finally 
reefed-in-place, hopefully late this summer, High Island A-389 
will be the first artificial reef in a National Marine 
Sanctuary. We are excited to see this platform become a success 
story in artificial reefing, home to many, many thousands of 
marine creatures. In my view, and recommended by the Gulf of 
Mexico Fishery Management Council, the areas known as BOEM No 
Activity Zones could be limits of any boundary.
    Last, I hope you will study and embrace the SAC 
recommendations of 2007 and 2017 and, therefore, help us make 
the best decisions on this expansion when the Commerce 
Secretary makes his final formal recommendation to the 
Congress.
    Thank you for inviting me to testify. This has been a true 
honor and a humbling experience to testify before this body of 
the Senate. It would be a great honor and privilege to answer 
any of your questions after my statement.
    Thank you.
    [The prepared statement of Mr. Hickman follows:]

Prepared Statement of Captain Scott Hickman, Owner, Circle H Outfitters
    To the American Peoples' U.S. Senators,

    I sit to serve my country here with this testimony from more than 
30 years of professional fishing experience in the Gulf of Mexico 
(GOM).
    For centuries in the U.S. GOM, thousands of men and women for 
countless generations have responsibly and sustainably accessed and 
wisely harvested the bounty of both the Gulf's fisheries and energy 
resources. Until just the last few years, the U.S. Government has 
practiced a balanced, wise, proven, and time-tested policy of 
``multiple use'' management of the American people's resources on 
Federal lands in the GOM, for the benefit of all Americans and their 
generations to come. Today, should be no different, and as I speak, 
there are tens of thousands of fishermen and oil workers offshore in 
the GOM right now, carefully and safely working there to simultaneously 
harvest a truly tiny portion of the resource this very day, and to act 
responsibly to provide for the protection necessary to assure that 
there will be plenty of resources there tomorrow. The non-harvestable 
resources are equally important and must certainly be protected from 
overfishing and oil spills, as is seen in other countries around the 
world.
    Please understand that there are two critically important systems 
to balance in the GOM. First, is the ecologic system of vibrant, 
flourishing, and magnificent marine life. Second, of equal importance, 
is an economic system of vibrant, flourishing, and magnificent human 
life. These two major systems of natural and human activity are 
interlinked in a delicate balance, where each can benefit and grow from 
the other, if managed wisely. Care comes in many forms--some comes from 
responsible regulations, but more care comes from engaged stakeholders 
working to protect and responsibly manage resources and nationally 
significant places. That's why I volunteered and currently serve as an 
Advisory Council member as well as many other industry leadership and 
fishery management advisory roles.
The National Marine Sanctuaries Program (NMSP)
    As I've come to learn about the National Marine Sanctuary Program 
by directly participating in it, I've realized that when created, it 
was different from what the word ``sanctuary'' says in the dictionary. 
I'm told that they wrestled with it, but could do no better, always 
concerned that it created the mindset of a marine exclusionary 
preserve. Rather than just creating and protecting a refuge area like a 
marine preserve, the program law calls for multiple use to the point 
where it says we shall ``improve the conservation, understanding, 
management, and wise and sustainable use of marine resources''.
    Fisheries can always be a sustainable use of marine resources, and 
when practiced as we do in the GOM, it assures that even more resources 
will be present in future times. Petroleum production is also sort of 
sustainable, in that its wise and safe production can pave the way for 
more discovery and development, as petroleum companies drill deeper and 
deeper into the earth for new deeper pools that we will need tomorrow. 
Simply put, we need more platforms for fish habitat, more habitat for 
marine life attached to each leg since each platform is a top-to-bottom 
food chain, and more petroleum providing American-sourced petroleum to 
our people and economy. That petroleum also displaces some of the 40+ 
tankers carrying foreign oil that constantly ship in and out of the GOM 
daily, mostly from Angola, Venezuela, and the Middle East, sending 
trillions of dollars out of America. and increasing the risk of 
collisions and very large tanker spills.
    This program, as constituted under the NMSA, is supposed to embrace 
ALL users, and only restrict or exclude access in but a few nationally 
significant special places. If we allow primarily the ONMS staff to 
define ``nationally significant'', or interpret the words in the NMSA 
to include more and larger areas of the GOM now and in the future, we 
have lost the balance that is so essential to the program. If areas 
around proposed sites are made too large, it will be extremely 
difficult for traditional users to function reasonably in such doubly-
regulated areas--by both the sanctuary and their traditional 
regulators. It will be difficult because they first have to comply with 
the longstanding regulatory requirements of their own oversight 
agencies, and then the supremacy of the protectionist sanctuary 
regulations in new sanctuary designated areas. This is a formula for 
excessive time delays and even stalemates, because it puts marine 
scientists in superior charge of the economic activity of ever 
increasing areas of the GOM.
    That's not good for all of us, whether they agree or not. What they 
tell me is that what they care about most is preserving most all marine 
life and their habitat (unless it is living on the legs of a petroleum 
platform--more about that later). More areas seem better to them, since 
many personally support Alternative 5 and even more than that, and so 
the danger is that the sanctuary program and its staff become the 
policeman of all multiple users in more and more areas in the future. 
There are over 20,000 seafloor anomalies identified by BOEM's 
interpretation of the oil industry's required submission of all its 
seismic data, acquired over half a century, most of which have never 
been ground-truthed. Most will be found to be carbonate substrate upon 
which some marine life lives, including black corals etc., and many 
others will be chemosynthetic communities attracted and sustained by 
all the natural oil seeps, and yes, others will be deepwater corals 
that grow prodigiously in many thousands of places in the GOM, 
including the deep legs of petroleum platforms on the deep shelf and 
beyond. HI-A-389 platform next to the FGBNMS has quite a few bushy 
colonies of common black coral on its 35 year old legs, beginning at 
about 350' down to the seafloor base at 400', as seen by a petroleum 
operator's ROV survey of its legs.
    Regulation over users in most areas is far better directed by the 
agencies that were created and built to do just that. NMFS, BOEM, BSEE 
all have rigorous environmental regulations governing all these many 
areas. Industry must comply with those, but some ``take'' is allowed. 
It is likely that future regulations from the ONMS for many areas 
targeted for expansion now and in the future, will be more severe to 
the point of ``no-take'' areas. Then, an agency of marine scientists 
who have their own goals and believe their goals are superior to all 
other stakeholders in the GOM will be supremely restricting the 
activities approved by those same industry regulatory agencies. This is 
a formula for eventual shutdown of industry activities in the GOM, at 
least as far as where most of it would otherwise take place.
    ONMS staff will argue that these current and future areas will take 
less than 1 percent of the surface area of the GOM, but the petroleum 
industry will counter argue that their activities take a similar 
surface area of less than 1 percent, and many are overlapping and 
aligned in the same place, because the seafloor structures that create 
the banks and carbonate substrate, often are directly related to the 
underground geology that traps the petroleum at those same locations. 
Fishing locations are the same way, we fish structure created by the 
underlying geology too, and if mapped out, would probably overlay the 
similar 1 percent of the GOM. So, we are all involved with these same 
areas of interest.
    Simply put, if the Office of National Marine Sanctuaries (ONMS) 
seeks to override another agency, or ignore the needs of multiple use 
stakeholders and thus not work out differences and a compromise, then 
it becomes counter-productive to the future health and services of the 
GOM for everyone--nature and human alike. Collaboration toward a common 
goal of multiple-use can and should be the mission, and not 
exclusionary protection of increasingly larger areas of the OCS and 
GOM.
    So, how do we sort out these seemingly conflicting needs and 
viewpoints. Compromise must be achieved, and ONMS's belief of what is 
``nationally significant' is the big problem. For Sanctuary status, we 
must select only places that are truly nationally significant or 
``special'' to all Americans, and not just places that marine 
scientists and their supporters feel are significant to them. If 
balance is ever lost tilting in one direction or the other, than all 
Americans suffer, not just the marine life or human life in and around 
the GOM. The Federal agencies charged with regulating and managing 
multiple-use activities have most always been sensitive to finding a 
balance of protecting and enhancing American jobs and coastal 
communities, just as much as protecting marine life from overfishing, 
oil spills, and sea bottom impact.
    Broadly defining that definition, as they apparently did in the 
DEIS by saying so about Alternative # 5, and ``marine preserving'' 
billions of individual marine life and habitat in the GOM with 
preservationist sanctuary regulations and large boundaries, is 
excessive. Most areas of the GOM are neither nationally significant, 
nor worthy of the supreme level of protection envisioned by Congress 
when they wrote the NMSA, yet they have the authority to declare it so. 
Nowadays, they need only a President to ultimately agree with them. 
Theoretically, with an environmentally aggressive President in office 
someday, the entire OCS could be declared nationally significant under 
NMSA, and most all fishing and petroleum development so restricted, it 
might as well be banned, There are literally no checks and balances to 
prevent this, and the American peoples' representatives, our Congress, 
have only consultative rights, and not the right to approve or 
disapprove. That needs to change, as with the Antiquities Act too.
    Last year, the Obama Administration used the Antiquities Act to 
create a 5,000+ sq mile marine national monument in very deepwater off 
Cape Cod, I'm told this was done to avoid the multi-year sanctuary 
review process and create it immediately, and to go forward without 
ONMS management. So, now it will be administered by the Fish & Wildlife 
Service at DOI, and yet, it's a marine sanctuary. I'm not going to 
comment on this decades-long debate, as to whether DOI or DOC should 
administer offshore resources alone, but this is very confusing and 
problematic for all the stakeholders on the OCS, especially if this is 
the future model.
Boundary Expansion and the DEIS
    The 2007 SAC had recommended the addition of 6 bank area (9 total 
new banks) with slight alterations of the existing 3 banks; but, NMSP 
staff's Preferred Alternative (#3) added 6 additional banks in 3 new 
bank areas to the 2007 recommendation drawn. Those 3 new bank areas 
were drawn with much larger and more arbitrary boundaries. As a result, 
we found that many key national economic interest areas might not be 
drilled or even possibly fished someday, if left as large and as many 
as they proposed. Already, one petroleum company has relinquished a 
lease one of the new Alternative # 3 added areas, in reaction to last 
June's announcement arbitrarily including their entire lease, with more 
than half the sea bottom a mud flat, not nationally significant sea 
floor. They tell me that they believe it to contain a giant oilfield of 
over 100 million barrels of oil equivalent. Their geoscientists believe 
many of these bank-covered salt domes contain similar deep giant fields 
of petroleum yet to be drilled and discovered. Most of the 12-18 dome 
flanks have never been drilled below 10,000,, yet new state-of-the art 
seismic technology is allowing companies to see more clearly down to 
20-30,000,, where apparently very giant potential may exist for our 
country.
    The biggest problems derive from their desire to include deep 
flanks of the banks, in over 275, of water (below BOEM NAZ 85m cutoff), 
where BOEM for decades has prescribed as the depth needing protection 
from petroleum activities. The areas above that depth on the banks are 
known as ``No Activity Zones'' (NAZ). Now, NMSP wants to include much 
more than the BOEM NAZ areas by including broad flanks in the sanctuary 
expansion. With the often flattening of the elevation past this NAZ 
depth, it creates larger and larger areas to be included in their 
regulatory boundaries. It is a simple fact, that their regulation is 
now missioned to greatly restrict, and/or prohibit, economic activities 
in these larger bank areas, beyond the BOEM-BSEE NAZ areas, which is 
problematic for petroleum explorers and fisherman alike.
    The DEIS is a massive document, with staff and many adjunct non-
NMSP marine scientist researchers' wishes included therein. In fact, by 
the DEIS stating that these excessive Alternative 4 & 5 areas 
nationally significant, it is essentially now advocating for eventual 
NMSP protection, and thus against most economic stakeholder groups 
continuing to have traditional and normal access to nearly 50 sites on 
both the shelf and slope offshore Louisiana, Texas, and MAFLA. This is 
an unacceptable escalation of marine preserve-style marine governance, 
and might have been prevented if the stakeholders had been involved 
with the formulation of the DEIS. Of course, they were not included due 
to NEPA.
    Today's DEIS excessive Alternative 5 option, quickly becomes the 
next goal for the staff stakeholders, regardless of threats to 
livelihoods and multiple use needs of other stakeholders. It can be an 
ever escalating spiral, unless a narrowly strong ``bulwark'' definition 
of ``national significance'' is set in laws written by the peoples' 
Congress & President, and not the marine scientist stakeholder group. 
The NMSA wording needs more protection for economic interests in areas 
targeted by staff for future sanctuary designation. Their local 
budgets, projects, conference paper presentations, awards, professional 
standing, and even future promotions & compensation all seem enhanced 
by staff recommending ever increasing areas of heavily restricted or 
even closed marine preserve-like areas.
    I'm old enough to remember that long before there was NMSA 
jurisdiction, and regulation from even the existing agencies that we 
have today, there were men and women throughout time that came 
together, much like we do on the SAC, and find common ground to solve 
the land access and land use challenges in the GOM before us. That is 
what we are all about--finding solutions where optimal results are 
produced for marine and human life together, because we are all linked 
together as one eco-system--both ecologic and economic.
    Resource harvesting from the GOM should continue in almost all 
areas, but not in those that are truly nationally significant. 
Restraining the marine scientists' excessive boundary expansion and 
their likely near-impossible regulations to access these areas is 
essential to prevent growing environmental land access elimination for 
ALL the other multi-users across the GOM in the years ahead. 
Recreational and commercial fishing, petroleum development, and even 
shipping, can co-exist being regulated by their current Federal 
regulators, and not by the ONMS staff. Sanctuary areas need to be 
contained to only what is truly of ``national significance'', and not 
just wish lists from marine scientists. Sadly, NOAA states on page 3-12 
of the DEIS ``Both public scoping for this DEIS and NOAA's internal and 
cooperating agency consultations identified the included sites as 
nationally significant''. Where will this end? Nearly 50 sites are 
supposedly nationally significant under Alternative #5. How many more 
thousands will meet such a low standard if a new greener Administration 
comes into office someday? If that day comes, will the GOM shelf and 
slope be accessible for petroleum development, fishing, shipping, and 
other common uses today? Most all areas of seafloor topography have 
benthic & pelagic marine life, fishing and underlying petroleum 
development potential, because the structures are caused by earth 
movements and natural features, which attract all.
    Clearly, this broken NEPA process that produced this one-sided 
DEIS, should be amended to at least have SAC members involved in future 
DEIS development as full partners with staff, and not let the taxpayer 
funded staff expend their staff time and resources without 
collaboration with all the other stakeholders than just themselves. 
NEPA gives the staff an unfair advantage in proffering their desires 
into one-sided taxpayer funded work and documents by excluding all SAC 
members and their stakeholder groups, and yet still including all other 
marine and even some non-marine scientists in primarily government and 
even academia. For stakeholders to produce an alternative DEIS document 
would take excessive time and funding on their own. Even now, the 
process of SAC involvement in the Final environmental Impact Statement 
(FEIS) is not clear. We seem to have no more ``say'' than the general 
public, since staff does not have to accept any of our recommendations 
at all. In the hands of an exclusionary, environmental-only focused 
future Administration, not even Congress could stop this expansion or 
any future expansions, under current law. This too needs to be amended 
in the NMSA. All future expansions of any kind must be approved by both 
the Senate and the House, and be signed into law by the President. Only 
then, will staff not be almost totally in control of future expansions, 
and the size and regulations of any new areas. It's almost a blank 
check for them to expand as they desire, without Congress's ability to 
stop it. With 14 Sanctuaries off all U.S. coasts, every future addition 
to any Sanctuary could be easily called simply an expansion, and not 
require House and Senate approval. Under the NMSA now, the House and 
Senate committees have only 45 days to advise the Administration. So-
called ``Administrative Expansion'' and regular expansion should be 
required to go through the full House and Senate from now on.
    Designating OCS lands as sanctuaries, with all the significant 
restrictions that typically then occur, could be as bad as the 
arbitrary designations of National Monuments under the Antiquities Act. 
Even the ``Hutchinson Amendment'' to the NMSA (Sec. 304 (f)--page 8) 
added in 2000, to put budgetary control on any future expansions, has 
not precluded the ``Administrative Expansion'' of very large areas on 
the OCS during the recent Administration. How is that possible, when 
the Sanctuary budget hardly ever grows? Even in this DEIS, it declares 
no budgetary resources are needed for it to expand the 9-15 new banks 
it would add under Alt 2 or 3. It is hard to understand how this is 
possible, when they acknowledge that Alternative 4 & 5 would require 
more resources, but were included in the DEIS as alternatives because 
they are supposedly ``nationally significant''. The Hutchinson 
Amendment to the 2000 revision may be causing them to state this, but 
is it really having the desired effect it was intended to do. I cannot 
answer that, because I was not part of its passage in 2000, but it was 
seemingly intended to restrict new sanctuaries and expansions until 
they have the budgets to pay for them, which it does not seem as though 
it achieved. The Sanctuary program does receive additional financial 
funding from the National Marine Sanctuary Foundation, which is often a 
designated recipient by U.S. courts that decide a marine law violator 
must pay fines, which sometimes go to the NMSF as recipient, who in 
turn contributes to ONMS projects of various kinds. Transfer of the 
resources to ONMS-involved projects somehow occurs, but the point is 
that there is supplemental funding assisting the ONMS to do items that 
might otherwise have been budget requests of Congress and the 
Administration.
    Trying to get approvals on a timely basis from Sanctuary staff and 
Corp of Engineers staff for the current project to reef-in-place the A-
389 platform has been repeatedly delayed, now running over 2 years. The 
Rigs-to-Reefs program is floundering with industry non-participation, 
because the economic incentives are destroyed by regulatory permitting 
delays and restrictions for reefing. Nearly 2,000 artificial reef 
platforms have been removed and destroyed in the last 25 years, and the 
loss of marine habitat is monumental and is actually horrific. Billions 
of living marine creatures living on the removed platforms were lifted 
to the surface on barges and taken ashore to scrap yards left to die 
out of water in the on land. The bureaucracy of the R2R program needs 
to change, lest we lose nearly all remaining 2,100+ producing petroleum 
platforms similarly to the scrap yard. We need the continued multiple 
use of these impressive marine habitat areas now, more than ever. After 
years of permitting delays, we are just now seeing the potential 
decommissioning of a petroleum platform near the East Flower Garden 
Bank, within the sanctuary. It stands as a testament to every platform 
in the GOM, as tremendous marine life habitat, of all kinds. When 
finally reefed-in-place, hopefully late this summer, it will be the 
first artificial reef in a national marine sanctuary. We are excited to 
see the HI-A-389 platform become a reef-in-place artificial reef, home 
to many thousands of marine creatures. However, it may be the last 
ever. More on that in a moment.
    Petroleum leasing of all sanctuary designated areas must continue 
to be allowed as well; since as the salt domes push up thru the earth, 
they trap petroleum reserves at high angles on their flanks. Sometimes, 
like a donut around a donut hole, billion and billions of gallons in 
size. Considering the U.S. consumes 840 million gallons of oil per day, 
and thus about 300 billion gallons per year, with the rest of the world 
consuming 4.5 times that or 1.3 trillion gallons of crude oil per year, 
we might want to preserve drilling access to all these GOM areas basin 
wide, so as to provide American-sourced petroleum to our people and our 
economy. Especially if these banks are 12-18 of the hundreds of banks 
and commonly black coral ridges seen in the ever increasing deeper 
water to the south. We don't want to set precedents for exclusionary 
policies and regulations here, that a future enviro-extreme 
Administration might try and extend to this bountiful multiple resource 
area of the GOM. Certainly, there are many extremists in the 
environmental movement that want to stop fishing and petroleum 
production in the GOM, but the American people don't want their GOM 
turned into the private aquarium of government, academia, and open just 
to marine science researchers. That wouldn't be prudent, as one 
President used to say.
Critical Definition of National Significance
    Clearly, much of today's debate hinges on what is truly 
``nationally significant'', as stated in the NMSA by Congress, as the 
main criteria to be considered for National Marine Sanctuary 
designation. Now consider, the inferred definition there is ill-defined 
at best. Certainly a typically environmentalist definition would 
include every living marine creature in the GOM, but if that is the 
definition, then we would turn the GOM into a limited-human access 
environmental aquarium, where humans might visit but never access any 
land or water for any length of time.
    A more reasoned and balanced definition would indeed take into 
account all the ``natural resources'' i.e., coral, oil, gas, fish, 
birds, plankton, algae, chemosynthetic communities, etc., BUT equally, 
their ``socioeconomic importance''. This is where the rubber hits the 
road, so to speak, and what just does not compute with the marine 
science researchers. With their government paychecks and pensions, they 
are more insulated from the need to make a living, and certainly as a 
fisherman, petroleum developers. And shipping company. It is one thing 
to preserve, protect, and defend every marine and non-marine creature 
in or on the GOM, when there are trillions of individual creatures 
there. Commonality is a perspective that is too often lost on those 
that fight to protect just the marine environment. No one, especially 
the fishermen and oilmen that I know, want to plunder and spoil the 
natural environment of the GOM. In fact, many of us also want to both 
protect and improve on what God has provided, by wisely managing the 
resources sustainably. Excluding the multiple users of the GOM goes too 
far.
    Keep in mind, the GOM is constantly evolving and changing 
throughout time. You can never keep it the way it is today. Mother 
Nature above all else, won't allow it. My geologist friends often 
remind me that sea level was 300 feet lower than today just about 10-
15,000 years ago. Massive glacial ice sheets were as far south as 
Kentucky, and these 150,-350, deep banks 100 miles offshore today were 
shallow islands just offshore of the coastline at the time of their 
flourishing growth, now most all drowned by real rising sea level of 
hundreds of feet. Some kept up with the massive rise in sea-level for a 
while, and are between 150-250, deep today, but only the two Flower 
Garden Banks at 65, today, rose fast enough to keep a great big coral 
colony on the 200+ acre coral cap. Now that's climate change in a 
natural way.
    So in the end, what should we decide is nationally significant? It 
is easy for environmentalists to say that every coral colony, 
chemosynthetic community, and carbonate substrate on the bottom is 
precious and should be protected. Interestingly, the chemosynthetic 
communities feed on the massive natural oil seeps of the GOM, which 
according to the National Academy of Science 2003 report, I'm told they 
produce from 84,000-420,000 gallons per day, which is about 5-20 
percent of the BP blowout every day. That's why the chemosynthetic 
communities exist and are there.
    The National Academy of Science published that lower estimate in 
2003, that roughly the many hundreds of natural oil seeps just south of 
these banks. In fact, during the past 50 years, the oil industry has 
submitted over 250,000 sq km of seismic data to BOEM. BOEM's 
geophysicist teams have performed an invaluable seafloor seismic 
interpretation of all that industry seismic data, showing most of the 
possible carbonate substrate, coral areas, and chemosynthetic community 
areas on the seafloor in the GOM. In the areas just south of these 
banks on the 100 mile north-south long slope, where most deepwater 
drilling is taking place today, they have mapped nearly 20,000 probable 
individual sites of deepwater carbonate substrate, black or white 
(lophelia) coral and chemosynthetic communities, where marine life 
flourishes, including around all the hundreds of natural oil seeps.
    Are all of these marine life occurrences of national significance, 
deserving sanctuary protection today or in the future? Policies and 
criteria determined to draw expansion lines and regulations today for 
the 12 or 18 drowned coral banks proposed in Alt 2-3 of the DEIS, will 
set precedent for future expansion to possibly include some more of the 
those 20,000 seafloor seismic anomalies, that are undoubtedly carbonate 
substrate, coral and carbonate-oil seep communities. So which of these 
20,000 deserve exclusionary protection from man harvesting of natural 
resources--both fishing and petroleum, around them? Or, can fishing and 
petroleum resources be harvested without much damage to the 
environment? BOEM, BSEE, and NMFS obviously believe they can handle the 
regulatory job of environmental protection without eventual ONMS 
designations of all these areas.
    Of course, they can. That is why the exclusionary Sanctuary 
designation is only necessary for the most unique and endangered 
resource areas. For what is truly nationally significant! We have many 
laws (ESA) to protect those endangered of extinction already too, but 
we must not misuse the NMSA and its nationally significant designation 
to close large areas of land that have marine creatures by the millions 
and perhaps some have billions spread across the GOM. Sanctuary 
designation should be special and unique, not broadly brushed or spread 
widely, especially in the GOM where humans need its sustenance 
resources of fish and petroleum.
    With the current moratoriums on petroleum drilling everywhere else 
around 90 percent of the U.S. continental shelf, and this area being 
the most prolific of them all, producing about 25 percent of U.S. oil 
production and 10+ percent of U.S. gas production, we must find a 
better balance than this DEIS, only protecting what is truly unique by 
placing it in a sanctuary. That does not include all marine life that 
are found broadly and commonly in the GOM. It defeats the purpose of 
having a marine sanctuary program, as if every tract of onshore land 
was worthy of being a national park, because wildlife life lives on it. 
Sanctuary management is a severe and restrictive regulatory regime, no 
matter what the ONMS staff may suggest. They are marine biologists 
first, and have little interest patience in regulating and permitting 
fishing and petroleum.
HI-A-389 Petroleum Platform Reef-in-Place (The First (and maybe last) 
        in a Sanctuary)
    Today, after years of planning and permitting delays, we are only 
just now seeing the potential decommissioning of a petroleum platform 
just 8,000' away from the coral cap of the East Flower Garden Bank, 
within the FGBNMS. Set down on the seafloor in 1981, 10 years before 
the Sanctuary was designated, it stands as a testament to every 
platform in the GOM, as tremendous marine life habitat, of all kinds. 
When finally reefed-in-place later this summer, if the FGBNMS and BSEE 
can finally finish their paperwork, it will be a first--a magnificent 
artificial reef in a national marine sanctuary. Sadly, some in NOAA and 
its ONMS already look negatively upon this spectacular 65,-400, reef, 
because it is man-made and not natural. They would prefer it not be 
allowed to stay in the Sanctuary, and some even would prefer that all 
the marine life built up over 35 years on its legs be destroyed in a 
scrap yard onshore, because it is not worthy enough to live, having 
been born and/or made this platform their home. And they call 
themselves environmentalists, conservationists, and protectors of 
marine life. It makes no sense when they talk like that. It shows a 
complete bias and lack of objectivity, and despite their opposition, 
most of us on the SAC are excited to see the HI-A-389 platform finally 
become a reef-in-place petroleum platform artificial reef, home to many 
thousands of marine creatures. What a great manmade success story 
supporting a growing and healthy marine ecosystem. A true giant vector 
of marine life, and not just a few invasive species. Once again, 
balance has been achieved by sound minds collaborating between all 
stakeholders, even the somewhat reluctant staff.
    With 2,100+ petroleum platforms of 4 legs or larger still remaining 
in the GOM forming their own artificial reefs with amazing and highly 
prolific fish habitat, let alone producing American petroleum for 
Americans to consume, I am a strong advocate for creating more fish 
habitat platforms like these, by drilling for new oil & gas. My 
geologist friends tell me that these areas under consideration for 
boundary expansion are all major salt domes under the drowned banks on 
the seafloor. Those salt domes, like all salt domes, are where giant 
fields of petroleum are found. Interestingly, most all of these 
considered for expansion have never been drilled below 10,000, and my 
they tell me that when drilled deeper to as deep as 30,000,, new giant 
fields will inevitably be discovered around these banks, thanks to new 
seismic and drilling technology. So, in addition to new fish habitat 
being created when a new platform goes in after a discovery well is 
drilled, trillions of gallons of American oil & gas will likely be 
found around these domes, displacing foreign oil tankers in the GOM, as 
new seismic technology developed only recently, shows them where to 
drill. This is where the boundary line criteria really gets critical. 
BSEE already has reasonable bank areas over these bank-domes prohibited 
from drilling. These areas are truly the marine life concentrated areas 
down to almost 300, of water depth, that could be included in any 
sanctuary designation. The oil industry is not allowed by BOEM to drill 
in these areas now and we fisherman are already regulated in those 
areas by NMFS.
No Activity Zones (NAZ)
    In my view, and the view of many fisherman and oil industry people, 
those areas, known as BOEM-BSEE's ``No Activity Zones'' (NAZs), could 
easily be the limits of any boundary expansion. Sure, there are 
probably many thousands of marine creatures farther down the flattening 
low sloping flanks of the bank-domes to the surrounding seafloor at 
400+ feet, but because the slope quickly flattens from 300' to 400'+ 
feet, any sanctuary designation would take up twice or more as much 
land area, as just the BOEM-BSEE drilling prohibited NAZ areas.
    My understanding is that new technologies of synthetic olefin-based 
more biodegradable drilling mud fluids, make the mud cuttings shunting 
requirements optimal to protect the areas in the adjoining NAZ zones, 
should any rig need to drill within 100 feet of the boundary. This is a 
dramatic improvement over the days of drilling mud clay plumes drifting 
suspended in the water column from the rig covering marine creatures 
with a light film below, out a thousand feet or so from the rig. Of 
course, the longstanding earth-mud cuttings shunting technique and 
regulations to shunt, greatly reduced volumes of earth-mud cuttings in 
the water column, and will continue to be applied to minimize and/or 
prevent most any negative effect within the NAZ's. Fishing and 
petroleum development can easily continue to co-exist with the marine 
life on and surrounding these banks, and leasing must continue so 
limited directional drilling can be applied, when necessary .
    As to how we got to where we are today, with conflicting and 
polarized viewpoints on what to do for expansion? Clearly, the NEPA 
process that brought us to this point is broken in two ways. First, it 
is broken by not including the SAC in the process of preparing the 
DEIS, while staff called many university and government marine 
scientist around the GOM and invited their suggestions for areas to 
include in the sanctuary boundary expansion. That was NOT fair! It 
became a big academic and government wish list, with commercial 
stakeholders shut out. In fishing, we call that a ``feeding frenzy'', 
which is why Alternative 5 ballooned to almost 50 sites over 935 sq 
miles, nearly 20 times the size of the current sanctuary, which is an 
excessive number, and especially from the original 2007 SAC 
recommendation of just 220 sq miles more than present 56 sq miles. 
Secondly, the NEPA process is additionally flawed because it encourages 
wild and expansive Alternatives to be published and targeted with 
extreme boundaries and sizes--whether adding 50 sites in one extreme in 
Alt 5, or no expansion in Alt 1. What real value is that--unless you 
want to create political pressure to go for it all or none at all. It 
runs contrary to finding compromise by creating an environment where 
polarizing extremists thrive, and discussions toward balance are 
definitely hurt. This NEPA process is every extremists' dream policy, 
where every possible extreme proposal can get attention, consideration, 
and forced on traditional multiple use stakeholders. In a word, it 
``stinks'', like a box of spoiled fish, and needs to be thrown out. 
Please cut it back to no more than three alternatives with no more than 
say a 25 percent differential between all three. There need to be 
numerical sq. mile limits on expansion land increases, and most of all, 
true Congressional and Presidential approval before it can happen. This 
law needs to be changed, and changed asap, so these problems are not 
replicated in future sanctuary processes. The sanctuary program 
deserves better, the stakeholders deserve better, and the staff needs 
to be constrained so their needs are more appropriately included as 
just another stakeholder. Amending NEPA is where it begins, and now 
please.
The Rigs to Reefs Program--Future Savior of the Sanctuary?
    Additionally, I would be remiss if I did not mention another 
immediate crisis to our fishing industry that the sanctuary program is 
sadly only slightly involved with (via that soon-to-be reefed-in-place 
HI-A-389 platform). There is a far greater problem growing daily on the 
GOM OCS, where current laws and regulations regarding petroleum 
platform decommissioning are inadequate. Long term, unless most of the 
remaining 2,100+ 4-legged (or larger) petroleum platforms are left in 
place, the heightened fishing pressure on all natural seafloor 
topography/habitat, including all the banks of the FGBNMS, and those in 
this expansion and future ones, will rise rapidly and significantly 
over time. In fact, it's already taking place. Our SAC recently took 
public comment from fisherman based on the Mississippi River Delta, 
that they were now fishing 50 percent of their time on the far western 
banks proposed in this expansion. The reason--over the last 5 years, 
they've seen the removal of many of their prime fishing petroleum 
platforms off the Delta, as required of the petroleum companies under 
Federal platform decommissioning regulations. Thus, a new balance of 
regulation and facilitation on the Rigs-to-Reef (R2R) program must also 
be found, concurrently with what is nationally significant in the NMSP. 
We need these platforms as artificial reefs to remain in place for 
decades more, lest the Gulf become a barren mud flat again across its 
shelf, with marine life migrating to only the two dozen or so banks. We 
need an immediate declaration that all platform ``jackets'' in water 
depths greater than 85,, shall be allowed to remain in place when 
finished producing, with rapid permitting and approvals (which we do 
not have now). The Coast Guard should still require that they be cut 
off at 85, for navigation protection, but no more platforms in more 
than 85, of water should be removed. Not a single one, if possible 
please.
    When these platforms are decommissioned to scrapyards onshore, the 
marine life is killed, only because they were born and lived on a 
petroleum platform. Where is the outrage all the marine scientists 
around the GOM? They simply don't appear to care, since all the marine 
life lived on a manmade object. Is being politically correct more 
important than saving millions of precious marine creatures attached to 
the platforms, who simply call it their home? Recently, when asked by a 
petroleum industry (API) committee about this, a ONMS staff member 
stated that many marine scientists believe the platforms are nothing 
more than ``vectors for invasive species'', and thus characterized them 
negatively. From this fishermen's standpoint, they are ``vectors of 
substantial fish and marine life habitat and economic necessity'', 
whose loss will damage the GOM fisheries immeasurably if removed.
    Simply put, we need more decommission petroleum platforms to stay 
in place for fish habitat, thereby providing more habitat for all 
marine creatures on the GOM food chain, We have a crisis of historic 
proportions that NOAA and its ONMS and NMFS are seemingly not 
interested in stopping. Every platform is a unique ecosystem in its own 
right like a neighborhood or city, a ``Tower of Marine Life'' and 
``Ocean Oasis'' for millions of individual marine creatures. Most all 
of whom are destroyed when it is moved to shore or a designated 
centralized location near edge of the Louisiana shelf. The old 
Louisiana program to have the petroleum companies incur the removal and 
moving costs to move them to 8 deep shelf planning area sites all 
across the shelf at roughly 350, of water depth kills almost all of the 
marine life moved there, that lived on the legs above that depth. It's 
almost as bad as taking them to shore and scrapping them, except that 
new deep shelf pelagic fish do habitate there, and deepwater benthic 
platform-attaching creatures get a new home. Thankfully, Louisiana is 
now more supportive of Reefing-in-Place. Texas's approach, by 
encouraging and allowing the reefing-in-place of the entire underwater 
platform jacket for many years (cut off 85, below the surface for ship 
hull navigation avoidance), has produced many dozens of platform reefs-
in-place. Ideally, the tower of total bottom-to-top life from 0-400+, 
would be allowed to survive, but you'd need some insured entity to 
administer the quickly decaying surface platform structure, so it's not 
practical to keep the above water portion, nor the jacket down to the 
85, depth for navigation clearance.
    So, ideally, I would have hoped that the ONMS would have advocated 
and promoted the idea for the states and they to partner to preserve 
and maintain the underwater platform jackets after production has 
depleted, but they have never shown any real interest.
    So, BSEE and BOEM and the Corps of engineers (COE) need to learn to 
move twice or three times as fast to approve them, since the current 
process of submission and multiple bureaucratic reviews for reef-in-
place permits, quickly becomes uneconomic for petroleum companies to 
delay quicker removal. Every year of delay costs the companies over 
$100,000 and more in operating costs, and subject to BSEE's inspection 
``inks'' that often cite them for not highly maintaining a platform. 
With no revenue from production anymore, just large maintenance costs 
are incurred while potentially waiting years for Rigs-to-Reef 
approvals.
    Many fisherman agree with me that Rigs to Reef (R2R) of any kind 
should not take a day longer than permitting a platform for removal. 
You might even temporarily provide more incentive for the petroleum 
companies to hassle with the special paperwork and current delays for 
R2R until improved, by changing the 50-50 percent split on cost savings 
between the State and the Operator removing the platform for Reef-in-
Place only. It should be raised temporarily to 66 percent operator-34 
percent state, in order to help pay for the cost to maintain a non-
revenue producing platform, until the permitting time can be made 
equivalent to removal. In short, we could save a tremendous amount of 
marine life habitat, if we simply managed the decommissioning of the 
platforms more wisely.
    Sadly, without relief on the Decomm timing regulations, and the 
conversion of 95 percent of the 200+ Decomm platforms lost to the scrap 
yards every year, another 1,000 out of the 2,500 platforms will likely 
be gone over just the next 5-7 years. 1,000 were lost in the last 5 
years (see BSEE table below). 15 years from now, 90 percent of all 
remaining today could potentially be gone, and the fishing pressure put 
on these 12-18 sanctuary banks in Alternatives 2-3 off the shelf will 
be tremendous. The potentially significant reduction of GOM pelagic 
fishing will be huge and potentially devastating to both the fishery 
and the fishermen. Please do something to protect these platforms from 
removal, whether the ONMS considers them unworthy of protection or not.
    Here are the numbers per my SAC Chair's queries of BSEE:

------------------------------------------------------------------------
    Year          Installed          Decommissioned          Standing
------------------------------------------------------------------------
2012          10                 286                     2814
2013          17                 223                     2608
2014          21                 203                     2426
2015          4                  128                     2302
2016          2                  189                     2115
------------------------------------------------------------------------
Per BSEE June 2017 communication e-mail (BSEE D. Peter to SAC Chair C.
  Moore).

    Additionally, trying to get approvals on a timely basis from 
Sanctuary and Corp of Engineers marine science staff preparing the 
environmental assessments (EA) for the current reefing-in-place of the 
HI-A-389 platform has been repeatedly delayed by their painful slowness 
and mistakes, now running well over 2 years. The entire Rigs-to-Reef 
program is falling short with petroleum industry non-participation, 
because the economic incentives are limited and often even flipped 
negatively against donors by all the regulatory steps required to R2R a 
depleted field platform versus just removing it to the scrap yards 
onshore.
    I cannot emphasize this enough--over 1,000 artificial reef 
platforms have been destroyed in the last 5 years alone, and the loss 
of marine habitat is horrible and bordering on highly destructive of 
the environment. Probably billions of living marine creatures living on 
the removed platforms were lifted up to the surface on barges, taken 
ashore to scrap yards, and left to die in the scrap yards.
    In 1995, San Pedro California banned future scrapping operations of 
platforms in their harbor, because it took 3 months for the citywide 
stench from just three Chevron platforms removed there to decay and 
dissipate. The bureaucracy of the R2R program needs to change too, lest 
we lose most all remaining 2,100+ producing petroleum platforms to the 
scrap yard, because of more bureaucracy for R2R. If not abated, that 
will destroy more essential fish habitat (EFH), let alone millions of 
marine creatures that call those platforms home, that currently help 
sustain our current and future fisheries.
    Again, I repeat, we've lost over 1,000 in the last 5 years, and 
2,000 in the last 20 years, and we can't afford to lose the remaining 
2,100 over the next 20 years, let alone another 1,000 in the next 5 
years. Please do something about this marine life holocaust.
Finale
    As to the FGBNMS Boundary Expansion, we need the continued multiple 
use of these marine areas more than ever, not more marine protected 
reserves for the exclusionary use of government, academic, and enviro-
ngo researchers. We have all survived and thrived together in these 
areas under existing regulation for decades, where 1) BSEE-BOEM 
regulates petroleum, 2) NMFS and its Gulf of Mexico Fisheries 
Management Council (GMFMC) regulates fisheries, and 3) NOAA et al's 
marine research continues just fine, without broad big areas of 
exclusionary marine research-only zones.
    Congress can lead on this, as can the new Administration, by 
amending the National Marine Sanctuaries Act, the NEPA, and getting 
BSEE-BOEM-COE to encourage and quickly pre-permit all the platforms 
over 85, water depth as Reefs-in-Place opportunities. Most of all, we 
need clear direction from the new Congress and the new Administration, 
as to how they can grow the biomass of the GOM to a healthier level 
without roping off significant areas as marine sanctuaries. We must 
avoid the extreme endpoints and views, where nothing is protected or 
everything is protected. National Significance designation needs to be 
protected too--protected so it really means something and not just the 
desires of marine scientists (God bless them), who mean well but 
naturally tend to try and ignore the economic needs of their fellow 
Americans. All can flourish, and without over regulation. We can do 
this, if the new Congress and the new Administration first has the 
will, and then the skill and fortitude to rewrite and implement the 
laws above, and implement policy quickly. As we Marines love to say, 
Semper Fi! Let's be prepared to move forward with the right decisions 
that benefit the GOM and all of its future generations--both human and 
marine life. Move Forward Everyone!
    Lastly, I hope you will study and embrace both the SAC 
recommendations of 2007 and 2018, and thereby help us help you make the 
best decisions on boundary expansion, when the President and his 
Commerce Secretary make his final formal recommendation to the 
Congress. We think our two recommendations, about 10 years apart, will 
be a more balanced and optimal solution than NOAA ONMS staff has 
proposed, and we're most of all, very proud of the way we arrived at it 
in 2007, and will arrive at it later this year--through collaboration, 
and consensus building among all stakeholders, who represent all the 
American people around the GOM.
    Thank you so much for inviting me to testify in-person, and provide 
written testimony. This has been an honor and a humbling experience to 
testify before our U.S. Senate. It would be both a great honor and a 
privilege to answer any more of your questions.

    Senator Sullivan. Thank you, Captain Hickman, and the 
Ranking Member, who is a Navy veteran, reminded me that the 
Marines are a part of the department of the Navy. So I'm just 
going to include that for the record here, trying to be 
bipartisan and show inter-service respect.
    Our next witness is Captain O'Brien.
    Sir, you have the floor.

             STATEMENT OF CAPTAIN JEREMIAH O'BRIEN,

 FORMER PRESIDENT, MORRO BAY COMMERCIAL FISHERMEN'S ASSOCIATION

    Mr. O'Brien. Well, I'm an Army man, so I'll probably only 
get 3 minutes.
    [Laughter.]
    Mr. O'Brien. Chairman Sullivan, members of the 
Subcommittee, thanks very much for the privilege of being here 
today.
    My name is Jeremiah O'Brien. My home port is Morro Bay, 
California. I'm currently the Vice President of the Morro Bay 
Commercial Fishermen's Organization. I'm on the Board of 
Directors of the Morro Bay Community Fund, and I am a member of 
the Harbor Advisory Board in the City of Morro Bay, and also a 
37-year commercial fisherman.
    For the general public, who only see sanctuaries as helping 
to preserve ocean health, but who have little knowledge of 
sanctuary management actions, sanctuaries are a positive, and 
there is high support. To their credit, sanctuaries are good at 
inspiring care of the ocean, a worthwhile goal.
    However, for those who are engaged directly with sanctuary 
managers over the resource management, sanctuaries have a mixed 
scorecard, at best. By their actions, sanctuaries have created 
a difficult relationship with recreational and commercial 
fishermen, in particular.
    Difficulties arise from the lack of clarity between the 
Magnuson-Stevens Conservation and Fisheries Management Act and 
the National Marine Sanctuaries Act, both of which allow for 
the creation of fishing regulations. For sanctuaries, this 
power has emboldened them, particularly over habitat issues. 
For fishermen and fishery managers, the fact that sanctuaries 
can overrule the Regional Fishery Management Councils, with 
eight National Standards serving as the Council's guide, is 
disconcerting and not in the best interest of ocean health.
    Sanctuaries, on the other hand, have weak science 
capabilities and a poor, self-serving public process. On what 
basis will a sanctuary overrule the science-based management of 
a Regional Management Council is a question that we always 
have. I hope that Congress will make it clear that the 
Magnuson-Stevens Act is the Nation's law for fisheries and 
habitat management.
    Another major problem are the interpretations by sanctuary 
program leaders--and I'm going to throw this in off script--
that I've heard testimony from various people who are having 
significant success with their sanctuaries, but that doesn't 
mean that each and every one carry the same management 
practices. So, in this case, we are not having success.
    Another major problem are the interpretations by sanctuary 
program leaders of the terms, sanctuary and protection, 
interpreted to mean steadily limiting human uses of the marine 
resources. One only needs to look to the charter for the 
Sanctuaries' Advisory Councils, mandated for use by the Office 
of National Marine Sanctuaries, to see how the bent toward the 
preservation, not the conservation, of resources occurs.
    The lean toward preservation directly caused the Monterey 
and Channel Islands National Marine Sanctuaries to lead efforts 
to create no-fishing zones, when we were promised that wouldn't 
happen, taking the finest fishing grounds away from historic 
users. Sanctuary managers are so driven to limit human uses 
that they violated the principles of ecosystem-based 
management, as well as the Sanctuaries Act to provide for 
comprehensive and coordinated management. They ignored our 
safety at sea concerns, the effects of displacing fishing 
efforts, and they refused to consider other fishing and habitat 
regulations, as the no-fishing zones were proposed.
    Fisheries in California are currently managed by the 
Pacific Fishery Management Council, the National Marine 
Fisheries Service, and for state fisheries, our Department of 
Fish and Wildlife. It seems that many NGOs, with their own 
agendas, already seek to go around our normal fisheries 
management, and if we add sanctuaries as yet another entity 
with regulatory powers to contend with, how will it be possible 
for us to do business or attract others into our business? So 
sanctuaries only bring their values to the table, and not 
science values.
    In California we have four National Marine Sanctuaries, 
with two more being proposed. Despite their original 
Designation Documents, each one has areas closed to fishing 
because of sanctuary efforts. Commercial fishermen wonder, is 
it really the intention of Congress that over 12,000 square 
miles of the California coast, with another 5,000 proposed, be 
deemed of sanctuary importance? What is so special if 
everything on the coast is special?
    Finally, there is the issue of trust. Sanctuary managers 
have cast aside the good will of the recreational and 
commercial fishing communities by violating the promises made 
to us by NOAA officials and elected leaders that sanctuaries 
will not threaten our livelihoods. Through years of cherry-
picked science, a lack of transparency, and favoring a 
preservationist and inaccurate interpretation of the 
Sanctuaries Act, fishermen have rationally concluded that 
sanctuaries are not to be trusted.
    Sanctuary management actions have economically harmed the 
commercial and sanctuary management actions have economically 
harmed the commercial and recreational fishing industries. In 
my home port area, the Monterey Bay National Marine Sanctuary 
led an effort that closed almost half of our best fishing 
grounds in state waters. This is why proposals for new or 
expanded sanctuaries are being vigorously opposed by fishermen 
and anglers. The actions of the sanctuaries are not helping 
U.S. Commerce Secretary Ross in meeting his goal of reducing 
the Nation's dependence on imported seafood.
    Chairman Sullivan and members of the Subcommittee, my 
written testimony provides numerous examples of concerns I 
express here today. In addition to this testimony, I can make 
available to the Subcommittee documentation to support any and 
all of the events that I described.
    Thank you for considering my experience with the National 
Marine Sanctuaries Program.
    [The prepared statement of Mr. O'Brien follows:]

        Prepared Statement of Jeremiah O'Brien, Vice President, 
             Morro Bay Commercial Fishermen's Organization
    Chairman Sullivan and members of the Subcommittee,

    My name is Jeremiah O'Brien, and my home port is Morro Bay, 
California. I am the Vice President of the Morro Bay Commercial 
Fishermen's Organization. I am on the Board of Directors of the Morro 
Bay Community Fund, and I am a member of the Harbor Advisory Board.
    For the general public, who only see sanctuaries as helping to 
preserve ocean health, but who have little knowledge of sanctuary 
management actions, sanctuaries are a positive, and their support is 
high. To their credit, sanctuaries are good at inspiring care of the 
ocean, a worthwhile goal.
    However, for those who are engaged directly with sanctuary managers 
over resource management, sanctuaries have a mixed scorecard, at best. 
By their actions Sanctuaries have created a difficult relationship with 
recreational and commercial fishermen, in particular.
    Difficulties arise in part from a lack of clarity between the 
Magnuson-Stevens Conservation and Fisheries Management Act, and the 
National Marine Sanctuaries Act, both of which allow for the creation 
of fishing regulations. For sanctuaries, this power has emboldened 
them, particularly over habitat issues. For fishermen and fishery 
managers, the fact that sanctuaries can overrule the Regional Fishery 
Management Councils, with eight National Standards serving as the 
council's guide, is disconcerting, and not in the best interest of 
ocean health. Sanctuaries, on the other hand, have weak science 
capabilities, and a poor, self-serving public process. I wonder: On 
what basis will a sanctuary overrule the science-based management of a 
Regional Fisheries Council? I hope Congress will make it clear that the 
Magnuson-Stevens Act is the Nation's law for fisheries and habitat 
management.
    Another major problem are the interpretations, by Sanctuary program 
leaders, of the terms ``sanctuary'' and ``protection''--interpreted to 
mean: steadily limiting human uses of the marine resources. One only 
needs to look to the charter for the sanctuaries' Advisory Councils, 
mandated for use by the Office of National Marine Sanctuaries, to see 
how the bent towards the preservation--not conservation--of resources, 
occurs. This lean towards preservation directly caused the Monterey and 
Channel Islands National Marine Sanctuaries to lead efforts to create 
no-fishing zones, taking the finest fishing grounds away from historic 
users. Sanctuary managers are so driven to limit human uses that they 
violated the principles of ecosystem-based management, as well as the 
Sanctuaries Act mandate to provide for comprehensive and coordinated 
management. They ignored our safety at sea concerns, the effects of 
displacing fishing efforts, and they refused to consider other fishing 
and habitat regulations, as the no-fishing zones were proposed.
    Fisheries in California currently are managed by the Pacific 
Fishery Management Council, the National Marine Fisheries Service, and 
for state fisheries, our Department of Fish and Wildlife. It seems that 
many NGOs, with their own agendas, go around our normal fisheries 
management to the state legislature. If we add sanctuaries as yet 
another entity with regulatory powers to contend with, how will it be 
possible to do business or attract others in such an uncertain business 
environ? Sanctuaries only bring their values to the table, and not 
science.
    In California we have four national marine sanctuaries, with two 
more being proposed. Despite their original Designation Documents, each 
one has areas closed to fishing because of sanctuary efforts. 
Commercial fishermen wonder, is it really the intention of Congress 
that over 12,000 square miles of the California coast, with another 
5,000 proposed, be deemed of national importance? Is there a sanctuary 
goal in California? If so, how many thousand miles more may we expect?
    Finally, there is the trust issue. Sanctuary managers have cast 
aside the good will of the recreational and commercial fishing 
communities by violating the promises made to us by NOAA officials and 
elected leaders, that sanctuaries will not threaten our livelihoods. 
Through years of cherry-picked science, a lack of transparency, and 
favoring a preservationist (and inaccurate) interpretation of the 
Sanctuaries Act, fishermen have rationally concluded that sanctuaries 
are not to be trusted. Sanctuary management actions have economically 
harmed the commercial and recreational fishing industries. In my home-
port area, the Monterey Sanctuary helped lead an effort that closed 
almost half of our best fishing areas in state waters. This is why 
proposals for new or expanded sanctuaries are being vigorously opposed 
by fishermen and anglers. The actions of the sanctuaries are not 
helping U.S. Commerce Secretary Ross in meeting his goal of reducing 
the Nation's dependence on imported seafood, which our industry whole 
heartedly supports.
    Chairman Sullivan and members of the Subcommittee, my written 
testimony provides numerous examples of the concerns I express today. 
In addition to this written testimony, I can make available to the 
Subcommittee documentation in support of the events I have described.
    Thank you for considering my experiences with the National Marine 
Sanctuaries program.
                                 ______
                                 
         12-02-02 Letter to the Editor of the Telegram Tribune
    This was going to be a long letter but I have decided to shorten 
it, as there is only one important point to make here, the TRUTH.
    There is a movement afoot to bring the Monterey Bay National Marine 
Sanctuary to this county. Proponents say that only we Commercial 
Fishermen are against it, when in reality the County Board of 
Supervisors are neutral with all board members except one voting that 
way. The Morro Bay City Council voted against The Monterey Bay National 
Marine Sanctuary unless we had local control. There is a letter out 
that even says the Cattlemen's Association is for it, at least alludes 
to that, so I called them and they said they are definitely against it.
    All we would ask you when pondering this decision is to talk to the 
people North of us who are in positions that deal with the Sanctuary 
every day. The Monterey County Board of Supervisors, and the Harbor 
Departments in the affected areas. Just talk to the people living under 
the rule of the Federal Government who have lost local control, not 
only of their water but the land there also. Please talk to the people 
in authority there before making a decision you will not be able to 
change later. It is a simple way to the TRUTH.
            Sincerely,
                                          Jeremiah O'Brien,
                                                                 MBCFO.
                                 ______
                                 
                                                    January 7, 2008
Paul Michel, Sanctuary Superintendent,
Monterey Bay National Marine Sanctuary,
Monterey, CA.

To Paul Michel,

    The men and women of the Morro Bay Commercial Fishermen's 
Organization would like to enter this letter in opposition to any 
further expansion of Marine Protected Areas on the Central Coast of 
California. We here in Morro Bay assisted in designing areas of 
essential fish habitat located in Federal waters off of our coast. We 
did this willingly, and were generally satisfied, and were led to 
believe this EFH was satisfactory to everyone. We also participated in 
the Marine Life Protection Act, which created the current Marine 
Protected Areas on the Central Coast, and in this effort we came away 
very disappointed at the massive amount of disruption and loss to the 
fishing industry. Now we learn that the Monterey Bay National Marine 
Sanctuary is considering adding further closures from the Federal 
Government adjacent to those closed by the state. Without going into 
the particulars of whether or not this is against the MBNMS charter as 
to not interfering with fishery regulations we would just like to ask 
that those of you in the sanctuary consider the effects of the 
regulations, both state and federal, the closures of areas to the 
fishermen, both state and federal, that include the Rockcod 
Conservation Area, essential fish habitat areas, and those areas closed 
by the Marine Life Protection Act. After considering these closures and 
the regulations heaped upon the fishing community would you please then 
look at the landings in the Ports that make up Monterey Bay National 
Marine Sanctuary area and adjacent ports to include Morro Bay, 
Monterey, Santa Cruz, Moss Landing, and Half Moon Bay. Between the 
years of 1996 and 2006 the fish landings for the port of Morro Bay were 
2,675 tons in 1996 and 434 tons in 2006; for Monterey 12,383 tons in 
1996, 179 tons in 2006. The other ports suffered losses similar, some 
as great, and some not. But as you can see by these figures in these 
once productive fishing towns, what is left will not support any 
processing, or employment, or economic value to their communities. At 
what point will those people clamoring to close everything realize 
there is nothing left? For those of us in the fishing community who 
watch as our livelihoods are methodically drained away, and no effort 
is made to enhance or use those resources and fisheries that we have in 
such great abundance, but the environmental community today seems bent 
on insuring that all of America's seafood is harvested in an 
unsustainable fashion by unregulated fisheries of foreign countries. 
Every pound of seafood that is not harvested in the United States then 
comes from a country that has much less regulation as we are the most 
regulated fishermen in the world. It would seem that the Federal 
Government in its management efforts would take more time to sit down 
with the fishermen, not only to assess what is wrong with the 
fisheries, but what is right and to put their energies into sustainable 
harvest of the abundant stocks rather than continuing to run more 
fishermen off of the ocean. Please consider the numbers from the cities 
of Morro Bay and Monterey, and try to imagine the economic effects on 
those cities and the amount of people without work. We have not heard 
of any scientific survey or study that would indicate any species that 
further closures would protect. Is there a study that indicates this 
need, and shouldn't this be the driving force in further closed areas? 
In conclusion, without this science, and looking at the poor economic 
situation that has already been developed, we believe any further 
Marine Protected Areas would jeopardize the fragile bit of fishing 
heritage that is left of the Central Coast of California.
            Sincerely,
                                          Jeremiah O'Brien,
                                                         President,
                         Morro Bay Commercial Fishermen's Organization.
Cc. Representative Lois Capps
Mayor Janice Peters
Steve Scheiblauer, Harbor Manager of Monterey Bay
Rick Algert, Harbor Manager of Morro Bay
                                 ______
                                 
                     Monterey Bay National Marine Sanctuary
                                    Monterey, CA, February 15, 2008

United States Department of Commerce
National Oceanic and Atmospheric Administration
National Ocean Service

Dear Members of the Sanctuary Advisory Council:

SUBJECT: Concepts for Process for MPA Identification and Assessment

    At the December 13 and 14 Sanctuary Advisory Council (SAC) meeting 
in Monterey, you provided your perspectives on the need for marine 
protected areas (MPAs) in Federal waters. That input was invaluable and 
I want to again thank you for your insights. Having found after careful 
consideration that there is a need for MPAs in Federal waters (see 
separate decision document), the MBNMS is now focused on the process 
ahead. At the December meeting, many of you also provided thoughts on 
how any process to move forward with MPAs should look. The attached 
draft list of concepts for a process builds upon what I heard from SAC 
members and can help define the road ahead. I would like to ask you to 
consider these concepts and provide preliminary input and advice at the 
February 15 meeting and, after a chance for further consideration, 
again at the April 18 meeting. In the meantime I will be meeting with 
NOAA Fisheries and the Pacific Fishery Management Council to receive 
their ideas and advice about the process for MPA identification and 
assessment and about how to best coordinate with them as well.
    Our goal is to establish a process that builds on the hard work and 
time investment by the MPA working group over the last five years. 
Carrying on from this point with well defined parameters and timelines 
will help ensure that the continuing effort remains inclusive and 
deliberate, but is also targeted and efficient. Thank you and I look 
forward to your input.
            Sincerely,
                                               Paul Michel,
                                                    Superintendent.
                                 ______
                                 
         Concepts for a Process to Move Ahead with MPAs in the 
                 Monterey Bay National Marine Sanctuary
    The following concepts are draft and are put forward by the MBNMS 
for consideration and feedback from the Sanctuary Advisory Council:

   1.  Over the last 5 years, much work has gone into the consideration 
        of MPAs including the development of tools, products and goals. 
        To the maximum extent possible, the process ahead should 
        capitalize on this previous work

   2.  The membership of the MPA working group should remain 
        approximately the same, although some adjustment to stakeholder 
        representation may be warranted (i.e., add groundfish 
        representation)

   3.  Science members should remain involved but serve as subject 
        matter experts, not as stakeholders. A separate but public 
        science panel should be convened to evaluate eventual proposals

   4.  Working group meetings should be professionally facilitated

   5.  Working group and science panel meetings should be public and 
        any products made publicly available

   6.  The MPA planning process should provide for appropriate PFMC 
        input and coordination

   7.  There is a need for socioeconomic study to understand the 
        impacts of Federal water MPAs

   8.  A starting point for discussions should be the Areas of Interest 
        previously identified by the working group that are adjacent to 
        MPAs in state waters

   9.  Adjacent State and Federal waters MPAs should generally have 
        parallel regulations

  10.  Once the planning process begins, the working group will have 
        approximately 6 meetings over 6 months to develop proposals to 
        forward to the Sanctuary Advisory Council. The SAC will then 
        provide it's advice to the MBNMS, and the MBNMS will consult 
        with the PFMC regarding implementation

  11.  Any decision regarding how MPAs will be implemented under the 
        NMSA, the MSA, or both will be made in the future in close 
        coordination with NOAA Fisheries, and PFMC
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                                 ______
                                 
                     Monterey Bay National Marine Sanctuary
                                    Monterey, CA, February 15, 2008

United States Department of Commerce
National Oceanic and Atmospheric Administration
National Ocean Service

Dear Members of the MPA Working Group and Sanctuary Advisory Council,

    As you know, the time has come for a decision on the need for 
marine protected areas (MPAs) in Federal waters of the Monterey Bay 
National Marine Sanctuary (MBNMS). I want to begin by thanking you for 
contributing your perspectives and knowledge to the consideration of 
this important issue. Your involvement over the last five years has 
been invaluable to increasing our understanding of the issue. The 
presentations and discussions we had at the December Advisory Council 
meeting were especially helpful and I commend you for your thoughtful 
input.
    The National Marine Sanctuary Program (NMSP) has broad 
congressional direction to protect marine ecosystems. While the scope 
of this mandate allows for the management flexibility needed to protect 
dynamic sanctuary environments, charting the best course of action 
often takes time and patience. This is due to both the complexity of 
ocean issues and the NMSP's emphasis on extensive public input. In 
2001, the MBNMS solicited this input from the public as part of a 
review and rewrite of its management plan. Over a five year period, the 
MBNMS received thousands of comments, held over a hundred meetings, and 
with the help of the SAC, identified 26 priority action areas that 
represent the future of Sanctuary management. Of these 26, the highest 
priority was the issue of marine protected areas in the Sanctuary. 
Given the complexity and diversity of opinions on this topic, the MBNMS 
convened a multi-stakeholder working group to develop a plan for 
evaluating the utility and potential siting of MPAs. As the State of 
California was re-focusing on MPAs in state waters through the Marine 
Life Protection Act, the MBNMS working group focused its attention on 
MPAs in the Sanctuary's Federal waters (beyond 3 miles).
    Over the last five years MBNMS staff and the members of the MPA 
working group have compiled data layers, completed a resource 
assessment, conducted socioeconomic studies, sponsored workshops, and 
developed a web-based decision support tool. However, while the working 
group was able to compile and consider all of this information, it was 
not able to agree on the fundamental question of whether there is a 
need for MPAs in Federal waters. It was the MBNMS's hope that consensus 
on the question of need could be reached, or that by focusing on 
specific areas, all sides might be able to live with particular MPA 
configurations. However, in the absence of consensus on this question 
it is the MBNMS's responsibility to consider the arguments on both 
sides and make a decision regarding whether to move forward with a 
process to propose new MPAs. To that end, in December 2007, the MPA 
working group members presented their arguments for and against Federal 
water MPAs to the Sanctuary Advisory Council, which in turn gave its 
advice to the MBNMS. Since then, we have received about twelve thousand 
comments on this issue and I have continued to meet with stakeholders 
and partners to explain the process and solicit input.
    With the benefit of the community's advice, input from partner 
agencies, and the last six years of consideration, the MBNMS has 
concluded that there is a need for MPAs in the Federal waters of the 
Sanctuary. The following pages discuss the reasons in support of this 
decision.
The Role of the National Marine Sanctuaries Act (NMSA)
    The NMSA is unique in that the primary purpose is to set aside 
nationally significant areas of the marine environment for their. 
permanent protection and to provide comprehensive ecosystem management 
to achieve this goal. As such, the NMSA provides broad authority for 
management actions focused on the protection and conservation of the 
full spectrum of biological diversity at a sanctuary. It can also fill 
gaps in protection that other authorities, such as the Magnuson-Stevens 
Fishery Conservation Act (MSFCA), Marine Mammal Protection Act, or 
Endangered Species Act, are not able to address. Through the NMSA, 
Congress mandated that national marine sanctuaries be managed to 
maintain the habitats and ecological services of the natural assemblage 
of living resources that inhabit these nationally significant marine 
areas. Among the purposes and policies of the NMSA is provision of 
authority for comprehensive and coordinated management to maintain the 
natural biological communities and to protect, restore, and enhance 
natural habitats, populations, and ecological processes. In specifying 
the management of ``natural biological communities,'' ``natural 
assemblages of living resources,'' and ``natural habitats,'' rather 
than focusing on species populations per se, Congress essentially 
mandated that national marine sanctuaries be managed to protect and 
conserve ecosystem structure and function.
The Benefits of MPAs
    As has been described to the Advisory Council in the past, the 
MBNMS has used zoning, or spatial management, extensively since its 
designation in 1992. The MBNMS has zones where:

  <bullet> A harmful human activity otherwise prohibited throughout the 
        Sanctuary is allowed (motorized personal watercraft, harbor 
        dredge disposal, jade collecting)

  <bullet> A harmful human activity is specifically prohibited (shark 
        chumming, low over-flights)

    These areas have proven effective in the context of managing the 
Sanctuary ecosystem by restricting or otherwise managing human 
activities.
    Scientific research has shown that carefully crafted MPAs can be 
effective tools for conserving the diversity of animals and plants, 
protecting habitats, and increasing both numbers and individual sizes 
of some species. Recent studies have shown that an MPA, in which the 
removal or alteration of marine life is prohibited or restricted, 
generally contains a greater abundance of species, higher diversity of 
species, and larger fish within its boundaries relative to similar 
habitats outside the protected area. These larger fish produce many 
more young than do smaller fish, and studies for some species have 
shown that their young are healthier and more likely to survive. MPAs 
have also been shown to be a useful tool for preventing, slowing, or 
reversing the degradation of ocean habitats and maintaining the 
diversity and abundance of species inhabiting them.
    Ocean ecosystems worldwide are threatened because of pollution, 
overfishing, habitat destruction or coastal development. In response, 
many governments, scientists, conservation organizations, commercial 
groups and citizens are increasingly discussing the idea of 
establishing new, well-designed MPAs to complement existing ocean 
management strategies.
    In the United States, both the U.S. Commission on Ocean Policy and 
Pew Oceans Commission recently declared that our oceans are in trouble, 
and are calling for MPAs to be used as a management tool to support the 
protection of ocean ecosystems.
Existing Spatial Management Efforts in the MBNMS
    Interest in implementing a system of marine protected areas has 
increased in California too. In 1999, the Legislature and Governor 
approved the Marine Life Protection Act (MLPA) mandating the state to 
design and manage an improved network of marine protected areas in 
state waters to protect marine life and habitats, marine ecosystems, 
and marine natural heritage. Currently the California Resources Agency 
and California Department of Fish and Game are partnering with others 
to achieve the goals of the MLPA, with initial efforts focused on 
developing a MPA network for California's central coast region. In 
September 2007, after an intensive public processes in ocean 
governance, the first round of 29 new state MPAs (204 square miles) 
went into effect on the central coast. 27 of the 29 areas are within 
the MBNMS.
    In the Federal waters of the Sanctuary, there are other spatial 
management measures in place that protect Sanctuary resources from 
extraction. For example, in 2002, as a means of protecting depleted 
groundfish species such as bocaccio and canary rockfishes, the Pacific 
Fishery Management Council and NOAA Fisheries imposed depth-based 
restrictions on the trawl and non-trawl groundfish fisheries termed 
Rockfish Conservation Areas (RCAs). Furthermore, in June of 2006, NOAA 
Fisheries published the final rule designating and protecting Essential 
Fish Habitat (EFH) for Pacific groundfish. The action closed large 
areas of the west coast, primarily to bottom trawling.
    However, while the existing spatial management measures in state 
and Federal waters of the Sanctuary provide valuable protections from 
fishing impacts in certain habitats. Those habitats further offshore 
are either not adequately represented in existing MPAs, or not fully 
protected by the gear based restrictions associated with EFH or the 
temporary RCAs.
The Need for MPAs in the MBNMS
    The MBNMS has three principal reasons for moving forward with MPAs 
in the Federal waters of the Sanctuary: (1) There is a need for areas 
where the natural ecosystem structure and function are restored and 
maintained; (2) there is a need for research areas to examine human 
impacts to the marine environment; and (3) there is a need to preserve 
some areas in their natural state for future generations. Additional 
detail in support of these reasons is provided below. Further, the 
MBNMS, in consultation with NOAA Fisheries, will be releasing shortly 
an ecosystem analysis in support of this decision.

1) There is a need for areas where the natural ecosystem structure and 
function is restored and maintained.

    The environmental condition of the Sanctuary is subject to major 
alterations that are largely due to the effects of human activities. 
Threats to Sanctuary resources, such as water quality or habitat 
complexity, fall into two general categories: (1) those that involve 
exploitation of resources above a certain level or threshold and (2) 
those that destroy or degrade marine habitats and their associated 
biological communities. Exploitation includes both directed harvest and 
incidental take of marine life. Threats to habitat include activities 
leading to physical alteration, various sources of pollution, coastal 
development, and introduction of alien species. Many of these threats 
are interrelated and have cumulative impacts.
    The Sanctuary ecosystem has been impacted from human activity 
(e.g., fishing activities) to a degree where the MBNMS believes that it 
is appropriate to set aside some areas in Federal waters where these 
impacts are minimized. These impacts include altered size and age 
structure of fish and invertebrate species, altered habitats, altered 
species assemblages and biodiversity, reduced abundance, and altered 
ecosystem function. Where appropriate, it is envisioned MPAs in Federal 
waters could build off of and supplement the state MPAs established 
under the MLPA in the Sanctuary. While there are other management 
measures in place such as those under the MSFCA, their stated purpose 
is to manage fisheries and are not designed to provide areas where the 
natural ecosystem structure and function are restored and maintained 
throughout the Sanctuary's representative habitats.
    It is important to reiterate that the primary. purpose of any 
action taken by the MBNMS to establish MPAs in the Sanctuary is the 
conservation of Sanctuary ecosystem structure and function. This action 
would not be taken for the purpose of managing any single human 
activity or impact, but rather to manage for the protection of the 
Sanctuary ecosystem from a wide variety of existing or potentially new 
threats.

2) There is a need for research areas to examine human impacts to the 
marine environment.

    Setting aside areas of the Sanctuary as MPAs can provide critical 
research opportunities in offshore habitats in order to more fully 
understand the effects of fishing and other uses on the Sanctuary 
environment. Even though the Sanctuary is one of the better understood 
marine areas in the world, there is a need to better distinguish human 
induced change from natural variability. In its 2001 publication 
entitled ``Marine Protected Areas-Tools for Sustaining Ocean 
Ecosystems,'' the National Research Council characterized the need for 
MPAs to help understand marine ecosystems:

        Understanding the influence of human actions on marine systems 
        is critical to evaluating the need for and effectiveness of 
        management actions, but differentiating between natural and 
        anthropogenic events is extremely difficult. Any indicator of 
        change in a system must be compared to a well-defined natural 
        standard, or benchmark, against which the magnitude of the 
        change can be evaluated to determine its cause and 
        significance. Without control areas, such as MPAs, that are 
        relatively free from human influence to compare with areas 
        altered by human activities, explaining the sources of 
        variability becomes even more difficult . . . There is a 
        significant need for fishery-independent sampling programs that 
        include areas closed to fishing and other activities that 
        disturb fish populations and habitats.

    While the new MPAs in state waters do afford the opportunity to 
distinguish human induced change from natural variation and 
fluctuations, offshore habitats are not represented. These deeper water 
habitats are distinct from those nearshore as is their likely response 
to fishing impacts. Understanding impacts in these commercially 
important offshore areas is not only critical to effective Sanctuary 
management, but is also potentially key to effective ecosystem based 
fisheries management.
    The Marine Life Protection Act was intended in part to help the 
State understand the marine environment by providing the opportunity to 
study areas that are not directly impacted by fishing. Having 
comparable areas in Federal waters, potentially adjacent to state MPAs, 
would have the benefit of not only providing a greater range of habitat 
types in which to study the effects of fishing, but larger contiguous 
areas could provide better control sites and enhanced opportunity for 
complementary Federal and state research efforts.

3) There is a need to preserve some areas in their natural state for 
future generations.

    Section 301(a)(4)(c) of NMSA states that the National Marine 
Sanctuary System will maintain for future generations the habitat, and 
ecological services, of the natural assemblages of living resources 
that inhabit national marine sanctuaries (16 U.S.C. 143l(a)(4)(c)). 
There are certain areas of the Monterey Bay National Marine Sanctuary 
environment with extraordinary features or attributes, such as habitat, 
biological diversity, or sensitivity, and warrant a higher level of 
protection than is currently provided by MBNMS regulations or those of 
other authorities, so that those features remain conserved for future 
generations in as close to a natural state as possible This rationale 
of ``wildernesses of the sea'' (areas of the marine environment that, 
like their counterpart on land, have inherent or intrinsic value due 
solely to their unique and/or exceptional qualities and receive the 
maximum level of protection) received strong support during the public 
comments periods on this process, as well as during the comment period 
for the Joint Management Plan Review.
    In addition, affording these areas with an elevated level of 
protection will provide them security against currently unknown human 
and environmental impacts and threats that may arise in the future. 
Changes in technology to a wide variety of marine-dependent human 
activities, such as energy development, communication systems, 
desalination, or aquaculture often result in significant deviations 
from how the activity had been previously conducted. In many cases, 
although these technological changes occur quickly, it takes several 
years for their impacts to be fully understood. Although the impacts of 
these activities may not immediately be known, it is the NMSP's 
responsibility to steward our sanctuaries and to ensure, as much as 
possible, that they are enjoyed and appreciated by the American public 
in the future. Providing certain areas of the Sanctuary with elevated 
protection, while continuing to allow compatible uses elsewhere, 
furthers this goal.
    Furthermore, by managing these areas with additional protections in 
place, the MBNMS seeks to reduce the effects of cumulative impacts from 
human activities or from large scale environmental changes, such as 
climate change that are already occurring or may occur in the future. 
Restricting extractive or invasive human activities in these areas is 
expected to limit the effects on their special qualities to only those 
impacts that may occur as part of environmentally-driven events. Marine 
protected areas, by controlling for impacts for extractive human 
activities, will allow the MBNMS to assess the nature and severity of 
these events over time.
Conclusion
    While this decision comes after years of public process and 
stakeholder input, much work remains ahead. Over the next several 
months, MBNMS staff will be asking the Sanctuary Advisory Council and 
the Pacific Fishery Management Council for input on how best to build 
on the efforts of the MPA working group to ensure an effective and 
timely public process. In deciding to move ahead, the NMSP is 
committing to dedicate the resources necessary to fully capitalize on 
the community's continued input as well as to adequately understand the 
ecological and socioeconomic impacts of any proposed action.
    Any regulatory action proposed by NOAA to designate MPAs in Federal 
waters, whether under the NMSA, MSFCA or both, to specifically 
designate areas will be accompanied with a full environmental analysis 
per the requirements of the National Environmental Policy Act and the 
Administrative Procedure Act.
    Thank you again for your valuable time and advice, and willingness 
to help chart the course.
            Sincerely,
                                               Paul Michel,
                                                    Superintendent.
                                 ______
                                 
United States Department of Commerce
National Oceanic and Atmospheric Administration
National Ocean Service

                     Monterey Bay National Marine Sanctuary
                                       Monterey, CA, April 15, 2008

Dear Sanctuary Advisory Council Members,

    As you recall from my presentation at the February 15, 2008 meeting 
of the Sanctuary Advisory Council (SAC), the National Oceanic and 
Atmospheric Administration's (NOAA) Office of National Marine 
Sanctuaries (ONMS) has decided to move forward with a process to 
propose marine protected areas (MPAs) in Federal waters of the Monterey 
Bay National Marine Sanctuary (MBNMS or Sanctuary). This letter 
provides additional information and rationale on this decision and 
clarifies the role of the National Marine Sanctuaries Act (NMSA) in 
managing the national marine sanctuaries from an ecosystem-based 
approach. I look forward to your continued participation, support, and 
advice on this important issue.
1.0 Background
    The decision to move forward with a process to propose MPAs in the 
Sanctuary is based on advice from the regional community, input from 
partner agencies, and deliberations over the last five years by the 
MBNMS marine protected areas working group. If action is taken by the 
ONMS to establish MPAs in Federal waters of the Sanctuary, the primary 
purpose for this action is to protect biodiversity and protect natural 
habitats, populations, biological communities and ecological processes 
(in this document collectively referred to as protection of ecosystem 
components). This action would not be taken for the purpose of managing 
any single human activity or impact, but rather to protect 
biodiversity, and protect components of the ecosystem within the 
Sanctuary using ecosystem-based approaches to management. Under the 
NMSA, the ONMS's responsibility for natural resource protection and 
ecosystem-based management is among the most comprehensive of all 
Federal programs. Sections 1.1 and 1.2 provide further context on the 
ONMS's goal of marine resource protection and why MPAs are considered 
an essential ecosystem-based tool to address specific objectives within 
the broad goal of resource protection.
1.1 Statutory context of proposed action
    The NMSA, of which the primary purpose is resource protection, is 
unique in that it allows management actions focused on the protection 
and conservation of the full spectrum of biological diversity and can 
serve as an important complement to tools focused on single species 
management, such as the Magnuson-Stevens Fishery Conservation and 
Management Act (MSFCMA), the Endangered Species Act (ESA), and the 
Marine Mammal Protection Act (MMPA). NOAA's National Marine Fisheries 
Service (NOAA Fisheries) manages individual species of economic 
importance under MSFCMA, the Nation's primary law regulating fishing in 
Federal waters. The MSFCMA requires regional fishery management 
councils to develop fishery management plans (FMP) with goals of 
optimum sustainable yield to manage targeted populations. The MSFCMA 
also requires management of essential fish habitat and habitat areas of 
particular concern, but management actions must be focused on specific 
spatial and temporal attributes that support populations of species 
managed as part of an FMP. The ESA provides for broad protection of 
species listed as threatened or endangered, including recovery plans 
and the designation of critical habitat. The MMPA provides protections 
to marine mammals by prohibiting take of marine mammals and having a 
goal that individual marine mammal species or stocks remain at, or 
above their optimum sustainable population level. ``Take'' under the 
MMPA is defined as ``harass, hunt, capture, kill or collect, or attempt 
to harass, hunt, capture, kill or collect.
    While there are thousands of documented species in the Sanctuary, 
and many that remain unknown, only a small percentage is protected 
under the MSFCMA, ESA, and MMPA. Among the findings, purposes, and 
policies of the NMSA is the finding ``while the need to control the 
effects of particular activities has led to enactment of resource-
specific legislation, these laws cannot in all cases provide a 
coordinated and comprehensive approach to the conservation and 
management of special areas of the marine environment.'' The NMSA is 
unique in that it allows for coordinated and comprehensive management 
actions focused on the protection and conservation of the full spectrum 
of biological diversity at a sanctuary rather than single species 
populations, which is the focus of other resource specific legislation. 
Congress found that national marine sanctuaries are areas of the marine 
environment that have special national significance and provides they 
be managed ``to maintain the natural biological communities . . . and 
to protect, restore, and enhance natural habitats, populations, and 
ecological processes.''
    Another provision of the NMSA (Section 301(b)(6)) addresses the 
tension between resource protection and human uses and/or activities of 
sanctuary resources, and states a purpose of the NMSA is ``to 
facilitate to the extent compatible with the primary objective of 
resource protection, all public and private uses of the resources of 
these marine areas not prohibited pursuant to other authorities.'' This 
provision of the NMSA identifies when facilitating public and private 
uses of sanctuary resources, resource protection is the primary 
objective and therefore takes precedence. Human uses should be 
facilitated only when compatible with resource protection. The MBNMS 
facilitates some form of compatible human use in vast portions of the 
Sanctuary. Such uses are sometimes facilitated under relevant 
legislation, such as the NMSA and the MSFCMA. Only small nearshore 
portions within MPAs implemented by the state of California prohibit 
all, or most forms of extractive activity. The purpose of facilitating 
human uses compatible with the primary objective of resource protection 
will be fully evaluated with the process to consider establishing MPAs 
in Federal waters of the MBNMS.
    In managing for biodiversity protection and ecosystem component 
protection, the authorities and protection measures afforded by all 
relevant statutes will be brought to bear in addressing the issues 
identified in sections 2.1, 2.2, and 2.3 below. Furthermore, given the 
distinctions made above among relevant governing statutes, it is 
reasonable to anticipate that the ONMS would advocate for higher levels 
of protection for certain areas of the Sanctuary than would be applied 
throughout the whole of the Sanctuary. By pursuing a process to 
consider further protections, the MBNMS is not characterizing the 
current management of habitats, economically important species, listed 
species, or marine mammals in the Sanctuary as inadequate under their 
respective regimes. Instead, the existing management actions designed 
for individual species or stocks are not designed to fully meet the 
ecosystem component protection and biodiversity protection goals of the 
MBNMS under the NMSA.
1.2 The ecosystem and MPA effects on components of the ecosystem
    The Monterey Bay National Marine Sanctuary is within the California 
Current Large Marine Ecosystem (CCLME), which has been subject to major 
alterations due to a combination of climatic and oceanographic 
variation and human activities (Chavez et al. 2003). The CCLME is 
subject to natural fluctuations in environmental conditions, typified 
by alternating climate regimes that differ in temperature, circulation, 
nutrient availability, and productivity over multiple time scales. For 
example, anchovy and sardine stock abundances have responded to these 
regime shifts over the last two millennia by cycling in or out of phase 
with environmental conditions (Finney et al. 2002). Typically, when 
anchovies are abundant, sardines are less abundant, and vice versa. 
During the downswing of one of these stocks, an anthropogenic or 
natural impact, such as overfishing or global warming, may alter their 
response to natural regime shifts and slow their recovery rate (Chavez 
et al. 2003, Palumbi et al. 2008). Ed Ricketts in 1946 suggested that 
this might have occurred to the sardine stocks that were heavily 
exploited in the Monterey Bay (Rodger 2002).
    The ONMS's ability to accurately evaluate the scale and 
consequences of change in the state of the Sanctuary's natural 
resources is often challenged by an inadequate knowledge of historic 
baselines to compare with present conditions. A number of global 
studies have recorded substantial decreases in abundances of large 
consumers, such as whales, turtles, sharks and pelagic fish (Jackson et 
al., 2001, Myers and Worm 2003). The following historic baselines of 
the ecosystem off the California central coast region concur with this 
global phenomenon. For example, Jean Francois de la Perouse described 
in 1792 what are believed to be the abundance of gray whales and 
stated, ``it is impossible to describe the number of whales . . . they 
blowed every half minute within a pistol shot from our frigate.'' Blue, 
right, gray and humpback whales were subsequently hunted to the edge of 
extinction. Despite full protection by the International Whaling 
Commission in 1947 for the California gray whale, their current numbers 
only represent 28-56 percent of their original historical abundance for 
the east Pacific population (Alter et al. 2007).
    Shallow rocky reefs off the California coast often exist in 
alternative states comprised of kelp forests or urchin barrens (Tegner 
and Dayton 2000), depending on many environmental variables, but 
chiefly on the presence of urchin predators, such as spiny lobsters and 
sheephead in southern California or sea otter populations in central 
California. Hunted for their fur in the 1800s, sea otters were nearly 
extirpated before laws protecting otters were enacted. Sea otters have 
the potential for regulating kelp forest communities and the number and 
diversity of fishes resident in these nearshore communities (Estes and 
Palmisano 1974). As early as 1850, trophic cascades brought about by 
sea otter exploitation led to population explosions of two herbivorous 
invertebrates, abalone and sea urchins. Had it not been for the 
thriving abalone fishery led by the Chinese in the area, more serious 
impacts on kelp forest and the associated ecosystem might have been 
experienced. Although the size or location of any proposed MPAs in 
Federal waters of the Sanctuary would be inappropriate for protection 
and restoration of whale or sea otter populations, these examples serve 
to demonstrate how the natural state of certain species within the 
CCLME and the Sanctuary have shifted to a fraction of their historical 
abundances. Marine fauna have undergone substantial population changes 
due to climatic influences and human activities. These examples support 
the need for long-term datasets to distinguish natural ecosystem 
variation inherent in the CCLME from anthropogenic forcing.
    The basic diversity of marine life and the patterns and processes 
controlling distribution and abundance of marine organisms in the 
Sanctuary are still not well understood, especially in offshore waters 
and deeper habitats. At the same time, new technologies (e.g., 
geographic information systems or GIS) and conceptual advances (e.g., 
theoretical models) in ecosystem based management allow the ONMS to 
implement research and management approaches that seek to reveal a more 
complete understanding of ecosystem components of the Sanctuary's 
deepwater communities.
    Protecting biodiversity and ecosystem components is central to the 
implementation of ecosystem-based management, an evolving approach that 
stresses management of the Sanctuary in context of its ecosystem, 
including all habitats and species populations, biological communities, 
and all human activities. Both ecosystem-based management and MPAs 
offer an integrated approach to marine resource management (NRC 2001, 
MPA FAC 2006). Numerous advisory panels, such as the U.S. Commission on 
Ocean Policy and the Pew Oceans Commission as well as many marine 
scientists, believe that management of marine resources in U.S. waters 
would be most effective if implemented explicitly from an ecosystem 
perspective (NOAA 2005; Francis et al. 2007). The goal of ecosystem-
based management is to achieve healthy and resilient ecosystems so that 
they can provide services humans need and want, such as water and air 
purification, seafood, recreation, and spiritual connections (MPA FAC 
2006). MPAs promote an ecosystem-based approach to managing and 
understanding marine resources by protecting geographical areas, 
including resident organisms and their biophysical environment 
(Lubchenco et al. 2003).
    MPA effects on ecosystem components range from habitat and 
population level responses to community level responses. For example, 
in areas less impacted by bottom-contact gear, particularly trawl gear, 
benthic habitats were topographically and structurally more complex, 
providing increased shelter for juvenile fish and reducing their 
vulnerability to predation (Kaiser et al. 2002). Engel and Kvitek 
(1998) compared highly trawled areas to lightly trawled areas in the 
Sanctuary and found lightly trawled areas to contain more heterogeneous 
sediments, more detritus, and higher abundances of opportunistic 
species.
    In a global study by Halpern (2003) of 89 no-take MPAs, the 
increased protection inside these particular MPAs yielded, on average, 
increases in species number, size, and diversity. Improvements in size 
and age structure of fish populations may improve reproductive 
capacity, for older fish may produce larger, healthier, and more fit 
larvae (Berkeley et al. 2004a). A broad spectrum of age classes may 
also buffer a population against long periods of recruitment failure 
and unfavorable conditions induced by natural or anthropogenic sources 
(Berkeley et al. 2004b). These improvements in habitat and population 
variables have been shown to provide benefits to economically important 
species (Murawski et al. 2000).
    At the community scale within the Sanctuary, natural refugia from 
human activities had higher abundances of large rockfishes (Sebastes 
spp.) than areas utilized by humans (Yoklavich et al. 2000). Shifts in 
community composition may disrupt direct and indirect ecological 
processes inherent in food webs and alter community trophic 
interactions and energy flow. A few studies of MPAs have shown to 
reverse these trends inside their boundaries by increasing predator 
abundances and restoring their top-down role in trophic cascades (e.g., 
Shears and Babcock 2003), and by increasing species richness and 
functional diversity (Micheli and Halpern 2005). Food web structures 
are complex and their influence on ecosystem states even more complex. 
A study of coral reef interactions inside a large marine reserve 
revealed increased levels of grazing by herbivorous fishes despite 
increases in predator abundances, which in turn reduced algal cover and 
increased live coral cover (Mumby et al. 2006).
    At the ecosystem scale, MPAs have higher biodiversity, which plays 
a role in ecosystem productivity and stability. Worm et al. (2006) 
conducted a global comparison of regional biodiversity and argued that 
ecosystems with higher regional species richness appeared more stable, 
showing lower rates of extinction of economically important fishes and 
invertebrates over time. The same study reviewed how increased 
biodiversity in no-take MPAs and fishery-based MPAs were associated 
with large increases in productivity among economically important 
species.
    Therefore, MPAs are considered an effective ecosystem-based tool 
for protecting biodiversity and ecosystem components. In addition, MPAs 
may also contribute to human uses, such as ecotourism and bolstering 
depleted stocks. Benefits of MPAs in the Federal portions of the 
Sanctuary are most likely to be detected inside the boundaries of the 
MPA over many years to decades, particularly for sedentary species. 
Benefits beyond the MPA boundaries will be much harder to detect, but 
could include spillover of adults (McClanahan and Mangi 2000; Gell and 
Roberts 2003) and larval dispersal into adjacent areas (Murawski et al. 
2000). It is important to note that even well-managed MPAs will require 
continued conservation efforts beyond their boundaries to be effective 
at promoting biodiversity and conserving ecosystem components (Murray 
et al. 1999).
2.0 Management Objectives for MPAs in Federal Waters of the MBNMS
    Marine zones, such as MPAs that offer protections complementing 
those currently afforded to the Sanctuary as a whole, are tools of 
spatial management. Marine zones are not a new endeavor for the ONMS or 
the MBNMS. In fact, the MBNMS has used zoning since the Sanctuary was 
designated in 1992. Currently, the MBNMS has zones where:

  <bullet> Certain human activities, otherwise prohibited throughout 
        the Sanctuary, are allowed (such as motorized personal 
        watercraft, harbor dredge disposal, or jade collection);

  <bullet> Certain human activities are specifically prohibited (such 
        as shark chumming or low over-flights by airplanes).

    Through restricting or redirecting potentially harmful or 
disruptive human activities, these marine zones have improved 
management and protection of the Sanctuary's ecosystem components. 
There are three principal management objectives for moving forward with 
MPAs as additional marine zones in the Federal waters of the Sanctuary:

  1.  Preservation of unique and rare areas in their natural state for 
        the benefit of future generations;

  2.  Preservation of areas where natural ecosystem components are 
        maintained and/or restored;

  3.  Designation of research areas to differentiate between natural 
        variation versus human impacts to ecological processes and 
        components.

    Supporting information and reasoning for each of these management 
objectives is detailed below.
2.1. Preservation of unique and rare areas in their natural state for 
        the benefit of future generations
    In section 301(a)(4)(C) of the NMSA, Congress finds that the 
National Marine Sanctuary System will ``maintain for future generations 
the habitat, and ecological services, of the natural assemblages of 
living resources that inhabit these areas.'' There are certain areas of 
the Sanctuary environment with extraordinary features or attributes, 
such as unique habitats, biological diversity, or sensitivity, 
warranting a higher level of protection than currently provided by 
MBNMS regulations and other authorities. These areas of inherent or 
intrinsic value, due solely to their unique and/or exceptional 
qualities, may be considered analogous to land areas that are cherished 
and protected solely for their superlative beauty and untamed wildlife. 
There are similar wildlife areas in the Sanctuary, teeming with 
mysterious and stunning life, such as deep sea coral and sponge 
communities (NOAA 2008) or chemosynthetic biological communities that 
are vulnerable to human activities and deserve special protections. The 
concept of protecting ``special places'' within the Sanctuary of 
intrinsic value received strong support during the public comment for 
the Joint Management Plan Review (approximately 50 percent of 
comments), as well as comments received when considering the decision 
to pursue the action of establishing MPAs to manage resources in the 
Federal portions of the Sanctuary (> 95 percent of comments).
    By providing additional protections to areas of intrinsic value, 
the MBNMS can provide defense against unforeseen impacts and threats 
from technological advances in marine activities. Changes in a wide 
variety of marine technologies such as desalination, energy 
development, or aquaculture may result in unintentional deviations from 
how the activity had been previously conducted and potentially 
negatively affect natural resources of the Sanctuary. In many cases, 
although these technological changes occur quickly, it can take many 
years to decades for their impacts to be fully understood. The ONMS 
therefore, can proactively steward special places within the Sanctuary 
and seek to ensure they are protected for the public now and in the 
future.
2.2. Preservation of areas where natural ecosystem components are 
        maintained and/or restored
    Section 301(b)(3) of NMSA guides the ONMS ``to maintain the natural 
biological communities in the national marine sanctuaries'', and ``to 
protect, and, where appropriate, restore and enl1ance natural habitats, 
populations, and ecological process.'' In an effort to achieve this 
goal, current MBNMS regulations protect Sanctuary resources and 
attributes from a variety of human activities that can have adverse 
impacts on the ecosystem. Examples include regulatory prohibitions on 
oil and gas development, resource extraction, discharge of harmful 
materials, and seafloor alterations.
    To provide for additional protection of the natural components of 
the ecosystem, other human activities could be restricted or prohibited 
within any Federal waters MPAs designated in the Sanctuary. Activities 
that may require further regulation in Federal waters include 
installation of cables, construction of offshore wave energy 
facilities, commercial and recreational extraction, extractive 
research, offshore aquaculture, and other types of bottom-contact 
activities. The effects of most of these activities are currently not 
well defined, with the exception of fishing. Fishing is one of the most 
studied human activities of the marine environment with a wide variety 
of data and sources analyzing its effect on components of marine 
ecosystems.
    The ONMS does not regulate fishing in the Sanctuary and does not 
consider the establishment of MPAs for MBNMS objectives as a tool for 
fisheries management. However, any potential MPAs implemented by the 
MBNMS and existing or future zones designated by fisheries management 
agencies (hereafter referred to as fishery-based MPAs) may complement 
each other by contributing to the objectives of ecosystem conservation 
and sustainable production, respectively. The fishery-based MPAs 
implemented by the Pacific Fishery Management Council (PFMC) within the 
Sanctuary are rebuilding overfished populations (Rockfish Closed Areas, 
RCA) and protecting essential fish habitat (EFH: bottom trawl closed 
areas within the Sanctuary and bottom contact closed areas over 
Davidson Seamount). The RCAs provide seasonal protection to groundfish 
assemblages of ``weak and strong stocks'' by prohibiting the take of 
overfished species (weak stocks) that co-occur with healthy species 
(strong stocks). Recent stock assessments show notable improvement to 
the status of the overfished stocks, likely due to the RCAs and 
conservative total allowable catch (TAC) limits for the west coast 
groundfish fishery. The fishery-based MPAs thus contribute, in part, to 
the objective of ``restoring ecosystem components'' by rebuilding 
overfished stocks. However, the focus of these particular fishery-based 
MPAs is to rebuild individual stocks and will presumably be 
discontinued when stocks have been rebuilt (timeline: 2-80 years). The 
performance of designated EFH areas is currently being evaluated. For 
example, the MBNMS has partnered with Dr. James Lindholm to evaluate 
the recovery trajectory of a non-trawled area (EFH), compared to a 
trawled area (J. de Marignac, personal communication).
    Fishing activities have altered marine resources and components of 
the ecosystem globally (NRC 2006) and within the Sanctuary (Yoklavich 
2000; Levin et al. 2006). Examples of general effects include 
alterations to population abundances, size and age structure of fishes 
and invertebrate species, habitats, and species diversity. The dramatic 
decline of some rockfish species (Sebastes spp.) and the lengthy 
projected periods to rebuild to target levels are sufficient evidence 
that components of the groundfish community and habitats have been 
strongly impacted by fishing activity (Ralston 2002). Furthermore, 
based on two decades of bottom trawl surveys of the California Current, 
Levin et al. (2006) found evidence for broad-scale changes in community 
composition of groundfishes.
    How these changes to groundfish populations and community 
composition ultimately affect the community interactions of the 
Sanctuary is thus far unknown. However, studies of temperate 
communities, both in central California and other regions, show that 
removal of predators can have cascading impacts to lower trophic 
levels. As alluded to earlier, the structure of kelp forest communities 
along the west coast from Alaska to southern California is strongly 
influenced by the relative abundance of predators (e.g., killer whales, 
sea otters, lobsters, sheephead) and prey (e.g., sea urchin, abalone) 
(Estes and Palmisano 1974, Estes et al. 1998, Steneck et al. 2002, 
Halpern et al. 2006). Other predator-prey examples from the North 
Atlantic and Baltic Sea demonstrate how the demise of a predatory fish 
has led to substantial increases in the abundance of its prey (Worm and 
Meyers, 2003; Zabel et al. 2003). When community interactions are 
included in a model for design of no-take MPAs for west coast rockfish, 
two alternative community states are predicted as a consequence of 
initial densities of predator and prey fish species: one where the 
overfished rockfish predators dominate and one where the prey dominates 
(Baskett et al. 2006).
    Declines in functional species or groups, such as the demise of key 
predators and herbivores, may also represent a loss of ecological 
redundancy, reducing ecosystem resilience and rendering the ecosystem 
vulnerable to additional anthropogenic threats or climatic change 
(Palumbi et al. 2008). Coral reef communities in Jamaica, for example, 
shifted from predominantly coral cover to algal cover due to serial 
loss of functional herbivores. Fishing had removed predatory and 
herbivorous fishes, and once a disease wiped out the remaining 
principal herbivore (the long-spined sea urchin), the reef community 
shifted to one dominated by fleshy algae. Nutrient input from 
sedimentation and sewage further contributes to the persistence of 
algal dominated reefs (Hughes et al. 1999). Recovery from alternative 
ecosystem states can be delayed by complex and often indirect 
interactions among species and the environment (Peterson et al. 2003).
    On the west coast, the PFMC's groundfish FMP establishes a goal of 
reducing exploited populations to 40 percent of their unfished size 
(Ralston 2002). With few exceptions, the direct and indirect effects of 
removing this quantity of biomass from the ecosystem are poorly 
understood at an ecosystem level. The initial recovery of some 
overfished stocks on the west coast and the absence of trophic cascades 
as a consequence of their removal would suggest that fishing activities 
have not irreversibly perturbed the ecosystem. However, even though 
local data are lacking, ecological principles coupled with theoretical 
models and empirical studies from other regions would strongly advocate 
for using a precautionary approach. Risk-averse approaches are 
essential when uncertainty is high and the costs of error may produce 
irreversible damage. A precautionary approach is central to ecosystem-
based tenets (Francis et al. 2007) and it is also applied by the PFMC 
and NOAA Fisheries, who utilize a precautionary approach in promoting 
sustainable fisheries, particularly when data are poor or lacking for 
managing economically important species. Because data are limited on 
the ecosystem-level effects of fishing and other human activities, this 
approach would dictate establishing areas where human activities are 
minimized, as a means to hedge against scientific and management 
uncertainty. These areas would help maintain and restore ecosystem 
components, and serve as research areas to study and better distinguish 
natural variation from anthropogenic impacts.
    Setting aside certain areas of the Sanctuary as MPAs would also 
prepare the MBNMS for future management challenges. By establishing 
MPAs as areas with additional protections, the MBNMS can provide 
security against cumulative impacts, and unforeseen human and 
environmental threats by maintaining intact ecosystem components that 
are better able to recover, resist and reverse natural and human 
disturbances (Palumbi et al. 2008). The importance of resilient 
ecosystem components is one purpose of the NMSA, which states ``develop 
and implement coordinated plans for the protection and management of 
[national marine sanctuaries] with . . . interests concerned with the 
continuing health and resilience of these marine areas.''
2.3 Designation of research areas to differentiate between natural 
        variation versus human impacts to ecological processes and 
        components
    Section 301(b)(5) of the NMSA addresses the importance of research 
by stating ``support, promote, and coordinate scientific research on, 
and long-term monitoring of, the resources of these marine areas.'' 
Developing an understanding of the interactions and interdependence of 
living marine resources in a natural environment is key to effective 
management. As with the protection of any natural resource, information 
on the status and natural variability of resource components, species, 
and interactions is essential for the informed management of an area as 
extensive as the Sanctuary. In order to adequately differentiate 
between anthropogenic and natural changes and to further determine how 
those changes might affect other components of the ecosystem, a 
baseline set of ecosystem measurements should be established and 
monitored over subsequent years. As these data are gathered and 
analyzed, scientists and managers can determine with greater confidence 
how much variability is natural in a system and how much may be the 
result of anthropogenic influence. With a better understanding of the 
factors that influence ecosystem components, managers can support both 
improved protection of the resource and a more rapid and appropriate 
response to natural and/or human-induced perturbations.
    Control areas, places where extractive or disruptive anthropogenic 
activities are minimized, are critical for the MBNMS in order to 
determine the responses of key resources to human influence. By 
comparing changes in key resources in a control area to other areas of 
the Sanctuary, MBNMS management would have better information to 
address the needs of research, protection, and constituent use of the 
resources.
    The research conducted in MPAs could be done in partnership with, 
or individually by, other managing agencies (e.g., NOAA Fisheries, 
PFMC, and the State of California), academic institutions, the fishing 
community, and conservation groups. The type of questions that can be 
addressed by establishing MPAs for research purposes include, but are 
not limited to, the following:

  <bullet> What variability is inherent in the natural ecosystem 
        components and what changes may be the result of human 
        influence?

  <bullet> What are the effects of extractive activities on ecosystem 
        components?

  <bullet> How would benthic communities change in response to a 
        further reduction in human activity?

  <bullet> What are the recovery trajectories in disturbed habitats?

  <bullet> Where along the continuum of community structure does the 
        protected area fall compared to unprotected or heavily used 
        areas?

  <bullet> What is the functional role of deep-sea biogenic habitats, 
        such as deepwater corals, sponges, and chemosynthetic 
        biological communities in regulating community structure?

    In addition, the Marine Life Protection Act was intended, in part, 
to help the State of California understand the nearshore marine 
environment by providing the opportunity to study areas that are not 
directly impacted by human activities. Having similar research areas in 
Federal waters, where results can be compared to those found in state 
waters, is not only critical to effective management of the Sanctuary, 
but is also key to effective ecosystem-based management.
2.4 Other considerations
    The MBNMS recently evaluated the number and type of MPAs currently 
located within the boundaries of the Sanctuary to determine their role 
in addressing MPA objectives 2.1 thru 2.3. The state-implemented MPAs 
meet all three objectives, but only for the nearshore environment. The 
fishery-based MPAs (EFH and RCA), in part, meet objectives 2.2 and 2.3 
for components of deepwater communities. Thus, fishery-based MPAs are 
complementary, but not sufficient in meeting the MBNMS objectives for 
MPAs in Federal waters of the Sanctuary. The fishery-based MPAs protect 
some economically important species and their associated habitats, but 
do not adequately protect other non-economically important species or 
habitats. Nor are the protections permanent or year-round. In addition, 
fishery-based MPAs cannot restrict other potentially harmful human 
activities, such as construction of energy farms (wind or wave 
generated), unless they impact managed fishery species or fishing 
activities themselves. The target of any MPA that may be implemented on 
behalf of the ONMS is to protect biodiversity and ecosystem components, 
which is distinct from the targets for fishery-based MPAs. Additional 
measures that may be complementary to the fishery-based MPAs are 
required to address these differences among management approaches.
    Additions to existing fishery-based MPAs may be an option to 
achieve multiple, yet separate, objectives of the MSFCMA and NMSA. For 
example, there may be merit in considering a few select areas for long-
term protection of spawning biomass, age structure, and community 
structure for some of the more vulnerable habitats and species. These 
options would be considered as part of an open, transparent, and 
inclusive process with MBNMS partners, stakeholders, and constituent 
groups.
3.0 Conclusion
    The natural resources of the Sanctuary and the environmental 
services they provide to the United States are unique, nationally 
treasured, and internationally recognized. However, certain human and 
natural impacts to the Sanctuary ecosystem have either become more 
severe or more apparent since the designation of the Sanctuary in 1992. 
MPAs are a promising tool for reducing and reversing some of these 
impacts within discrete areas of the Sanctuary. Current protections 
either do not cover offshore habitats in Federal waters (state MPAs) or 
only provide limited protection based on target species or activities 
(EFH and RCAs).
    The ONMS's responsibility to manage and protect special marine 
areas of the Nation's public domain is clearly defined in the NMSA. 
Given this responsibility, coupled with ecosystem based management 
principles, the ONMS determined it is appropriate to consider setting 
aside some areas in representative habitats of the Sanctuary where 
human impacts can be minimized and the natural ecosystem components of 
these areas may be restored and maintained. Considering establishment 
of these areas is compatible with ONMS's ecosystem-based approach to 
the management of NOAA trust resources and is responsive to public 
appeals for increased protection.
    As such, the ONMS is initiating a process to propose designating 
MPAs in the Federal waters of the Sanctuary, with goals of preserving 
unique and rare areas in their natural state for the benefit of future 
generations, preserving areas where natural ecosystem components arc 
maintained and/or may recover, and serving as research areas to 
differentiate between natural variation versus human impacts to 
ecological processes and components. There are many approaches ONMS can 
take to meeting these goals, and no determination has been made 
regarding the authority under which any new MPAs would be implemented. 
This decision will be an integral part to the process of establishing 
MPAs in the Sanctuary and will be made in close consultation with NOAA 
Fisheries, the PFMC, and other regulatory and resource management 
agencies.
    Moving forward with a process will also involve focused stakeholder 
and public involvement and the MBNMS encourages public participation 
throughout. Further, the MBNMS will be seeking additional input from 
its Sanctuary Advisory Council, the PFMC, NOAA Fisheries and other 
regional resource management partners regarding the process to 
establish MPAs in Federal portions of the Sanctuary.
            Sincerely,
                                               Paul Michel,
                                          Sanctuary Superintendent.
                                 ______
                                 
Literature Cited
    Alter SE, Rynes E, Palumbi SR (2007) DNA evidence for historic 
population size and past ecosystem impacts of gray whales. Proceedings 
of the National Academy of Sciences 104(38):15162-15167

    Baskett ML, Yoklavich M, Love MS (2006) Predation, competition, and 
recovery of overexploited fish stocks in marine reserves. Canadian 
Journal of Fisheries and Aquatic Sciences 63:1214-1229

    Berkeley SA, Chapman C, Sogard SM (2004a) Maternal age as a 
determinant of larval growth and survival in a marine fish, Sebastes 
melanops.Ecology 85:1258-1264

    Berkeley SA, Hixon MA, Larson RJ, Love MS (2004b) Fisheries 
sustainability via protection of age structure and spatial distribution 
offish populations. Fisheries 29:23-32

    Chavez FP, Ryan J, Lluch-Cota SE, Niquen MC (2003) From anchovies 
to sardines and back: multi-decadal change in the Pacific Ocean. 
Science 299:217--221

    Engel J, Kvitek R (1998) Effects of otter trawling on a benthic 
community in Monterey Bay National Marine Sanctuary. Conservation 
Biology 12:1204-1214

    Estes JA, Palmisano JF (1974) Sea otters: their role in structuring 
nearshore communities. Science 185: 1058-1060

    Estes JA, Tinker MT, Williams TM, Doak DF (1998) Killer whale 
predation on sea otters linking oceanic and nearshore ecosystems. 
Science 282:473-476

    Finney BP, Gregory-Eaves I, Douglas MS, Smol JP (2002) Fisheries 
productivity in the northeastern Pacific Ocean over the past 2,200 
years. Nature 416:729-733

    Francis RC, Hixon MA, Clarke ME, Murawski SA, Ralston S (2007) Ten 
commandments for ecosystem-based fisheries scientists. Fisheries 
32:217-233

    Halpern BS (2003) The impact of marine reserves: do reserves work 
and does reserve size matter? Ecological Applications 13:S117-S137

    Halpern BS, Cottenie K, Broitman BR (2006) Strong top-down control 
in Southern California kelp forest ecosystems. Science 312:1230-1232.

    Gell FR, Roberts CM (2003) The fishery effects of marine reserves 
and fishery closures. WWF Washington, D.C., USA 90 pp

    Hughes T, Szmant AM, Steneck R, Carpenter R, Miller S (1999) Algal 
blooms on coral reefs: what are the causes? Limnology and Oceanography 
44:1583-1586

    Jackson JBC, Kirby MX, Berger WH, Bjorndal KA, Botsford LW, 
Bourque, BJ, Bradbury RH, Cooke R, Erlandson J, Estes JA, Hughes TP, 
Kidwell S, Lange CB, Lenihan HS, Pandolfi, JM,Peterson CH, Steneck RS, 
Tegner MJ, Warner RR (2001) Historical overfishing and the recent 
collapse of coastal ecosystems. Science 293:629-638

    Kaiser MJ, Collie JS, Hall SJ, Jennings S, Poiner IR (2002) 
Modification of marine habitats by trawling activities: prognosis and 
solutions. Fish and Fisheries 3:114-136

    Levin PS, Holmes EE, Piner KR, Harvey CJ (2006) Shifts in a Pacific 
Ocean fish assemblage: the potential influence of exploitation. 
Conservation Biology 20:1181-1190

    Lubchenco J, Palumbi SR, Gaines SD, Andelman S (2003) Plugging a 
hole in the ocean: the emerging science of marine reserves. Ecological 
Applications 13:S3-S7

    McClanahan TR, Mangi S (2000) Spillover of exploitable fishes from 
a marine park and its effects on the adjacent fishery. Ecological 
Applications 110:1792-1805

    Micheli F, Halpern BS (2005) Low functional redundancy in coastal 
marine assemblages. Ecology Letters 8:391-400

    MPA FAC (Marine Protected Area Federal Advisory Committee) (2006) 
Marine protected areas: a fundamental tool for ecosystem-based 
management. Silver Spring, Maryland

    Mumby PJ, Dahlgren CP, Harborne AR, Kappel CV, Micheli F, Brumbaugh 
DR, Holmes KE, Mendes JM, Broad K, Sanchirico JN Buch K, Box S, Stoffle 
RW, Gill AB (2006) Fishing, trophic cascades, and the process of 
grazing on coral reefs. Science 311: 98-101

    Murawski S, Brown R, Lai HL, Rago PJ, Hendrickson L (2000) Large-
scale closed areas as a fisheries management tool in temperate marine 
systems: the Georges Bank experience. Bulletin of Marine Sciences 
66:775-798

    Murray SN, Ambrose RF, Bohnsack JA, Botsford LW, Carr MH, Davis GE, 
Dayton PK, Gotshall D, Gunderson D, Hixon MA, Lubchenco J, Mangel M, 
MacCall A, McArdle DA, Ogden JC, Roughgarden J, Starr RM, Tegner M, 
Yoklavich MM (1999) No-take reserve networks: sustaining fishery 
populations and marine ecosystems. Fisheries 24(11):11-25

    Myers RA, Worm B (2003) Rapid worldwide depletion of predatory fish 
communities. Nature 423:280-283

    NOAA (National Oceanic and Atmospheric Administration) (2005) New 
priorities for the 21st Century--Updated for FY 2006-FY 2011

    NOAA (National Oceanic and Atmospheric Administration) (2008) 
Report to Congress on the implementation of the deep sea coral research 
and technology program. Silver Spring, Maryland

    NRC (National Research Council) (2001) Marine protected areas: 
tools for sustaining ocean ecosystems. National Academies Press, 
Washington, D.C. 288 pp.

    NRC (National Research Council) (2006) Dynamic changes in marine 
ecosystems: fishing, food webs, and future options committee on 
ecosystem effects of fishing: phase II--assessments of the extent of 
change and the implications for policy. National Academies Press, 
Washington, D.C. 160 pp.

    Palumbi SR, McLeod KL, Grunbaum D (2008) Ecosystems in action: 
lessons from marine ecology about recovery, resistance, and 
reversibility. Bioscience 58(1):33-42

    Peterson CH, Rice SD, Short JW, Esler D, Bodkin JL, Ballachey BE, 
Irons DB (2003) Long-term ecosystem response to the Exxon Valdez oil 
spill. Science 302:2082-2086

    Ralston S (2002) West coast groundfish harvest policy. North 
American Journal of Fisheries Management 22:249-250

    Rodger KA (2002) Renaissance man of Cannery Row: the life and 
letters of Edward F. Ricketts. University of Alabama Press, Tuskaloosa

    Shears NT, Babcock RC (2003) Continuing trophic cascade effects 
after 25 years of no-take marine reserve protection. Marine Ecology 
Progress Series 246:1-16

    Tegner MJ, Dayton PK (2000) Ecosystem effects of fishing in kelp 
forest communities. ICES Journal of Marine Science 57:579-589

    Steneck RS, Graham MH, Bourque BJ, Corbett D, Erlandson JM, Estes 
JA, Tegner MJ (2002) Kelp forest ecosystems: biodiversity, stability, 
resilience and future. Environmental Conservation 29:436-459

    Worm B, Myers RA (2003) Meta-analysis of cod-shrimp interactions 
reveals top-down control in oceanic food webs. Ecology 84: 162-173

    Worm B, Barbier EB, Beamnont N, Duffy JE, Folke C, Halpern BS, 
Jackson JBC, Lotze HK, Micheli F, Palumbi SR, Sala E, Selkoe K, 
Stachowicz JJ, Watson R (2006) Impacts of biodiversity loss on ocean 
ecosystem services. Science 314:787-790

    Yoklavich MM, Greene HG, Cailliet GM, Sullivan DE, LeaRN, Love MS 
(2000) Habitat associations of deep-water rockfishes in a submarine 
canyon: an example of a natural refuge. Fishery Bulletin 98:625-641

    Zabel RW, Harvey CJ, Katz SL, Good TP, Levin PS (2003) Ecologically 
sustainable yield. American Scientist 91:150-157
                                 ______
                                 
                                          Agenda Item I.1.e
                                               Attachment 2
                                                          June 2008
Comments on the proposal for MPAs within the MBNMS.

MBNMS Decision and Rationale Documents of 2/15/08 and 4/15/08.

Ray Hilborn May 2008

    When examining any management action I ask first, ``What is the 
objective?'' How would we evaluate any specific proposal? The MBNMS 
proposal begins with the following statement:

        ``the primary purpose of this action is to protect biodiversity 
        and protect natural habitats, populations, biological 
        communities and ecological processes''

    Since the level of protection would be maximized by absolute 
protection, including protection from non-consumptive recreational use, 
and there is a clear tradeoff between human use, and level of 
protection, this objective statement provides no basis for determining 
how much protection is appropriate. Implicit throughout the report is 
the assertion that the current levels of protection are not sufficient, 
but there is no basis for making any decisions on how much is enough.
    The report argues that only a small portion of species are 
protected under MSFCMA, ESA, MMPA and this implies that exploited 
species that are well managed are not protected. Further this implies 
that an ecosystem that is being fished under the guidelines of the 
MSFCMA is not protected, yet the clear intent of MSFCMA is to protect 
the productivity of species and ecosystems for sustainable utilization. 
In short, there is a clear implication in this document that protection 
means no human impact.
    I believe it can be argued that the legal frameworks of the MSFCMA, 
ESA, MMPA, NEPA etc is to specifically protect the marine ecosystems in 
Federal waters, and to protect them so that sustainable human use is 
possible. The EFH provisions of MSFCMA are clearly designed for such 
provisions. The assertion that the existing legislation does not 
provide for protection seems to be fallacious.
    The literature review is highly biased. For instance the Myers and 
Worm 2003 paper arguing that all the big fish of the ocean had declined 
by 90 percent by 1980, has repeatedly been shown to be wrong (Sibert et 
al. 2006). The authors discuss the status of California grey whales, 
and cite a highly controversial genetics paper suggesting that the 
stock is not fully rebuilt, while ignoring the extensive work by NOAA 
and the Scientific Committee of the International Whaling Commission 
which suggest the stock has returned to its unfished abundance. In 
short the authors of this report have made no attempt to make a 
balanced analysis of the evidence on any of the issues but have been 
highly selective in their choice of literature to discuss. The 
literature review of MPA's is similarly highly biased, and (among other 
things) makes no attempt to recognize (1) the historically low 
exploitation rates on fishes in the system, (2) the fact that bottom 
contact gear historically covered only a small portion of the total 
habitat, (3) the recovery of the groundfish community in recent years 
to greater than 50 percent of its unfished abundance and (4) the 
extensive portion of the MBNMS that is closed to trawling.
    The report is highly deficient in not recognizing the extent of 
existing areas closed to fishing, both from trawl bans, rockfish 
conservation areas, essential fish habitat and existing closed areas 
such as the Davidson Seamount. The report makes no attempt to determine 
if the protection from these activities is sufficient to achieve the 
objectives of the NMSA.
    The document argues that the ecosystem needs further protection, 
and that the major ecosystem changes have been in the groundfish 
community. While admitting that some of the overexploited groundfish 
have begun to recover, the possibility that all of the ecosystem 
concerns cited are already addressed by the combination of various 
management agencies is ignored, and the document implies that the 
ecosystem has gotten worse since the original designation of the MBNMS. 
The document totally ignores the fact that the groundfish stocks (not 
including hake) are now at greater than 50 percent of the estimated 
unfished biomass and increasing.
    The report argues that ONMS does not regulate fishing in the 
sanctuary and does not consider establishment of MPAs in the MBNMS as 
tools of fisheries management. This is patently silly. The primary 
human activity that would be regulated by MPAs is fishing, and any 
establishment of MPAs modifies the fisheries management regime in the 
MBNMS. The entire document suggest that the primary ecosystem change 
that has occurred has been in the groundfish stocks, and that fishing 
has been the dominant impact on groundfish. It is thus impossible to 
separate fisheries management from the status of the ecosystem.
    Sibert, J, Hampton, J, Kleiber, P, and Maunder, M. Biomass, Size, 
and Trophic Status of Top Predators in the Pacific Ocean. Science. 
2006;314: 1773-1776.
                                 ______
                                 
          Bait and Switch? Fishermen's Difficult Relationship 
                      with the Monterey Sanctuary
    With new efforts being made by some community members to gather 
support for an expanded Monterey Sanctuary (MBNMS), or a new ``central 
coast sanctuary'', claims have been heard that the MBNMS has never 
broken the well-remembered promise made to us fishermen that it would 
not create regulations that affect us, or otherwise threaten our 
livelihoods. Central coast fishermen have always wanted a mutually 
trusting and respectful relationship with the MBNMS, but we have so far 
been disappointed. I have researched this issue, have spoken with many 
fishermen, and located reference documents, the results of which are 
found below.
    First, a little history.
    The condition of the central coast just prior to sanctuary 
designation in 1992 was considered ``pristine''. This, and the unique 
feature of the Monterey Canyon, is why the northern portion was 
considered for a sanctuary. This was the case even in the context of 
extensive fisheries having utilized the ocean for the last 100 years. 
In fact, in 1992 in the central coast, just prior to sanctuary 
designation, there were a dozen or more bottom trawl vessels, about 30 
purse seine (squid/sardine) vessels, and several hundred boats fishing 
for salmon, crab, albacore, prawns. Now, we have only about one-quarter 
of that number, and these are even more heavily regulated. The main 
public interest in creating a sanctuary was to add another layer of 
regulation to keep oil development out of the region.
    During the run up to the creation of the Monterey Bay National 
Marine Sanctuary (MBNMS), regional communities and stakeholders 
negotiated with NOAA as to the role that the Federal Agency would play 
in the coastal and ocean issues. There was great concern over 
surrendering local control, and the potential for ocean policy issues 
to essentially be run from Washington, D.C. The Association of Monterey 
Bay Area Governments (AMBAG) played the lead role among the public 
agencies to sort out these issues. Congressman Leon Panetta also 
convened a stakeholder leaders group to air out their concerns. 
Representatives from commercial and recreational fishing were key 
members of the stakeholder group. In 1991 commercial fishing was 
several hundred million dollars a year worth of direct income, but also 
had important cultural roots in several communities. Getting commercial 
fisherman to support a sanctuary was particularly important because 
there had been two prior efforts to create a Monterey area sanctuary, 
which had been defeated by fishermen. We were suspicious of a Federal 
agency called a ``sanctuary''--which we felt would imply to some 
protecting everything from everything everywhere--and among other 
restrictions, that the sanctuary would create new regulations making 
our lives more difficult or even putting us out of business. Fishing 
was already heavily regulated by State and Federal fishery management 
agencies.
    The Designation Document for the sanctuary purposely did not list 
fishing as an activity subject to regulation, or future regulations. 
The Designation Document is essentially the original terms agreed upon 
by all parties and serves as a foundation for sanctuary management. The 
Designation Document can be changed, but it must go through the same 
process of public hearings and environmental impact analysis as did the 
original designation. This said, there was a past effort on the part of 
the sanctuary program to get Congress to shortcut this process and 
allow sanctuaries to change Designation Documents essentially at will. 
Fortunately, Congress did not do this.
    The agreement that was struck between NOAA (parent agency to the 
future sanctuary) and fishermen was this: If fishermen agreed to 
support the creation of a sanctuary, the sanctuary would respect the 
authority of the existing Federal and state fishery management 
agencies. The sanctuary would not manage fisheries, create fishing 
regulations, or generally take actions that threaten the livelihoods of 
fishermen . . . A powerful statement of this negotiation can be found 
in the affidavit of Dave Danbom, Leon Panetta's lead representative for 
fishing issues. It is generally acknowledged that if it had not been 
for this important agreement made with the fishing community, the 
sanctuary effort would have failed once again. Congressman Panetta is 
quoted in the San Jose Mercury News (March 16, 2003), saying ``I think 
the reason we were able to get such a large consensus (to support a 
sanctuary) was that I made it clear the sanctuary wasn't going to 
represent a whole new bureaucracy imposing regulations on fishermen.'' 
Letters from Congressman Sam Farr, Anna Eshoo, and others, also speak 
pointedly to this fact. This negotiation and agreement are remembered 
still by many elected and civic leaders, and serves as the basis for 
many community leaders' continued involvement in holding the Sanctuary 
to this promise. Many public agencies, such as the City of Morro Bay, 
the Monterey County Board of Supervisors, the Association of Monterey 
Bay Area Governments, which is made up of elected officials from three 
counties, the City of Monterey, and the Port San Luis, Moss Landing, 
and San Mateo County Harbor Districts, have all gone on record as 
asking the MBNMS to keep its promise made to fishermen. Keeping this 
promise has been a sort of integrity test for the sanctuary through the 
years.
    The Designation Document also contains language that relates to the 
future for fishing issues: ``Should problems arise in the future, NOAA 
would consult with the State, Pacific Fishery Management Council, the 
State, the National Marine Fishery Service, as well as Industry, to 
determine an appropriate course of action.'' This phrasing opens the 
door for sanctuary/fishermen discussions on items of mutual interests. 
Congressman Sam Farr speaks to this point in his thoughtful letter of 
January 30, 2002. Fishermen were assured by this language and the terms 
of the Designation Document. We were also assured by our relationship 
with the older Gulf of the Farallones National Marine Sanctuary. GF 
Sanctuary Manager Ed Ueber had had a positive relationship with the 
fishing community. If a problem arose, he knew exactly who to call, 
take them out for coffee, discuss it, listen to them, and together work 
out a solution, without the sanctuary imposing fishing regulations or 
the fishermen feeling threatened.
    Has the sanctuary kept this promise over the past 20 years? Most 
fishermen think that it has not. In recent times senior MBNMS officials 
have suggested, at public meetings, that fishermen were somehow 
``confused'' by what they heard in the early 90s--that the promise 
wasn't really a promise. This makes us wonder if NOAA always intended 
to try and get around the agreement, as soon as the sanctuary was 
created. Sanctuary officials have also repeatedly claimed that they 
have never created a fishing regulation, or otherwise harmed the 
fishing community. Incredibly, this is said during the same time period 
that the MBNMS called for additional MPAs--fishing closures.
    In 2008, a legal opinion was sought on the authority, or lack of, 
for a sanctuary to create MPAs.
    There are many specific examples why fishermen feel that the MBNMS 
has not acted in good faith, but only several will be discussed here. 
One comes from the MBNMS revision of its management plan, which began 
in 2001. Fishermen knew that the sanctuary was very interested in 
marine protected areas (MPAs), which are various levels of no fishing 
zones. It would be the epitome of breaking the promise made to 
fisherman should the sanctuary force MPAs into the region. At the same 
time, most fishermen knew that there is a place for some MPAs in 
ecosystem-based management. To constructively engage in this discussion 
in a way that would not compromise the original agreements, or threaten 
fishermen, fishermen organized and created a MPA working group to 
discuss this with the sanctuary [ACSF Letter to MBNMS 2.2.01]. This 
working group was led by the fishermen themselves. They were 
comfortable with the process and progress was being made in these 
discussions until sanctuary management decided that it needed to 
control the process and created its own marine protected area work 
group, thereby making the fishermen's group ineffective as it had no 
one to talk to. Fishermen were invited to participate in the 
sanctuary's MPA working group and did so for nearly five years, but 
only as a minority voice. Ultimately fishermen were so frustrated with 
the sanctuary that they withdrew their support for the working group 
and the MPA element of the sanctuary's new management plan [MPA Letter 
to Holly Price MBNMS 2.2.07]. Fishermen felt that the MBNMS lacked a 
scientific basis for the scope of its MPA ambitions, and we perceived 
that the sanctuary itself didn't even follow the principles of its own 
MPA plan. During this process, the MBNMS was formally asked by the City 
of Monterey if the culture and heritage of fishing in coastal 
communities were ``resources'' that the sanctuary was also to protect. 
The answer: No. [Letter to Holly Price and SMPA Workgroup 1.21.05 & 
MBNMS Response to Letter 1.22.05 Fishermen also commissioned a number 
of scientific studies from respected, independent fisheries scientists, 
and presented these to the sanctuary. However, fishermen feel that the 
sanctuary has dismissed these studies out of hand.
    When this MPA working group was disbanded in April 2007, without 
reaching a decision, the MBNMS announced that it would take the 
question of the need for additional protection, meaning more MPAs in 
Federal waters, directly to its Advisory Council. The MBNMS leadership 
made statements about how much they needed the SAC's advice to help 
them make this important protection decision. There were a series of 
SAC meetings, with scientists and others making presentations on this 
question.
    Congressman Farr wrote to the MBNMS on this issue. Ultimately, in 
December 2007, the SAC voted (but with substantial dissent) to support 
creating additional MPAs in Federal waters. With that ``advice'' on the 
record, the MBNMS announced on February 15, 2008, that it would pursue 
additional MPAs. A second letter was published April 15, 2008 
containing the MBNMS's attempt to create a scientific rationale. In 
these letters, the MBNMS attempts to make the case that somehow the 
National Marine Sanctuaries Act requires that the Sanctuary create 
wilderness areas in the sea--areas where no fishing and many other uses 
would be allowed. The attorney for the ACSF wrote to the NOAA and 
Sanctuary leadership, expressing his legal opinion that the MBNMS 
lacked legal authority to create these MPAs. The City of Monterey also 
reacted strongly to this MBNMS MPA decision. [Monterey City Council 
Letter to MBNMS 3.27.08]
    Fishermen who had followed this process smelled, to be frank, a 
dead fish. The Alliance of Communities for Sustainable Fisheries 
(ACSF), through its attorney, sent a Freedom of Information Act request 
for information on the MBNMS's MPA decision. At first the Sanctuary 
Program told the ACSF that it would cost at least $9,000 to supply the 
requested information [FOIA Request Response 11.3.08] Eventually, AMBAG 
wrote to the Sanctuary program, pointing out that the MPA decision was 
a item of great public interest, and requested a fee waiver. The 
Sanctuary backed down and agreed to provide the information. The 
information that came in, nearly a year after the original request, 
showed some very alarming things.
    Perhaps most alarming, the official minutes of a June 8, 2008 MBNMS 
staff meeting , led by the Director of all West Coast Sanctuaries, Bill 
Douros, show that the decision to have more MPAs, and generally where 
they will be placed, is made six months before the MBNMS asks its SAC 
for its advice to help them make this very decision. In the discussion 
of the need for additional protection through MPAs, Mr. Douros is 
quoted as saying ``We need to see additional protections and know we 
need an extension of the state MPAs'': It seems clear to us fishermen 
that the top west coast sanctuary program official is making a decision 
and directing his staff. This decision is also made prior to a July 27, 
2007 briefing of Congressman Farr wherein the MBNMS representatives 
tell the Congressman of their plan to obtain SAC advice in December 
2007. So, it seems that the MBNMS used the goodwill of the SAC members 
for it's own purposes, having already decided the issue.
    It also appears that when the MBNMS made its ``need for MPAs'' 
decision public on February 15, 2008, it failed to consult with the 
Pacific Fishery Management Council in advance of this decision, as 
required by the Sanctuary Designation Document and its own regulations.
    To us fishermen, not only is all of this a profoundly disappointing 
misuse of a public process, but it's also a waste of taxpayer money, 
and since MPAs are aimed to stop fishing in areas, directly harmful to 
us. This is more than a fishing issue, and if public members are 
concerned about the loss of local control that might come with 
sanctuary designation, they should pay attention to this.
    Another example relates to this in that the State of California 
began its own MPA process in 2005. This was called the Marine Life 
Protection Act Initiative. Fishermen again organized themselves to 
constructively engage in this process with the state and committed 
themselves to following the science guidelines developed by the state, 
and to have a proposal that met all the goals and objectives required 
by law. The MBNMS was represented during this process. Despite repeated 
requests from the fishermen for the sanctuary to join the fishermen to 
create an MPA network together, the sanctuary led a group of 
conservation organizations in creating an alternative proposal, which, 
after some changes, was adopted by the State. Fishermen witnessed 
sanctuary representatives pointing at maps and stating which areas the 
sanctuary wanted to close to fishing. At the end of the State process 
it got even worse when the superintendent of the sanctuary spoke in 
front of approximately 300 people, 150 of whom were recreational and 
commercial fishermen, and told the Fish and Game Commission that the 
state had not gone far enough in its efforts to close areas to fishing. 
This was in spite of the fact that the new closed areas were seriously 
hurting fishermen, and even creating new safety at sea issues. The 
superintendent made a specific written proposal to close additional 
areas in Monterey Bay to fishermen. Later, when senior sanctuary staff 
were discussing the enforcement of the new state MPAs, the West Coast 
Sanctuary Director commented on how the sanctuary could ``trick 
fishermen'', who would not realize how fast a new sanctuary boat was. 
Even though it was not the Sanctuary that created the ultimate 
regulation to close these areas to fishing, fishermen felt utterly 
betrayed by the Sanctuary. The Sanctuary in turn lost a tremendous 
opportunity to work constructively with the fishing community.
    In 2008 the Regional Director of the West Coast Sanctuaries wrote 
to the Pacific Fishery Management Council expressing his agency's view 
that it would seek to ``reduce or eliminate'' bottom trawling from west 
coast sanctuaries. This is in spite of the fact that bottom trawling is 
heavily regulated and constrained spatially. In fact, approximately 
4,000 square miles of the MBNMS is already closed to bottom trawling. 
Bottom trawling exists primarily over soft-bottom habitats and does not 
cause extensive sea floor damage as once was believed. The fishing 
community responded to the sanctuary in writing, taking to task what 
was felt was a reckless and ill-informed statement of policy from a 
senior Sanctuary official. This also feels like a clear breech of the 
agreement made with fishermen.
    Fishermen have also had to fight with sanctuary officials as they 
have tried to dictate who will represent fishermen; that's another 
reason why fishermen have formally banded together in the regional 
organization, The Alliance of Communities for Sustainable Fisheries.
    The Sanctuary has currently involved itself in a fishery 
management-related issue by the fact that the National Marine Fishery 
Service and the Pacific Fishery Management Council (PFMC) are beginning 
a required five-year review of Essential Fish Habitat (EFH) areas along 
the West Coast. EFH are areas of good habitat, considered to be 
``essential'' in certain life stages of fishes. There already exists 
extensive EFH areas. 3.8 million acres along the central coast are 
already set aside by these agencies as essential fish habitat wherein 
all bottom trawling is prohibited. Additionally, in 2007 the Monterey 
Bay National Sanctuary was able to close 775 square miles along the 
Davidson Sea Mount off shore Moro Bay to bottom trawling and all other 
bottom contact gear. Nevertheless, the Monterey Sanctuary has expressed 
its intent to develop a proposal for Essential Fish Habitat during this 
review. It remains to be seen whether the Sanctuary will choose to 
constructively and collaboratively work with the fishing community to 
gain their support for such a proposal. Or conversely, will the 
sanctuary attempt to create its own EFH proposal, and use its ``bully 
pulpit'' to get the Federal fishery management agencies to give it what 
it wants? If the PFMC does not believe that a Sanctuary request is 
scientifically justified, there exists the possibility that the 
Sanctuary would actually change the Designation Document to give itself 
the authority to regulate fishing, and create its own additional 
special closures. This would be the ultimate violation of the promise 
made to fishermen. The fishing community very much hopes that they will 
abide by its promise both to the letter and in the spirit in which it 
was made, create constructive relationships with the fishing community, 
and move forward in a truly cooperative manner.
    Fishermen from the west coast and in other parts of the Nation have 
observed what has unfolded with the Monterey Sanctuary's relationship 
with the fishing community. It is safe to say that a great majority are 
extremely suspicious and resistive of sanctuary designations for their 
areas. The MBNMS is widely seen as an agency that either doesn't base 
its decisions on science, or cherry-picks the science, has significant 
issues in its public processes, and has broken its promise made to us, 
in the spirit it was made.
    Some people may feel that the sanctuary does need to protect living 
sanctuary resources from fishermen and perhaps feel that over-fishing 
and habitat destruction are occurring. This is not the case. The West 
Coast of the United States and specifically Central California is the 
most highly protected and regulated area in the world. [``Rebuilding 
Global Fisheries'', 2009]. Through the actions of the State Department 
of Fish and Game, the Fish and Game Commission, the Pacific Fishery 
Management Council, and the National Marine Fisheries Service, 
fisheries are managed through a science-based process called Fishery 
Management Plans. These plans aim at both providing conservation 
benefits for habitats, and also assure sustainability of the fish 
stocks. Additionally, other Federal laws such as the Marine Mammal 
Protection Act, the Seabird Protection Act, the Endangered Species Act, 
and others, have provided lasting protection for mammals and birds and 
have directly resulted in the growth of those animals. It is not 
Sanctuary designation that protects these fish and animals, it is 
existing Federal and State law that does so. Other state laws, such as 
the Marine Life Protection Act, gave the central coast over 30 MPAs in 
state waters. Over four thousand square miles of the Sanctuary are 
already protected, through the actions of other agencies, in various 
forms of MPAs. The central coast is well protected already.
    The MBNMS has made some gestures to create goodwill with us 
fishermen. A ``put a fisherman in a classroom'' program was created by 
the MBNMS, and it has been a great thing to have fishermen talk to 
young people about how they produce food. Also, the Sanctuary has used 
an experienced Moss Landing fisherman to help recover lost fishing gear 
off the seafloor. This project has been a collaborative effort, with 
the MBNMS staff wanting to learn from the fisherman. These are good 
things, and are appreciated.
    To conclude, in 1992, upon hearing the assurances that we didn't 
need to worry about the new sanctuary threatening our livelihoods, 
fishermen actively supported the creation of the MBNMS. Fishing 
representatives went to Washington, D.C. to lobby Congressional 
support. We wanted then what we still want: a good relationship with 
the MBNMS, collaborative research, improved water quality, and the ban 
on oil and gas development. We also want the MBNMS to uphold the 
promise made to us in the spirit in which it was made.
                                                   Tom Roth
                                 ______
                                 
                       02-20-15 Sanctuary letter
    Well, the sanctuary question is back on the table. This issue seems 
to arise every few years since Monterey got their sanctuary. This one 
is in the form of the Chumash Heritage National Marine Sanctuary. The 
commercial fishermen in our county are unanimously against it, and we 
have spoken to various sport fishing groups and have yet to find any 
one of these groups in support of a sanctuary in our area.
    The sanctuary issue is a very big concern, not only for the fishing 
industry, but the entire county. This is an issue that should not be 
taken lightly. When we invite the Federal Government to take over 
control of our resources, we, meaning our communities, will lose the 
ability to manage our beaches, our ocean, our ports and our harbors.
    The cost to communities for additional Federal regulations 
governing areas such as run off and discharges, currently administered 
by local and state government, will increase dramatically. These costs 
will severely impact our harbors and ports, increasing the difficulty 
for projects necessary for their operations, such as, dredging, soil 
samples, construction of docks and slips, as well as maintaining 
structures that are currently in place. Once we take on these 
additional layers of bureaucracy and find out in the future about the 
problems it causes, we will not be able to turn back.
    Proponents of the National Marine Sanctuary issue have proclaimed 
there will be no loss of local control. Unfortunately, this is not true 
as ``National Marine Sanctuary'' clearly implies management will not be 
local but rather at the Federal level.
    California Marine Affairs and Navigation Conference, or C-MANC, is 
a group of all of California's harbors and the cities affiliated with 
those harbors. This group encompasses the area from San Diego to 
Crescent City, the entire length of our state, and deals directly in 
many of these areas with National Marine Sanctuaries, such as the 
Monterey Bay National Marine Sanctuary, the Cordell Bank National 
Marine Sanctuary, and the Channel Island National Marine Sanctuary.
    C-MANC has issued a legislative policy statement concerning marine 
sanctuaries, which consists of a list of five problems. Some of those 
problems include disposal of dredge materials, and requirements to the 
already burdensome Federal and state processes, vessel traffic, fishing 
regulations, either direct or indirect, and general maintenance issues. 
And finally, C-MANC's legislative policy reads: ``C-MANC recommends 
suspending the expansion of existing sanctuaries until the problems 
identified above are resolved.'' We should remember these are the 
representatives of their respective areas, many who are living under 
the umbrella of the National Marine Sanctuaries.
    Our county, cities, towns, and commercial and sport fishermen have 
long been very outstanding stewards of our ocean. We work with many 
state, Federal and environmental groups, as well as universities and 
colleges. The Central Coast has been the ``poster child'' of how to do 
things right in many discussions and meetings held in California, on 
the East Coast as well as our Nation's capital, Washington, D.C. And 
finally, it is important to remember the amount of fishing grounds 
closed to some form of fishing, those include Marine Protected Areas, 
Essential Fish Habitat Areas, and Rock Cod Conservation Areas. I think 
we can be very proud of our stewardship of the Central Coast.
    I guess I just love the Central Coast, and when my wife and I step 
outside and look around, we remind ourselves every single day of what 
we have here. We do not think additional layers of bureaucracy would be 
in the best interest or add to the beauty of this area.
                                          Jeremiah O'Brien,
                         Morro Bay Commercial Fishermen's Organization.
                                 ______
                                 
                    02-21-15 Letter to Bill Douros, 
           Director of West Coast National Marine Sanctuaries
Mr. Douros,

RE: Oppose: Chumash Heritage National Marine Sanctuary

    Re: ``Chumash nominates coast for sanctuary status''. Despite the 
tone given to the article, as people get beyond the fluff of the name 
sanctuary, there will be significant agency and stakeholder opposition. 
Having a new Federal agency own our resources will add another 
unwelcome level of Federal regulation. The sanctuary program officials 
say this about local stakeholder interests:

        ``The fact is that sanctuary values are a national resource. 
        Those who use the resource have no more right to expect the 
        continued use of the resource than one who is not a direct user 
        of the resource and wants that resource to be conserved.'' 
        (NOAA publication ``Valuing our National Marine Sanctuaries'', 
        Wiley, 2003). Recreational and commercial fishermen, divers, 
        growers, agencies with ocean infrastructure, ocean-front 
        property owners, all should be concerned. Even the sovereign 
        Native American Tribes in the Pacific Northwest have expressed 
        deep concern about sanctuary management.
                                 ______
                                 
                  March 12, 2015, Letter to the Editor
    The Chumash National Marine Sanctuary proposal as submitted by Fred 
Collins from the northern Chumash Tribal Council was rejected on March 
6, 2015, by the Office of National Marine Sanctuaries. It appears the 
reasons were lack of information and incomplete data on the 
application. In the letter of rejection it seems to encourage them to 
resubmit their proposal. Many of us have been trying to educate the 
public as to why it is not a good idea to turn over our ocean and 
beaches to Federal control. We, therefore, will look at this situation 
as a temporary setback for them and continue educating the public as to 
the many problems associated with a National Sanctuary system. We will 
be interested in the content of the new proposal as the rejection 
letter described many of its deficiencies in the area of management. 
This is the area that has many of us here on the Central Coast 
concerned. Losing or giving up control of our resources to Federal 
management would be a shame. We believe our community is the best 
manager and steward or our coast, and our past performance speaks for 
itself. We only have to walk outside our door, take a deep breath, look 
around, and realize we have done well, and we will continue that 
tradition on our own.
                                          Jeremiah O'Brien,
                                                          Director,
                         Morro Bay Commercial Fishermen's Organization.
                                 ______
                                 
           06-12-16 Letter to the editor of Telegram Tribune
THE SANCTUARY ISSUE:

    The Chumash Sanctuary continues to go on and on even when the one 
and only legitimately recognized Chumash tribe sent a scathing letter 
to Lois Capps for her support of the proposed sanctuary. This letter 
was signed by Kenneth Kahn, the Chumash tribal leader and chairman. It 
stands to reason, then, that support for a Chumash Sanctuary that is 
not supported by the Chumash tribe, coupled with our current Congress 
person, who obviously does not support the tribe, goes to show that the 
needs and wishes of the tribe continue to be ignored by many.
    If the Federal Government wants to do something for the Chumash, or 
any other tribe, they would address the real needs of the people and 
not put some gratuitous name on a marine protected area that will be no 
help at all to the real wants and needs of tribal members.
    As a longtime fisherman on the Central Coast, I believe our ocean 
and shoreline is as near perfect as anywhere on earth. Therefore, I 
cannot understand why people think that bringing the Federal Government 
here will improve our coast. I have to reflect on exactly what it is 
that the Federal Government has improved for us lately. I guess it goes 
back to the old adage, ``IF IT'S NOT BROKEN, PLEASE DO NOT TRY TO FIX 
IT.'' We have been doing fine, folks. Support local control.

                                          Jeremiah O'Brien,
                                                                  MBCFO
                                 ______
                                 
         12-16-16 Letter to the editor of the Telegram Tribune
    Since November, the Sierra Club, as well as Surfrider and EcoSlo, 
have had full-page ads in the Telegram Tribune telling of what to 
expect, in their opinion, from a sanctuary in our area.
    They indicated sums of money the sanctuary generated annually from 
commercial fishing and jobs in the commercial fishing industry that 
sanctuaries support. As a member of the fishing community for 37 years 
here on the Central Coast, I know what they have written is 
unequivocally false.
    The Monterey Bay National Marine Sanctuary in 1992 guaranteed us 
and made it part of their designation document (contract) that they 
would not manage fisheries. The sanctuary had multiple infractions of 
this rule in which they helped to close many areas to commercial 
fishing in flagrant disregard for our contractual agreement. The most 
recent of which I spoke to at the Pacific Fisheries Management Council 
meeting.
    The commercial fishing industry does not have the resources to buy 
full-page ads in our local paper. Please look at our website, 
www.opccoalition.com, to get an honest review of the sanctuaries.
    Please do not give up local control and management to the Federal 
Government. We have all been doing a wonderful job of stewardship.
                                          Jeremiah O'Brien,
                                                                 MBCFO.
                              Attachment 
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
         02-05-17 Letter to the editor of the Telegram Tribune
    Many Thanks to the County Board Members that Support the Fishermen:

    Many thanks to the County Board members that support the fishermen, 
ranchers, farmers, and our ports and harbor districts in SLO county 
regarding the Chumash Heritage National Marine Sanctuary issue. The 
supervisors that did not support us claimed that this was about oil. 
This issue has nothing to do with oil. It has to do with the 
livelihoods of those of us that make our living on land and sea. We are 
here to protect our livelihoods from Federal intrusion and nothing 
more. One of the supervisors claimed they would not manage fisheries. 
Well, I can assure the public that he nor anyone in our county will be 
making that decision. It will be made in Washington, D.C. just like all 
of the hundreds of other rules that will be made regarding all national 
sanctuary management. Federal rules are not made by cities, counties, 
or states. They are made only by the Federal Government.
                                          Jeremiah O'Brien,
                         Morro Bay Commercial Fishermen's Organization.

    Senator Sullivan. Thank you, Captain O'Brien, and we will 
submit for the record all of your written testimony in addition 
to your oral testimony.
    I would now like to turn to Vice Admiral Lautenbacher for 
his 5-minute opening statement.
    Sir, the floor is yours.

                   STATEMENT OF VICE ADMIRAL

       CONRAD C. LAUTENBACHER JR., FORMER ADMINISTRATOR,

        NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

    Admiral Lautenbacher. Thank you, Mr. Chairman and Ranking 
Member Peters and distinguished members of the Committee, as 
well as staff. Thank you for the opportunity to appear before 
you today.
    I'd like to go back to the bigger picture for just a minute 
as we move on, and these comments that I've heard are very 
disturbing to me, having been in this hearing room a number of 
times and not heard these kinds of things. So, you know, this 
is the blue planet. We depend on the ocean, the ocean we came 
from. This is what supports us. Twenty percent of the protein 
for the world comes from the ocean, and the ocean needs to be 
healthy. The ocean is not healthy right now, and I include the 
Great Lakes in that. The Great Lakes have issues, too, in terms 
of pollution and species and closed beaches, et cetera. So we 
have the need to maintain, to bring this ocean back.
    As we increase the number of people on this planet--
there'll be 9 billion to 10 billion pretty soon in a couple of 
generations--we need to feed them, we need to clothe them, we 
need to house them, we need to do a lot of things. So we have 
to take into account a whole bunch and range of things to do.
    Now, the Sanctuary Program is a vehicle--it was created by 
Congress, and it's perfectly right and fitting that Congress 
review it and reauthorize it as necessary, because things 
change, and this is a very difficult area. When I first sat in 
this room to be sworn in, it never occurred to me how much time 
I would spend on fisheries as the head of NOAA, and I assure 
you that the head of NOAA spends maybe more than 50 or 60 
percent of the time on fisheries, and what you heard here is 
one of the reasons and why it's important, why it's very, very 
important. So we need to figure out how to do this correctly.
    Now, the concept of marine sanctuaries is a very good one. 
The idea is trying to have sustainability but yet take into 
account all of the kinds of things that we need to have a 
viable society, that's economically viable, that's going to be 
sustainable, et cetera, that supports the local people who live 
and work and need those areas desperately. So I support 
whatever can do that, and I spent a lot of time trying to do 
it, and I'm sure the people who followed me did it as well. So 
I'm there on that.
    Now, in terms of the designation of it, this is a process 
that is very thorough. It doesn't mean it can't be corrected or 
changed. It should always be reviewed. If there are some things 
you can do to make it more streamlined and more, shall we say, 
brokered in a way that everyone considers fair, that would be 
certainly a good thing to work on. But the fact is that the way 
we have it today, it takes a long time to create a sanctuary. 
The processes that NOAA set up, even to nominate somebody to 
even be considered--that wasn't in the process when I was the 
head of NOAA, and I required people to have really good reason 
if they were going to come in and have a new sanctuary. It had 
to be ecosystem, fisheries--you had to go through the science, 
and, hopefully, that's still being done.
    But that kind of rigor is needed, and I think that NOAA's 
new process does that, because it requires the community come 
in with all their information and bring the whole community 
together, which includes the fishermen as well as the 
environmentalist and the economic developers of the area. So 
let me stop on that for a minute.
    The economic value has been proven. This is $8 billion of 
development that occurs, and salaries and fallout, if you want 
to call it, the secondary effects in the areas that have marine 
sanctuaries. And, by and large, when I've talked to 
sanctuaries--I admit I haven't talked lately, because I left in 
2008. So, anyway, the people that lived in those areas liked 
the sanctuaries, and they liked the system where they 
participated. Fishermen were on the boards. They had 
participation before rules were changed.
    And I might point out that according to what the group told 
me today, there are only five sanctuaries that actually have 
additions to fisheries rules that haven't been already put in 
place by the National Marine Fishery Service from the Magnuson-
Stevens. So that's good.
    With that, let me close. I'm running out of time. I thank 
you, sir, for your--and I have written testimony for you.
    [The prepared statement of Admiral Lautenbacher follows:]

Prepared Statement of Vice Admiral Conrad C. Lautenbacher, Jr., Former 
     Administrator, National Oceanic and Atmospheric Administration
    Good morning, Mr. Chairman, Ranking Member Peters and Members of 
the Subcommittee. Thank you for the opportunity to testify before you 
today on the role that National Marine Sanctuaries play in marine 
conservation and the nomination and designation process for these 
sanctuaries.
    As requested I will also include comments on the coordination 
between the Sanctuary Program and Fishery Management Councils, the role 
of stakeholders, the new nomination process for sanctuaries, and the 
contribution of sanctuaries to the economy.
National Marine Sanctuaries and Conservation
    As a short preamble to the specific topics requested, I emphasize 
that a major purpose of the programs under question is to contribute to 
the maintenance of a healthy ocean including the Great Lakes. The ocean 
today is not healthy; much more needs to be accomplished to reverse the 
course of decline that has occurred over the last century or more. The 
worldwide rates of decrease in diversity and quantity of fish stocks, 
the increasing acidity of the ocean, the proliferation of marine 
debris, particularly plastics, and the destruction of coastal estuarine 
areas that provide protection and habitat for the human race and their 
economies around the world are alarming, and require our highest 
priority to reverse. At the same time, the world population is 
increasing rapidly to levels which could easily top 9-10 billion within 
the next two generations.
    National Marine Sanctuaries play a major role in stemming this 
decline and with increased support can play a major role in actually 
reversing the downward trend. Managed protected areas have been proven 
to restore fish populations where depletion has already occurred. Their 
example in fostering economically beneficial conservation can serve as 
a model to the world.
Designation
    Congress emphasized in the creation of the National Marine 
Sanctuaries Act (NMSA) that the legislation was to allow for multiple 
uses in the ocean. It was purposely intended to allow compatible, 
multiple uses of the ocean suited to the needs of stakeholders and 
delivering economic benefit while conserving the resources. In essence, 
Congress intended through the NMSA to create a management system for 
the entire marine environment that balanced conservation and human 
activities sustainably.
    The NMSA created National Marine Sanctuaries to consist of special 
areas in marine and Great Lakes waters that protect nationally 
significant natural, historical, and cultural resources. NOAA manages 
13 national marine sanctuaries tailored to the areas of coverage by 
each to preserve and ensure that invaluable ecological services will be 
maintained in perpetuity for future generations. Note that a healthy 
ocean is the basis for thriving recreation, tourism, and many other 
diverse commercial activities that drive coastal and national 
economies.
    The National Marine Sanctuaries Act authorizes the Secretary of 
Commerce, through NOAA, to identify, designate, and protect areas of 
the marine and Great Lakes environment with special national 
significance due to their conservation, recreational, ecological, 
historical, cultural, archeological, educational, or esthetic 
qualities. Sanctuaries are designated by NOAA under the NMSA or through 
Congressional action and are managed by NOAA using the authorities 
granted through the NMSA.
    The designation process is long and complex, designed to be an 
extensive public activity, including robust community engagement, 
stakeholder involvement, and citizen participation.
    There are four phases:

        Scoping including the announcement of intent to designate;

        Sanctuary proposal with draft management plan and an 
        Environmental Impact Statement;

        Public Review to consider all input, including among others, 
        Congress, regional fishery councils, and local governments;

        Sanctuary Designation which sets forth the final decision and 
        includes the final organizational documents.

    This entire process is complex, and is inclusive, involves many 
meetings, reviews, formation of a community based Advisory Council, 
setting up a local office, and fully engaging the community, as well as 
national organizations with local interests. It is a process that 
routinely takes years to complete.
Nomination
    It should be noted that the process just described details how a 
Sanctuary is designated as such according to the NMSA. There is also a 
process initiated in 2014 for ``nominating'' candidates for 
``designation'' as a National Marine Sanctuary. Be aware, they are very 
different processes. There are six steps in nomination process, http://
www.nominate.noaa.gov/nominations:

        Step 1. A community builds a nomination, and every nomination 
        begins at the community level.

        Step 2. The community submits the nomination to NOAA after 
        gathering the necessary information.

        Step 3. NOAA provides an initial review and may decline or 
        return to the community for additional information.

        Step 4. NOAA takes a close look at nominations that met Step 3 
        goals and may bring in outside reviews as well as work with the 
        community to answer any questions that arise. This is serious 
        and comprehensive vetting for meeting all the parameters of a 
        viable Marine Sanctuary.

        Step 5. Nomination is accepted if step 4 successful.

        Step 6. Nominated area is added to the inventory of potential 
        candidates for designation at some time in the future.

    To date, there have been:

        2 nominations declined by NOAA,

        5 nominations accepted and added to the inventory, and 2 
        nominations selected for entry into Sanctuary designation:

        Mallows Bay--Potomac River (Maryland, Potomac River) and Lake 
        Michigan (Wisconsin).
Economic Benefit
    National Marine Sanctuaries bring significant overall economic 
benefit to the Nation. Across all national marine sanctuaries, about $8 
billion annually is generated in local and ocean dependent economies 
from diverse activities including among others: commercial fishing, 
research, recreation, and tourism-related activities.
    One small example of economic activity: between 2010 and 2012, 
there were on average,
    $155.6 million in spending for recreational fishing in the four 
California national marine sanctuaries. The spending generated, with 
multiple impacts, $213 million in output, $129 million in value-added 
(gross regional product), and $74.6 million in income, which supported 
1,376 jobs in the coastal counties of California.
    Additional detailed examples of the extensive economic impact of 
Sanctuaries can be found on the NOAA website, http://
sanctuaries.noaa.gov/science/socioeconomic.
    But the bottom line is that National Marine Sanctuaries provide a 
very significant economic benefit to the stakeholders in the regions in 
which they operate. And thanks to the NMSA, stakeholder representatives 
serve on the advisory boards that contribute directly to sustainable 
management of our natural resources. Also significantly contributing to 
the local and regional connections are the local sanctuary management 
offices staffed with knowledgeable people who live in the area.
Sanctuaries and Fishing Regulation
    The regulation of fishery resources in national marine sanctuaries 
is a collaborative process, where sanctuary managers work with other 
fishery managers in the region to ensure that these important resources 
are protected. The NMSA provides sufficient authority to regulate 
fisheries and fishing activities as necessary to address specific 
issues at a particular sanctuary. Any such regulation would be 
developed in cooperation with appropriate state and Federal authorities 
as well as fishery management councils.
    By and large, fishing regulations in most of the sanctuaries are 
enacted by other government or state agencies. These rules have been, 
and continue to be evaluated to ensure they meet the requirements of 
the NMSA. Additional regulations are put in place only after 
consultation with all parties involved, including the relevant Fishery 
Management Council (FMC). There are only five such situations: Monitor 
(NC), Florida Keys, Flower Garden Banks (TX), Channel Islands (CA), and 
Gray's Reef (GA). In Federal waters, the relevant FMC would be given 
the opportunity to prepare draft sanctuary regulations to start the 
process. In the end however, if these rules were not sufficient, and 
all mediation failed to resolve differences, NOAA would be required to 
prepare rules that conform to all national regulatory guidance.
Marine National Monuments
    NOAA's Office of Marine Sanctuaries also manages two marine 
national monuments. Papahanaumokuakea and Rose marine national 
monuments. Papahanaumokuakea Marine National Monument was the outcome 
of what began as a sanctuary designation process in 2000 and then 
changed by President Bush declaring it a monument under the Antiquities 
Act in 2006. While not being managed under the full force of NMSA, the 
intense work accomplished at the stakeholder level locally and 
nationally created a strong majority coalition of organizations and 
citizens that strongly supported the President's action. The monument 
was then further expanded by President Obama.
    In 2009, President Bush established Rose Atoll in American Samoa as 
a Marine National Monument and directed Fagatele Bay National Marine 
Sanctuary to begin developing a management plan to incorporate the area 
into the sanctuary. In 2012, at the culmination of a sanctuary 
management review process, NOAA expanded the sanctuary to include the 
area at Rose Atoll Marine National Monument. It should be noted that 
President Bush at the same time in 2009 also designated a long list of 
Pacific Ocean waters surrounding atolls and islands as marine national 
monuments, significantly increasing the areas in the Pacific under 
special protection. President Obama also expanded these areas as well.
    My congratulations to both Presidents Bush and Obama and past 
Congresses for their bipartisan support of National Marine Sanctuaries 
and the protection of our marine resources for all Americans to enjoy!

    Senator Sullivan. Well, thank you. This is an outstanding 
group in terms of differing views. So I want to dig into some 
of the questions.
    First, there's a lot of focus on just a local input, local 
stakeholder input, and, Mr. Weiss, you talked about the PEER 
proposal, which I think, you know, in a lot of our views, 
that's kind of the worst case scenario, where you have a group 
that's not from Alaska, for example, making a NOAA proposal to 
lock up tens of thousands of square miles of the ocean. 
Fortunately, I think, as you mentioned, the process worked 
there.
    But what I really wanted to touch on in terms of questions 
really for all the panelists is the integration of a 
sanctuaries designation and what goes into it, particularly in 
terms of rigorous science and data, and how that intersects or 
either trumps or oversteps with regard to the well-established 
Magnuson-Stevens Fisheries Council process, which--I think 
pretty much everybody here noted--works in a very 
collaborative, stakeholder, science-based approach.
    I just want kind of your views, starting with Mr. Weiss, 
how you see these things working together or maybe not working 
together, and what more can we do? Because I think the Councils 
under the Magnuson-Stevens Act have a long track record of 
science-based sustainable management. They certainly do in 
Alaska. But what's the integration here with sanctuaries, and 
how do we balance what you said, Captain Hickman, the balance 
in the stakeholder input, which is very front and center on 
Magnuson-Stevens, but might be lacking in the sanctuary's 
designation?
    I'll open that up to all four of you, because I think all 
of you touched on it in your testimony, starting with Mr. 
Weiss.
    Mr. Weiss. Thank you, Mr. Chairman. I know about the North 
Pacific Council process and I know that all their work is about 
balancing those 10 national standards. They use the NEPA 
process and the Marine Mammal Protection Act and Dangerous 
Species Act. I don't know that the Sanctuaries Act employs all 
those. Perhaps the other gentlemen do know that, but----
    Senator Sullivan. I don't think it does, which is part of 
the challenge.
    Mr. Weiss. Well, I believe that the Council process is 
working and should be the controlling authority on this.
    Senator Sullivan. Captain Hickman?
    Mr. Hickman. Yes, sir. Thank you. I'll address your 
question in two parts. First off, you know, I look at the 
National Marine Sanctuary as like Yellowstone National Park. I 
mean, to be a National Marine Sanctuary, it needs to be a one-
of-a-kind place. And, you know, what is nationally significant? 
I think that's the question when we start going and diving into 
a lot of this. The Flower Garden Banks are nationally 
significant. There's no place like it. It's an amazing place.
    Two, as far as stakeholder input or stakeholder 
involvement, to get to that point, we've got to have the 
ability for the local folks, the volunteers, the people from 
industry to be able to have some type of weight in the 
recommendations. Currently, like with the Flower Garden Banks, 
we had a recommendation that would work for all the user 
groups--oil and gas, fishing, diving, all these folks--and the 
agency went with something totally different, and it would be 
similar to Yellowstone National Park coming in and saying, 
``You know what? We're going to draw a buffer zone 20 miles out 
from Yellowstone National Park into these ranches, and we're 
not going to let you do anything in there, even though it's 
your--it's the property of the people or the property of the 
country.''
    That's what we've got to have. We've got to have grassroots 
folks that have a say-so in this. Currently, the way that the 
Act is, we don't have the ability, or we don't have--our voice 
doesn't have a weight. We can recommend something, but then 
they go and do something totally different, like what just 
happened with the Flower Garden Banks expansion. We want to 
expand that Flower Garden Banks into these other areas, but we 
want to do it right in a way that stakeholders can live with 
it, and that's not the way it happened.
    Senator Sullivan. Captain O'Brien, do you have any sense, 
again, on the question of MSA, and same to you, Admiral, I'll 
pose that. It's a really critical question here.
    Mr. O'Brien. In our experience, the Monterey Bay, 
particularly, as well as the Channel Islands, have used their 
influence and their direct participation in creating no-fishing 
areas. Now, in the state--the state was determined to create 
some no-fishing areas along the coast of California and extends 
the entire coast nearly 1,000 miles. So there's a staggered 
group of no-fishing areas along the coast now, implemented by 
the state but influenced by the Monterey Bay National Marine 
Sanctuary, particularly.
    They use their influence and participated--I have a letter 
here from them thanking the state for their participation--I 
believe it was included in your packets--and in that five 
times. In the very first page of the letter, they said, ``Thank 
you for your participation.'' But when they were closing these 
areas--the Blue Ribbon Task Force, which is in charge of 
designing these particular areas for the coast, for our section 
of the coast--the Monterey Bay National Marine Sanctuary 
indicated that it was not strict enough. They needed more.
    So they did, and they were successful in closing even more 
areas to both recreational and commercial fishing, which, in 
numerous--I can't tell you the ways that it--we, by the way, 
did participate in that. Myself and a very good friend of my 
wife, in particular, participated in that and designed some of 
our own creations. We ended up losing a massive amount of 
productive area.
    The ocean is very vast, as everybody here knows, but 
certain areas are very productive, and certain areas are non-
productive and always will be because of the--just like the 
land. You know, desert doesn't have a lot of wildlife, although 
it has some very good wildlife, and the ocean is very much the 
same.
    So, in any case, our success with acting with the 
sanctuaries has been nearly zero. The Sanctuary Council, which 
is an advisory--and I highlight that word--to the sanctuary 
itself, is all--except certain positions such as area harbor 
masters and so forth--it's all appointed positions.
    Well, in one instance, for example, we were appointing a 
very lovely lady, Kathy Fosmark. We, the fishing industry, 
supported Kathy for the fishing seat, and that position was 
opposed because the Sanctuary Director did not feel that she 
really represented the fishing industry. Well, Kathy's two 
children are fishermen, her husband is a fisherman, her dad is 
a fisherman, and she was supported by every fishing group in 
the state. But they said they didn't feel she really supported 
the fishing industry. We did finally get her in after going to 
many lengths, politically and so forth, to twist the arm of the 
Director. So this is just one of the many, many cases. But we 
have had very, very poor luck in talking to them.
    Senator Sullivan. Admiral, any thoughts real quick? I'm 
going to turn it over to Senator Peters here for his questions, 
but just on that--you were at NOAA--that integration of the MSA 
and sanctuaries designation--very important, critical, really, 
that Congress take a look at it. But what are your thoughts on 
that?
    Admiral Lautenbacher. Well, I spent a lot of time on 
Magnuson-Stevens, too, and it's a challenge. But the bill that 
we have today that we worked on and is in force is doing well. 
So I'm a big supporter of Magnuson-Stevens as it is. The 
Secretary of Commerce also has the same authority to appoint 
people to the fisheries councils, so, kind of, the buck stops 
at that point.
    But the fact is, cutting to the chase, that the way it's 
set up now, the National Marine Sanctuaries Act gives them 
control over the fisheries, so they can--they trump whatever 
the fisheries----
    Senator Sullivan. So it's a kind of veto power over the MSA 
process?
    Admiral Lautenbacher. Yes, if they can't come to an 
agreement, et cetera, and they try hard to talk and back and 
forth, back and forth, and in the end, they can't come to it. I 
had a couple of situations like that and was able to 
arbitrate--mediate. I put mediate. I got both people to agree 
in a couple of cases where they could manage what they--you 
know, both sides agree.
    But there are differences, and at some point, you have to 
have somebody that's authoritative that makes--or some process 
that makes it. So I will tell you that that is a difficult 
challenge in working it. The laws don't always mesh. They have 
various twists and turns in them, and that's one of them, and 
you're hearing the results of it today.
    Senator Sullivan. Thank you.
    Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    Admiral Lautenbacher, I want to follow up on some of the 
comments that you have made. First, I want to thank you for 
your service as both a naval officer and as a former NOAA 
administrator. I appreciate your service to your country.
    In your testimony, you talk a great deal about the 
extensive public process, robust community involvement, from 
all sectors, all sorts of stakeholders. I mentioned that 
briefly in my comments from my experience in seeing what 
happened up in Thunder Bay in Michigan.
    You mentioned the authorization over fisheries, but it's my 
understanding that there's a process before it gets to the 
sanctuaries, that there's--would you elaborate on whether or 
not that's really something that a sanctuary is going to do, to 
take over that kind of fishing regulation? Or where would that 
be in the process? Walk me through that.
    Admiral Lautenbacher. Well, the Magnuson-Stevens rules 
apply, to start with, and the sanctuary gives--marine 
sanctuaries hierarchy or, you know, bureaucracy provides the 
opportunity for the fishery people to set what they want and 
set the draft rules, so to speak, the draft rules that----
    Senator Peters. They get the first bite at the apple?
    Admiral Lautenbacher. They have the first bite at the 
apple, the draft rules, and then it's looked at by the 
sanctuary people, and if it's not enough, then they go back, 
and they talk and they talk and they talk, back and forth, back 
and forth. So it can go on for quite a while. Generally 
speaking, it comes to a conclusion, and, obviously, I haven't 
been around since 2008, so there are some things that are going 
on today that maybe haven't reached what I would call an 
amicable solution from both parties.
    Senator Peters. But from your experience, the attempt is to 
find--the parties to come together----
    Admiral Lautenbacher. The attempt is to bring people 
together, and the attempt is to make sure before it even gets 
started that you have the basis on which to make a decision, 
make a decision that people agree to.
    Senator Peters. Which is the quote that I gave from the 
Commerce Secretary, that unless you have all the local 
stakeholders together, a marine sanctuary is not likely to be 
successful. This is not about railroading folks. It's about 
trying to bring everybody together----
    Admiral Lautenbacher. Yes, sir. It is.
    Senator Peters.--to embrace the concept. And, usually, 
there is opposition on the front end, as we had in Michigan. 
But over time, those agreements are made, and folks hopefully 
see the success of the sanctuary if it is, indeed, successful.
    Admiral Lautenbacher. That's why it takes years to create a 
sanctuary, actually.
    Senator Peters. Right. This is a very long and laborious 
process.
    Captain O'Brien, your comments about Monterey--I want to 
have you elaborate on those, if you would, please, sir. It's my 
understanding that Monterey Bay has done work to promote 
commercial fishing. They've created a seafood cooperative 
called Real Good Fish. They're creating world histories on 
fishing tradition, implementing education programs, and, to my 
understanding, they have never promulgated any fishing 
regulation. Is that accurate?
    Mr. O'Brien. Congressman Peters, that is absolutely not 
accurate as far as regulation goes.
    Senator Peters. As far as the sanctuary--now, I understand 
the state of California and the Marine Fishery Service--that 
they were the ones that did these regulations. It wasn't the 
sanctuary itself?
    Mr. O'Brien. No, the sanctuary actively participated. Now, 
I think we have to go to a little history with our sanctuaries. 
Each and every sanctuary is different, and I'm thrilled, and I 
think that a sanctuary in your area, if it's working well, is a 
wonderful thing. And in Mr. Hickman's case here, he has also 
had that experience. We, unfortunately, have not.
    So one might be good, one might be bad, and one might be in 
between. We, unfortunately, are suffering, I believe, with some 
of the worst management problems. I'm not saying the 
sanctuaries are bad. I'm saying the management problems are 
bad. So here's--I'm not going to read this letter, but this is 
from the--at this time----
    Senator Sullivan. We can have that submitted for the 
record.
    Mr. O'Brien. This was submitted, I believe, to your----
    Senator Sullivan. Without objection.
    [The information referred to follows:]

                     Monterey Bay National Marine Sanctuary
                                     Monterey, CA, January 31, 2007

United States Department of Commerce
National Oceanic and Atmospheric Administration
National Ocean Service

Mr. Michael Flores,
President,
California Fish and Game Commission,
Sacramento, CA.

Re: Monterey Bay National Marine Sanctuary comment on the Marine Life 
            Protection Act Preferred Alternative

Dear Mr. Flores,

    The Monterey Bay National Marine Sanctuary encompasses a large 
portion of the MLPA's Central Coast Study Region extending 276 miles 
from the Marin Headlands in the north, to Cambria in the south. 
Sanctuary staff have appreciated the opportunity to be active 
participants in the current effort to designate marine protected areas 
(MPAs) on the central coast. The mandate of the MLPA to protect the 
marine ecosystem while maintaining the opportunity for sustainable use 
parallels our own under the National Marine Sanctuaries Act. The 
current initiative has the potential to be a critical step in achieving 
those mandates and represents an opportunity to create a lasting 
milestone in effective marine conservation and management.
    We would like to again commend the Department and MLPA Initiative 
staff on engaging in a tremendously public and open process that 
incorporated the perspectives of a wide range of stakeholders, and 
tapped the expertise of an impressive scientific advisory team. With 
stakeholders, scientists, Blue Ribbon Task Force members, the 
Commissioners and the public at large all contributing to the 
initiative, an unprecedented amount of community time and effort has 
gone into creating the package that the Commission adopted in August.
    Overall the package that the Commission adopted does a good job of 
striking a balance between package 1 and 2R, and represents an 
effective MPA network that allows for fishing to continue. However, we 
strongly recommend that the Commission view this package as the 
compromise that it is and not weaken it by choosing sub-options that 
would further undermine resource protection.
    We would like to also recommend that one change be made to 
strengthen the package in a critical way, which is prohibiting the take 
of pelagic prey species such as sardine and anchovy at Portuguese Ledge 
in Monterey Bay.
    These species are a critical part of the trophic structure 
providing a food source for countless marine species including 
seabirds, marine mammals, and fish. By protecting their role in the 
ecosystem at this location it could significantly benefit the more 
resident benthic species in the area such as rockfish. Prohibiting the 
take of pelagic prey species here would also provide an opportunity to 
understand the trophic linkages between benthic and pelagic species 
through comparison to a similar proposed site in Monterey Bay, Soquel 
Canyon, where the take of pelagic prey species could be allowed. This 
is a connection that is not well understood and the network could 
provide an opportunity to understand this important ecological link.
    The socioeconomic impact of disallowing pelagic prey species at 
Portuguese Ledge would be limited. The boundaries in Package P have 
changed somewhat, but they are still similar to 3R where the Portuguese 
Ledge area represented less that 1 percent of each of the fishing 
grounds for squid, anchovy and sardine. Additionally, while these 
species are an important forage base for the resident species in the 
area, they also quickly pass through. Fishing effort could therefore 
shift outside the MPA boundary without an effect on catch.
    Again, we encourage the Commission to rely on the process that has 
led us to this point and not choose sub-options that would undermine 
the value of the MLPA on the central coast.
    Thank you for the opportunity to comment on what will be a historic 
initiative. If you have any questions please contact Holly Price.
            Sincerely,
                                             Karen Grimmer,
                                             Acting Superintendent.

    Mr. O'Brien. So this is written--I won't mention the name, 
but an Acting Superintendent of the Monterey Bay National 
Marine Sanctuary, and it's to the state, and it's a letter 
thanking them for allowing their participation in the Marine 
Life Management Act, which is the Act that closed our state 
waters. And it briefly--I'll just--``Sanctuary staff have 
appreciated the opportunity to be active participants in the 
current effort to designate marine protected areas, MTAs, on 
the central coast,'' and it goes on. There's many more factors 
of the participant.
    Well, in the history of this, we thwarted twice the 
Monterey Bay National Marine Sanctuary. That was back in the 
late 1980s and early 1990s, and it was designated in 1992 with 
our cooperation, by the way. Leon Panetta--this is the third 
attempt, now. Leon Panetta was assigned to moderate--mediate, 
if you will--between the fishing industry and the sanctuaries. 
Well, at that time, he had language in their designation 
document and promises that they would never involve themselves 
with fisheries management.
    Well, since then, we have spent--our industry and myself 
and many others--countless hours in time that we could have 
devoted to our families and our businesses on struggling with 
their attempts at management policy. Now, that was only one 
instance, by the way, that state--there is also--they 
participated in and are currently working with Pacific 
Fisheries Management Council, or trying to work through them, I 
should say, in changing some of the essential fish habitat 
areas, which is another thing that we worked on. We disagree 
with their position, and they should not be involving 
themselves in any management.
    Senator Peters. If I could just have a brief follow-up. So 
your concern, specifically, with Monterey Bay is in relation to 
fisheries regulations, the fact that there are no-fish zones. 
You mentioned the problems with the management. What about the 
management in terms of the other benefits of a sanctuary, 
whether it's cultural heritage, whether it's protecting marine 
mammals, whether it's increasing tourism to Monterey Bay?
    Certainly, sanctuaries have a variety of benefits. Fishing 
is one of them, or fish management is one of them, but there is 
a long list of benefits. Would you say they have failed in all 
of those areas or simply in the fishing area?
    Mr. O'Brien. No, I don't believe they've failed in all 
those areas, and there are benefits to a sanctuary designation. 
I believe what they have done in our case--and I will get back 
to your question--but in our case, it's a breach of trust. So 
we had made a deal. They caused a breach of trust.
    Now, as far as the economics go, I don't believe there is a 
significant economic benefit. In your case, Congressman, there 
was, and that, again, is a wonderful thing. I have never heard 
of anybody--and I've been on the coast of California for 40 
years now--anybody say they were going to Santa Barbara to the 
Channel Islands National Marine Sanctuary, or, for that matter, 
to Monterey Bay to visit Monterey Bay National Marine 
Sanctuary. They go there to visit the aquarium, which has no 
relation whatsoever to the sanctuary. They go there to see the 
fishing boats and the beautiful bay.
    The sanctuaries are a wonderful thing if they follow what 
Congress, I believe, originally had designed them for. 
Involving themselves in management policies should not be their 
job. That's why we have the Magnuson-Stevens, and we shouldn't 
try to overlap two different----
    Senator Peters. Thank you. I appreciate it, Captain.
    Senator Sullivan. Well, thank you, Captain O'Brien, and I 
want to thank the witnesses again. Senator Peters and I are 
heading back to the Armed Services Committee. We have a markup 
of the annual defense bill right now. In a show of strong 
bipartisanship, I'm going to hand the gavel off to my colleague 
from Massachusetts, Senator Markey, for questions and to close 
out the hearing. So I want to thank Senator Markey for that.

               STATEMENT OF HON. EDWARD MARKEY, 
                U.S. SENATOR FROM MASSACHUSETTS

    Senator Markey [presiding]. Thank you, Mr. Chairman, very 
much.
    Senator Sullivan. And I thank, again, the witnesses. Thank 
you very much.
    Senator Markey. And thanks to Ranking Member Peters, and I 
thank all the witnesses, and it looks like I'll be the final 
questioner, so let me just get right to it.
    Earlier this month, I met with a remarkable constituent, 
Kevin Powers, who was named the 2017 Sanctuary Volunteer of the 
Year for his contributions to the Stellwagen Bank National 
Marine Sanctuary. His work with an ongoing sea bird survey is 
helping to understand the food web necessary to support 
migratory birds as well as whales, dolphins, fish, and other 
sea life.
    He has provided me with a letter on his work in Stellwagen 
as well as the broader contribution that Stellwagen makes to 
the coastal economy of Massachusetts and to understanding and 
protecting our incredible marine resources. And by unanimous 
consent, I will ask that this letter be included in the record.
    [The information referred to follows:]

                                                      June 23, 2017
Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
members of the Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard,

    As the 2017 Volunteer of the Year honored by the National Marine 
Sanctuary Foundation during Capitol Hill Ocean Week last week, I wish 
to share my understanding of the benefits of national marine 
sanctuaries for myself, my community, public access, science and 
economy from sanctuaries using my involvement with the Stellwagen Bank 
National Marine Sanctuary (SBNMS) in Cape Cod Bay, MA as an example. 
Since my retirement in 2013 I have volunteered at SBNMS as a member of 
the Sanctuary Advisory Council (SAC), a contributor to a research 
program involving satellite-based telemetry of a seabird (Great 
Shearwater) and a participant in a citizen science program that 
systematically surveys seabirds in the sanctuary 5-6 times a year. 
Prior to my retirement I was a seabird biologist from 1976-1983 both in 
the Atlantic and Pacific Oceans.
    Through my own prior research in this area and that with SBNMS 
since 2013 it is obvious to me that calanoid copeods and a forage fish 
called sand lance (Ammodytes dubius) form a core fabric of the food web 
for seabirds, whales, dolphins, seals and selected species of ground 
and mid-water fishes (which includes mackerel, cod and sea herring) in 
the southwest Gulf of Maine. A recent workshop (May 2017) was convened 
by the U.S. Fish and Wildlife Service at the Parker River National 
Wildlife Refuge in Newburyport MA to gather academics, research groups, 
and government agencies to discuss available information on sand lance, 
detail existing research underway and by whom, and compile a 
publishable document on the importance and vulnerability of this forage 
fish in this marine community. To this end the New England Fisheries 
Council was strongly encouraged to pursue an ecosystem-based policy for 
their management of harvested groundfish and mid-water fisheries. The 
basis of this encouragement is that is necessary to factor in take/
harvest for all marine predators (i.e., seabirds, whales, seals) when 
setting limits for commercial harvesting of specific fisheries, not 
just limits (i.e., takes) for commercial fishermen. None of this 
recognition and action would have been possible if were not for the 
SBNMS and their internal research program on sand lance and its 
connection to marine predators such as seabirds and marine mammals.
    The SAC at each national marine sanctuary provides representation 
for a most diverse group of stakeholders. It represents commercial 
interests (e.g., fishing, whale watching, diving, etc.), law 
enforcement, government agencies (state and federal) and research 
organizations. From my perspective as a seabird biologist and volunteer 
of the year, SBNMS represents an important marine area that requires 
the recognition and protection as afforded by its national marine 
sanctuary status. All interests have a collective reason to meet and 
discuss its health and future.
    SBNMS offers educational outreach to surrounding public schools and 
partners with other educational groups to reach and educate the public, 
in particular youth, about what is available to them in the sanctuary.
    SBNMS is diverse both economically and environmentally. The 
commercial shipping lanes that take cargo to and from Boston move 
through the sanctuary. In the past decade SBNMS was able to enable a 
change in the earlier configuration of the shipping lanes, which had 
been routed through the most heavily used southern part of Stellwagen 
Bank by endangered Right and Humpback Whales, to an area that mostly 
avoided these critical feeding areas without undo hardship to 
commercial shipping. This change provided an immense environmental 
benefit in that it reduced the number of whales struck by cargo 
vessels.
    During my trips on the citizen science seabird surveys, I have met 
a diverse background of volunteers. These volunteers included 
professional engineers, scientists, educators, students and bird 
watchers who wanted an opportunity to have an experience on the ocean, 
learn new skills, or create new networking contacts to get a job or 
start a career. In all cases, they took personal time off from their 
existing work in order to participate.
    There is a growing community of people from both sides of the 
Atlantic Ocean that come to Massachusetts to see marine mammals 
(whales, dolphins and seals) and seabirds. Commercial ventures for 
whale-watching and sea birders exist in coastal towns from Boston to 
Provincetown. These boat operators primarily go to SBNMS. Recreational 
and charter fishing tours also go to SBNMS. These commercial 
enterprises advertise SBNMS in their marketing. The towns in which 
these enterprises operate benefit from dining and parking revenue.
    America's national marine sanctuaries, including my very own 
Stellwagen Bank in Massachusetts, are national treasures that protect 
natural, cultural and historic resources in the ocean and Great Lakes 
on behalf of the American people for current and future generations. I 
thank the subcommittee for the opportunity to provide this letter of 
support for our Nation's national marine sanctuaries.
            Sincerely,
                                              Kevin Powers,
               Stellwagen Bank National Marine Sanctuary Volunteer,
                                                          Plymouth, MA.

    Senator Markey. Dr. Lautenbacher, how do marine sanctuaries 
with their citizen science support help scientists from NOAA 
and other research institutions to better understand the ocean 
and our marine resources?
    Admiral Lautenbacher. The sanctuary office itself has a 
number of experts that are involved and understand ecosystems, 
understand fisheries management, understand the various factors 
that are involved. So there's a good deal of science that goes 
into understanding it. There also is a good deal of 
conversation and connection with the local experts who are out 
there in the water with fishermen and people who are with the 
local universities. So there's a web and a connection of people 
trying to provide the best information available at the time, 
and it can come from a variety of sources, as I've just 
mentioned.
    Senator Markey. So Stellwagen Bank National Marine 
Sanctuary in Massachusetts was just named the number one best 
place to see aquatic life by USA Today. Nearly a decade ago, a 
study found that tourists spent more than $125 million to 
travel to and visit the Stellwagen Sanctuary in 2008. How, in 
your experience, Admiral, do marine sanctuaries contribute to 
the coastal economies of communities that are nearby?
    Admiral Lautenbacher. They're enormously effective. The 
total that we have is about $8 billion a year in terms of 
development and providing additional income and secondary 
effects in the coastal areas where they are. So overall--I 
can't claim that every one is equal, but overall, that's what 
they get. And, normally, things like recreational fishing and 
commercial fishing does even better. You're into the $100 
million, $150 million range for a year or so that you're 
getting in these various areas. So it's a reasonable--we're 
talking serious money. It's not something to throw away, and 
that's why these gentlemen are here.
    Senator Markey. So in your opinion, is it in America's 
interest to have a system of marine sanctuaries and protected 
areas, Admiral?
    Admiral Lautenbacher. Yes, it is. It is in our interest. It 
is in the world's interest. It is in our interest as well, 
definitely.
    Senator Markey. Based on their studies of where whales are 
congregating, Stellwagen Sanctuary staff and NOAA have 
partnered with the International Maritime Organization to 
redirect the Boston shipping lanes and protect endangered 
whales off the coast of Massachusetts. The shift cuts the risk 
of vessel collisions with critically endangered right whales by 
an estimated 58 percent and all other baleen whales by 31 
percent.
    Dr. Lautenbacher, do marine sanctuaries generate 
information about the ocean and marine life that is important 
for commercial activities as well?
    Admiral Lautenbacher. Yes, they do, and they accept it from 
the local sources as well as their own experts, or at least 
they're supposed to. I'm speaking for the time that I was 
there, since I left in 2008. I'm sure that there are still some 
very well-meaning people running the organization. But that's 
the idea. The idea is to get the information from the 
fishermen, from the people who are on the water, and the people 
who use it for various purposes, whether it be recreation or 
for whale watching or recreational fishing. All of that counts.
    Senator Markey. In your testimony, you mentioned that, 
``The ocean today is not healthy.'' From your perspective as a 
former NOAA Administrator, how do marine sanctuaries help the 
ocean regain its health?
    Admiral Lautenbacher. They help by having a structured 
regime that's monitored by a management staff as well as the 
advisory board and the people that are there and the good folks 
that you listened to that are sitting next to me that are using 
today--using those sanctuaries. Having that managed process--
and if you go back and look at most of the--well, every paper 
that I've seen that's responsible--if you're able to control to 
a certain extent fisheries at the right level, you can re-
stimulate even areas which have been fished out, supposedly. 
You can't go too far because you destroy the food chain--the 
food web, which is very hard to restore once you do that, like 
what's happened in Canada. But in the United States, we've not 
reached that point yet.
    But still, if you preserve areas and reduce or at least 
monitor--and the National Marine Fishery Service does that in 
its setup--you will regain the structure of the fishery. So you 
can actually recover, based on the kinds of rules that are set 
up, if they're set up carefully and they're monitored.
    Senator Markey. The hearing record will remain open for two 
weeks. During this time, Senators are asked to submit any 
questions for the record. Upon receipt, the witnesses are 
requested to submit their written answers to the Committee as 
soon as possible.
    We thank each of the witnesses for their participation here 
today. And with that, this hearing is adjourned. Thank you all 
for your cooperation and your help.
    [Whereupon, at 10:36 a.m., the hearing was adjourned.]

                            A P P E N D I X

 Prepared Statement of Kristen J. Sarri, President and Chief Executive 
             Officer, National Marine Sanctuary Foundation
    Mr. Chairman, Ranking Member Peters, and members of the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard, thank 
you for the opportunity to submit written testimony regarding the 
National Marine Sanctuaries Act and the National Marine Sanctuary 
System. I provide this testimony on behalf of our national network of 
chapter and friends groups include the California Marine Sanctuary 
Foundation (CA), Cordell Marine Sanctuary Foundation (CA), Greater 
Farallones Association (CA), Friends of Thunder Bay National Marine 
Sanctuary (MI), Gray's Reef National Marine Sanctuary Foundation (GA), 
and Sanctuary Friends Foundation of the Florida Keys (FL).
    The National Marine Sanctuary Foundation is a national non-profit 
organization whose mission is to conserve treasured places in our ocean 
and Great Lakes for current and future generations of Americans to 
enjoy. Founded in 2000, the Foundation promotes citizen science, 
research, conservation, education, and community engagement to conserve 
coral reefs, marine and Great Lakes habitats, protect places of 
cultural significance, and preserve our maritime history and heritage. 
Partnerships are critical to the National Marine Sanctuary Foundation's 
work. Through collaboration with local communities, businesses, 
government, corporations, and individual donors we increase our impact. 
To illustrate the importance and support for America's national marine 
sanctuaries from their communities, attached are 27 letters of support 
from local leaders from across the National Marine Sanctuary System, 
both sites under designation, and numerous sanctuary nominations.
    The National Marine Sanctuary Foundation works to connect Americans 
to sanctuaries and to support critical research efforts to expand our 
understanding of ocean and Great Lakes ecosystems. We do this by 
supporting:

  <bullet> Exploration expeditions to uncover shipwrecks in the Pacific 
        and along the eastern seaboard;

  <bullet> Science to characterize biological resources and assess the 
        health of marine and Great Lakes resources and ecosystems such 
        as corals in the Gulf of Mexico;

  <bullet> Research such as tagging and tracking of commercially and 
        recreationally important fish species, studying areas of 
        importance during critical life stages such as spawning 
        aggregations, nurseries, and habitats, investing in long-term 
        monitoring, developing tools for fishermen, and recognizing 
        businesses that promote sustainable fishing practices;

  <bullet> Outreach to connect families and youth to our ocean and 
        Great Lakes through the sport of recreational saltwater 
        fishing, and fostering a sense of stewardship and 
        responsibility for America's great outdoors;

  <bullet> Conservation of vulnerable marine species and habitats 
        through community-based efforts such as rehabilitation, 
        release, and tagging of seals and sea lions on the West Coast; 
        whale disentanglement and rescue in Hawai'i; and installation 
        of mooring buoys to protect corals in the Florida Keys; and,

  <bullet> Mitigation of invasive species that threaten habitats, 
        public safety, and economic opportunities such as the invasive 
        lionfish in the Florida Keys National Marine Sanctuary.
National Marine Sanctuaries Act and the National Marine Sanctuary 
        System
    In 1972, Congress had the foresight to pass the National Marine 
Sanctuaries Act to promote the conservation of areas of national 
significance in our ocean and Great Lakes for future generations of 
Americans, specifically, calling for the protection of areas in our 
ocean and Great Lakes that ``possess conservation, recreational, 
ecological, historical, scientific, educational, cultural, 
archeological, or esthetic qualities which give them special national, 
and in some cases international, significance.'' Congress recognized 
the need to manage these areas as a system to conserve, understand, 
manage and sustainably use resources; to enhance public awareness, 
understanding, and appreciation of the marine and Great Lake 
environments; and, to maintain for future generations the habitat and 
ecological services of living resources that inhabit these areas.
    Today, the National Marine Sanctuary Systems consists of 13 
national marine sanctuaries, and the National Oceanic and Atmospheric 
Administration (NOAA) co-manages two marine national monuments. In 
total, these sites cover over 620,000 square miles and conserve some of 
the Nation's most critical natural and cultural resources in the ocean 
and Great Lakes. It is important to underline the fact that NOAA holds 
these resources in trust for all the American people.
    The National Marine Sanctuary Act requires sanctuary managers to 
``facilitate to the extent compatible with the primary objective of 
resource protection, all public and private uses of the resources of 
these marine areas not prohibited pursuant to other authorities.'' 
Therefore, managers balance multiple uses on the water and engage many 
constituencies in managing and conserving marine and Great Lakes 
resources. Every sanctuary permits multiple uses, however, management 
varies as each sanctuary is different based on the resources it was 
established to conserve and the community where it is located.
    Healthy sanctuaries support local communities and businesses by 
generating approximately $8 billion annually to support coastal and 
ocean dependent economies. Recreation in sanctuaries brings in $2.15 
billion in income alone, supporting 63,000 jobs.
    Sanctuaries and Resources Conservation--Our national marine 
sanctuaries work to protect the most important marine ecosystems and 
natural and cultural resources in America's ocean and Great Lakes 
waters. Sanctuary habitats include vibrant coral reefs, kelp forests, 
sand banks, migration corridors, deep-sea canyons, and underwater 
archaeological sites. Contained within the boundaries of sanctuaries 
are more than 300 discovered shipwrecks that document our past as a 
seafaring nation. These sites are home to millions of species, 
including endangered and threatened species such as the Hawaiian monk 
seal, Pacific Leatherback sea turtle, and the Southern Resident killer 
whale, where sanctuaries play a critical role in their recovery. The 
National Marine Sanctuary System harbors roughly 15 to 20 percent of 
the Nation's coral reefs, including some of the most pristine reefs in 
the U.S. and the oldest and largest corals in the world.
    Sanctuaries often help identify solutions to resource conservation 
and restoration to protect species. In Stellwagen Bank, Massachusetts, 
the sanctuary, universities, the ports, and shipping industry worked 
together to shift the location of shipping traffic lanes to reduce the 
risk of ship strikes to the endangered North Atlantic right whales by 
58 percent and to baleen whales by over 80 percent. On the west coast, 
sanctuaries are working with researchers to investigate food shortage 
for sea lions and seals. By using telemetry, scientists can study 
rehabilitated pinnipeds to understand where pups forage and provide 
real time response to prey and environmental conditions.
    Some of the most important known sites for seasonal aggregations of 
adult and sub-adult northeastern Pacific white sharks are located in 
the Greater Farallones Sanctuary. These sites provide critical feeding 
areas during their annual migration, and tagging and photo 
identification provide information about their life history and 
ecology, environmental factors affecting abundance and success, and 
local population estimates and trends.
    In the Florida Keys, coral nurseries aim to replenish wild 
populations of corals by providing care and protection to nurse them 
back to health and eventually transplanting them on the reef to improve 
and supplement existing corals. Coral restoration efforts, like these 
nurseries, hope to enhance reef resilience, and citizen science 
initiatives actively promote stewardship and outreach to reduce 
stressors.
    Olympic Coast National Marine Sanctuary serves as one of the most 
productive fish-growing habitats as well as a critical habitat and 
migratory pathway for twenty-nine species of marine mammals and 
multiple seabird species. Four Olympic Coast tribes'--the Makah, 
Quileute, Hoh, and Quinault--use of Olympic Coast National Marine 
Sanctuary waters dates back centuries from present day. Sanctuary staff 
and the four tribes work together on behalf of sanctuary management to 
strengthen resources and respect the longstanding relationship of 
coastal Native Americans and the marine environment.
    The Hawaiian Islands Humpback Whale National Marine Sanctuary 
protects more than 21,000 humpbacks. The Sanctuary is active in 
research and conservation, specifically through the Whale 
Disentanglement Response Initiative. The sanctuary conducts 
collaborative research projects that assess populations of humpbacks 
and the condition of their habitat, and differentiate between natural 
and anthropogenic impacts. Recently, much of the sanctuary's research 
focus has been on SPLASH (Structure of Populations, Levels of 
Abundance, and Status of Humpbacks), an international cooperative 
research study of the population structure of humpback whales across 
the North Pacific and the world's largest and most comprehensive 
research project ever conducted on any whale species.
    Sanctuaries and Public Access--Sanctuaries also support tourism and 
offer world-class outdoor recreation experiences for all ages. An 
estimated 42 million people visit sanctuaries each year. The majority 
of national marine sanctuaries' waters are open to compatible 
recreational activities which also allows for considerable benefits to 
local economies. To promote sustainable tourism in America's 
sanctuaries, every year, sanctuaries host ``Get into Your Sanctuary'' 
celebrations. These events raise awareness about the value of our 
sanctuaries as iconic destinations for responsible recreation through a 
series of special activities.
    Over half (58 percent) of visitors to Alpena, Michigan come to 
visit Thunder Bay National Marine Sanctuary, which is the region's most 
popular attraction, boasting nearly 100,000 visitors per year. 
Sanctuary visitors can enjoy diving, glass-bottom boat tours, kayaking, 
snorkeling, fishing, and exploring the Great Lakes Maritime Heritage 
Center. The Great Lakes Maritime Heritage Center is a visitor center 
for the Thunder Bay National Marine Sanctuary, featuring exciting 
exhibits for all ages. The ``Exploring the Shipwreck Century'' exhibit 
is located in the center's main hall and includes a full-size replica 
wooden Great Lakes schooner and shipwreck where visitors can walk the 
decks, feel a Great Lakes storm, and touch the massive timbers of the 
boat resting on the lake bottom without getting in the water.
    The whale watching industry in the Hawaiian Islands Humpback Whale 
National Marine Sanctuary contributes up to $11 million in total 
revenue annually, to the adjacent communities, with a total economic 
impact of nearly $74 million per year. Whale watching by boat and from 
the shores is a major activity in the sanctuary, but the destination 
also encourages exploring the resident seals, sea turtles, dolphins, 
fish, invertebrates and birds. Three times a year, more than 2,000 
volunteers, including many ecotourists, join in the Ocean Count program 
by monitoring, counting, and documenting behavior of humpbacks 
throughout Hawai'i. These efforts improve habitats, raise ocean 
awareness, and contribute significantly to the state's economy.
    Sport fishing, shellfish-gathering, hiking, camping, surfing, 
diving, kayaking, tide-pooling, beachcombing, and wildlife exploration 
attract 3 million people to Olympic Coast National Marine Sanctuary 
each year. Recent estimates indicate that $101.6 million was spent on 
recreation in the sanctuary. This spending generated, with multiplier 
impacts, $128.2 million in output, $78 million in value-added (gross 
regional product), and $46.1 million in income, which supported 1,192 
jobs.
    Known as the ``Serengeti of the Sea'', Monterey Bay National Marine 
Sanctuary is home to 34 species of marine mammals, great white sharks, 
four turtle species, 180 species of birds, 525 species of fishes, 1300 
reported shipwrecks, and more than 700 prehistoric sites, making 
tourism and recreation opportunities such as whale watching, diving, 
boating, kayaking, fishing, tide-pooling and beach exploration endless. 
The Sanctuary's flagship visitor facility, the Santa Cruz Exploration 
Center, is also a valuable educational hub for residents and tourists, 
playing a critical role in community efforts to revitalize Santa Cruz.
    Cordell Bank National Marine Sanctuary's sustainable tourism 
practices, including diving, snorkeling, whale watching, kayaking, 
boating, sailing, and fishing, promote long-term conservation of its 
habitats and resources while enabling responsible, compatible human 
activities. From June to November, sanctuary visitors can see humpback 
and blue whales feeding relatively close to shore and, late summer into 
fall, head offshore for more seabird and marine mammal viewing 
opportunities. Seabirds, whales, and sea turtles travel across the 
Pacific basin to feed here. Albatross fly from Japan and Hawaii to feed 
before returning to their nests to feed their young.
    North America's only living coral barrier reef (the world's third 
largest) and one of the most popular diving destinations, Florida Keys 
National Marine Sanctuary supports the region's success in global 
tourism. Ocean-related activities connected to the Sanctuary bring the 
local economy more than $4.4 billion in annual revenue and over 70,000 
jobs. World-class diving, swimming, fishing, boating, and other sports 
draw visitors to the sanctuary. More than 72,000 people annually visit 
the sanctuary's Eco-Discovery Center, a 6,000-square-foot interactive 
learning experience for all ages.
    Sanctuaries and Fishing--For centuries, communities used marine 
protected areas to conserve both ecosystems and fisheries production. 
Marine protected areas provide a safe haven where fish can grow, 
reproduce, and spill over to surrounding areas; help rebuild fish 
stocks; maintain ecosystem health and diversity; and support 
livelihoods and communities. National marine sanctuaries are a type of 
marine protected area that focus both on conserving resources while 
balancing sustainable activities, such as commercial and recreational 
fishing, for future generations. Sanctuaries encompass some of the most 
productive fishing grounds in America's waters. Approximately 98 
percent of sanctuary waters allow some forms of fishing.
    The Magnuson-Stevens Fishery Conservation and Management Act (MSA) 
and the National Marine Sanctuaries Act (NMSA) both provide critical 
statutory authorities for marine resource management. The statutes 
provide tools that can be used exclusively, or in combination with each 
other, for resource conservation. The MSA's primary purpose is to 
conserve and manage fish stocks in the Exclusive Economic Zone to end 
and prevent overfishing in federally-managed fisheries and actively 
rebuild stocks. The NMSA primary purpose is to provide long-term 
conservation of nationally significant areas designated as national 
marine sanctuaries.
    The NMSA provides authority for NOAA to issue regulations in order 
to meet the resource conservation goals of a sanctuary. This includes 
regulations for certain fishing activities if determined necessary to 
conserve sanctuary resources or qualities. Sanctuaries are place-based, 
and the NMSA focuses on ecosystem protection including protection of 
biological communities and habitats. Resource-specific legislation such 
as MSA cannot in all cases provide a comprehensive and coordinated 
approach for the conservation and management of these special areas. 
For over 40 years, the two statutes working together have provided a 
framework for resource conservation and management.
    Each sanctuary working with a variety of local stakeholders, 
including the Sanctuary Advisory Council and Fishery Management 
Council, evaluates on a case-by-case basis which tool is most 
appropriate. NMSA requires NOAA to provide the relevant fishery 
management councils the opportunity to prepare draft sanctuary fishing 
regulations. One example is krill management in California. Three 
national marine sanctuaries in California went through a joint 
management plan review process. The process identified krill harvesting 
as a significant issue because of its importance as a forage species 
throughout the Pacific coastal region. Through discussion with the 
Pacific Fishery Management Council (PFMC), the sanctuaries reached a 
mutually-agreeable solution that PFMC would recommend a prohibition on 
the take of krill under the Magnuson-Stevens Act.
    Sanctuaries partner with commercial and recreational fishermen, 
businesses, charters, and education partners to promote sustainable 
fishing practices; maintain fishing cultures in sanctuaries; develop 
tools for fisheries management; connect families and youth to our 
ocean, coasts, and Great Lakes through the sport of recreational 
saltwater fishing; and foster a sense of stewardship and responsibility 
for America's great outdoors. One example is the Blue Star Angler 
program in development to engage recreational fishing charters in the 
Florida Keys. The Foundation, Florida Keys National Marine Sanctuary 
staff, and the Sanctuary Advisory Council are working with charter 
fishing captains and guides to develop a voluntary education and 
recognition program to encourage businesses to educate their customers 
to conserve the Florida Keys ecosystem. The program, set to officially 
launch in 2018, is being adapted from the Blue Star program for diving 
and boating businesses but is being tailored to meet the needs and 
business practices unique to the recreational fishing sector.
    Research in sanctuaries can provide valuable information on impacts 
of activities, recovery and resilience of stocks to changing ocean 
conditions, and opportunities for collaborative research with 
fishermen, the fishing industry, and other partners. The National 
Marine Sanctuary System supports tagging and tracking research on 
commercially and recreationally important fish species, studying areas 
of importance during critical life stages such as spawning 
aggregations, nurseries, and habitats, investing in long-term 
monitoring, and incorporating traditional knowledge and traditions in 
management and conservation.
    Sanctuaries and Maritime Heritage--National marine sanctuaries tell 
the story of our Nation's maritime heritage, from sea to shining sea. 
Our blue highways connect countries and coastal communities, and allow 
us to transport goods that drive our economies. Sanctuaries safeguard 
the final resting grounds of historic wrecks, prehistoric 
archaeological sites, and other cultural artifacts. They honor and 
celebrate the history, contributions and sacrifices of our ancestors. 
And, they enable Americans to connect and learn from our shared 
maritime past as we look for future opportunities.
    Congress created the first marine sanctuary to protect the wreckage 
of the famed Civil War ironclad USS Monitor. When the remains of two 
unknown sailors were exhumed from the recovered USS Monitor turret, 
Monitor sanctuary staff, the Navy, the National Marine Sanctuary 
Foundation, and other partners utilized 3D facial reconstruction 
technology to identify the sailors, track down the descendants of these 
and other Monitor soldiers, and arrange a proper military burial at 
Arlington National Cemetery to pay respect to the sailors, commemorate 
their service to their country, and acknowledge their role in American 
history.
    Ninety-five years ago, the 56 brave crew members of the USS 
Conestoga gave their lives in service for their country when this U.S. 
Navy tug sank. Presumed lost off the coast of Baja California or close 
to Hawaii, in 2014, the NOAA Office of National Marine Sanctuaries 
Maritime Heritage Program found the shipwreck in what is now Greater 
Farallones National Marine Sanctuary. The discovery provided closure 
for families of the Conestoga's crew who kept the story alive for 
future generations.
    Historical research indicates that more than 200 shipwrecks lie in 
and around Thunder Bay National Marine Sanctuary. To date, more than 50 
shipwrecks have been discovered within the sanctuary and an additional 
30 wrecks have been located outside of the sanctuary boundaries. 
Although the sheer number of shipwrecks is impressive, it is the range 
of vessel types located in the sanctuary that makes the collection 
nationally significant.
    Sanctuaries and Research--National marine and Great Lakes 
sanctuaries' impact extends far beyond their boundaries. Sanctuaries 
are vital to understanding how climate change and ocean acidification 
are impacting our waters. Through long-term monitoring and research at 
these sites, we can enhance our understanding of natural and historical 
resources and how they are changing. They also provide an early warning 
capability to detect changes to ecosystem processes and conditions. For 
example, in July 2016, divers were stunned to find green, hazy water, 
huge patches of ugly white mats coating corals and sponges, and dead 
animals littering the bottom in the Flower Garden Banks National Marine 
Sanctuary in the Gulf of Mexico, a reef system once considered one of 
the healthiest reefs in the region. These reefs are home to many 
species of recreationally and commercially important fish and serve as 
stopover/resting spots for migratory species travelling across the Gulf 
of Mexico and wider Caribbean. Because of monitoring within the 
sanctuary, NOAA scientists and university partners could assess the 
sources of the mass die off, determine impacts to the larger 
environment, and find solutions for improving the reef's condition.
    Exploration and mapping expeditions in sanctuaries also hold 
enormous potential for the discovery of new species, including some 
found nowhere else on earth. Sanctuaries are ideal places for 
scientists, students, and the public to study and explore marine 
habitats in never-before-possible ways through innovations like 
Remotely Operated Vehicles (ROVs), underwater imaging, mapping, and 
data collection. These technologies are leading to better understanding 
of the ocean, making virtual visits a reality, and exploring more 
effective tactics to ensure its sustainability. For example, in 2016, 
the cartoon-like ``googly eyed, stubby squid'' that captured the 
public's hearts and went viral on social media was observed at a depth 
of 900 meters (2,950 feet) by the Nautilus Live team as part of a four-
month Ocean Exploration Trust mapping expedition in partnership with 
Channel Islands National Marine Sanctuary.
    Sanctuaries and Volunteerism--National marine sanctuaries are the 
blue backyards for thousands of citizens and dedicated volunteers. 
Volunteers are the heart and soul of the national marine sanctuaries; 
they represent the best of America. Thousands of volunteers devote 
their time, effort, and dedication to conserve sanctuaries for future 
generations. Sanctuary Volunteer Programs are nationally recognized and 
awarded for their work increasing awareness, engaging the community, 
promoting stewardship, and providing critical information and support 
for science, research, education, and management. In 2011, the Channel 
Islands Naturalist Corps received the ``Take Pride in America 
Outstanding Federal Volunteer Program Award''. And, in 2012, Hawaiian 
Islands Humpback Whale National Marine Sanctuary's Ocean Count Program 
received the ``Take Pride in America Award.'' In 2016, volunteers 
contributed more than 137,000 hours of their service at sanctuaries 
(the equivalent of $3.23 million of in-kind support). In 2016, almost 
9,000 volunteers supported national marine sanctuary citizen science 
efforts helping to answer real-world scientific questions.
Sanctuary Nominations and Designations
    Ken Burns called the national parks ``America's Best Idea'' because 
they are the story of people, Americans from all walks of life devoted 
to protecting lands they love. The same is true for our national marine 
sanctuaries, which are a uniquely American idea. They are the story of 
people and communities dedicated to conserving special places in our 
ocean and Great Lakes for both current and future generations. 
Sanctuaries capture the spirit of communities through participatory 
conservation. Thousands of volunteers enthusiastically donate their 
time to aid in conservation and education, scientists study these 
living laboratories to unlock mysteries, and local citizens serve on 
advisory councils that inform the management of our public waters for 
all Americans.
    To create a national marine sanctuary, passionate citizens can 
explore two different approaches to designate a new sanctuary--through 
Congress or the Executive Branch. Communities can advocate to their 
Members of Congress to pass legislation to create a national marine 
sanctuary that is later signed into law by the President. Laws 
established Florida Keys, Stellwagen Bank, and Hawaiian Islands 
Humpback Whale national marine sanctuaries. Communities and NOAA can 
also nominate an area to become a new sanctuary.
    Communities nominate their most treasured places in our marine and 
Great Lakes waters for consideration as national marine sanctuaries. 
Communities submit a proposal to the Administration through NOAA's 
sanctuary nomination process. NOAA's Office of National Marine 
Sanctuaries then reviews these community-based nominations to ensure 
they have diverse support, meet criteria of national significance, and 
consider management considerations and other factors. After NOAA 
accepts the candidate site then it may be considered for potential 
designation.
    Sanctuary designation is a separate public process that, by law, is 
highly public and participatory, and often takes several years to 
complete. It emphasizes community participation and engagement to 
ensure the national marine sanctuary considers the needs of interested 
communities. The designation process includes public meetings and 
comment periods, and consultation to inform NOAA's development of the 
management plans and sanctuary regulations. Nominations can remain in 
the inventory for up to five years before they are reviewed and 
updated.
    Currently, there are eight nominations in the inventory: Mallows 
Bay--Potomac River (MD); Lake Michigan (WI); Hudson Canyon (NY); St. 
George Unangan Heritage (AK); Lake Erie Quadrangle (PA); Chumash 
Heritage--second submission (CA); Lake Ontario (NY); and Mariana Trench 
(CNMI). One nomination is currently under review by NOAA for listing on 
the inventory: Southern California Offshore Banks (CA). When a 
nomination does not meet criteria during the NOAA review, the agency 
can decline the nomination. To date, five nominations have been 
declined or withdrawn.
    Two sites in the inventory--Mallows Bay-Potomac River (MD) and 
Wisconsin-Lake Michigan (WI)--are under consideration for designation. 
For the first time in over 16 years, the Nation could add new 
sanctuaries to the System. The National Marine Sanctuary Foundation 
strongly urges NOAA to designate these two sites as sanctuaries.

  <bullet> Mallows Bay-Potomac River: Just 40 miles south of the 
        Nation's capital, Mallows Bay-Potomac River is most renowned 
        for the remains of more than 100 wooden steamships, known as 
        the ``Ghost Fleet,'' which were built for the U.S. Emergency 
        Fleet between 1917-1919 as part of America's engagement in 
        World War I and are listed on the National Register of Historic 
        Places. A Mallows Bay-Potomac River National Marine Sanctuary 
        would preserve these important pieces of American history; 
        enhance public access, education and research; and create 
        business and job opportunities from tourism and outdoor 
        recreation.

  <bullet> Wisconsin-Lake Michigan: For centuries, the icy cold waters 
        of Lake Michigan served as a treacherous gateway for 
        communities, commerce, and trade that drove the prosperity and 
        expansion of our Nation. Wisconsin's maritime heritage runs 
        deep with more individually listed shipwrecks on the National 
        Register of Historic Places than any other state. These 
        shipwrecks and cultural artifacts are important pieces of 
        American history and represent the tenacity and entrepreneurial 
        spirit of generations of Americans. The Wisconsin-Lake Michigan 
        Sanctuary would support research and exploration to connect 
        maritime museums, state and local parks, and school districts 
        to these wonders and to the Great Lakes history while advancing 
        STEM education to promote job skills and opportunities for the 
        next generation.

    Once designated, marine sanctuaries are managed through an 
extensive public engagement process with local citizen participation. 
At each sanctuary, NOAA establishes local offices with staff who live 
in the community. Each sanctuary develops management plans, providing 
for the specific needs and circumstances of the site and community. The 
Act also calls for the establishment of community-based National Marine 
Sanctuary Advisory Councils, comprised of diverse stakeholders who 
provide advice and recommendations to the sanctuary's superintendent on 
issues including management, science, service, and stewardship. More 
than 440 sanctuary advisory council members represent stakeholders 
across these communities to provide advice and recommendations directly 
to sanctuary managers.
Conclusion
    Our national marine sanctuaries are national treasures. The 
National Marine Sanctuary Foundation joined by our national network of 
chapter and friends groups urge Congress to strongly support the 
National Marine Sanctuary System and the community-driven process to 
both expand existing sanctuaries and to conserve more nationally 
significant areas of America's ocean and Great Lakes for future 
generations of Americans. Investments in these areas support local 
economies and jobs in a diversity of sectors from education to outdoor 
recreation to fishing.
    Thank you for this opportunity to provide written testimony to the 
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard.
                                 ______
                                 
Stephen D. Kroll
Rogers City, MI

Senator Gary Peters
Washington, DC

Dear Senator Peters;

    This letter is in regard to Executive Order 13795, Section 4(b)--
America First Offshore Energy, and the hearing on June 27, 2017.
    The first point I wish to make is that the Sanctuaries, wether 
created or expanded, only happen at the re quest of the people who live 
and work in the area. The Sanctuaries program is not a top down but a 
bottom up program which is designed by the collective concerns that the 
people of the affected area feel are worth preserving for the common 
good. To even consider repealing what the citizens of these areas have 
long worked for goes against what already makes ``America Great NOW''. 
I fail to understand how ``conservatives'' think that exploitation of 
resources is going to ``Make America Great Again'' if we have nothing 
left. These ``special places'' are a very small percent of the area we 
have and to not protect them, and hopefully more of them, for future 
generations seems very selfish for any short term gain.
    Please note that there are two types of Sanctuaries, some protect 
cultural heritage and some that protect natural environment. The 
Sanctuaries that protect natural environment are trying to sustain that 
environment for long term use. So the protection is there for us to 
hopefully gain the knowledge as to how to maintain productive use of 
not just these areas but to develop and apply a ``sustainable use'' 
concept to the oceans. Cultural heritage sanctuaries are protecting the 
Maritime Heritage of our Nation. These are areas which happen to have 
shipwrecks of significant historical value that without protection 
would be exploited.
    There are many values that the Sanctuaries Program has but to me it 
is that it is truly America at its best, government for the people and 
``BY'' the people. In doing so it brings people in an area to take 
ownership and work together for a common good. There are many other co-
operative gains which come out of this which create a much better 
place, with an improved quality of life.
    As a citizen who is actively involved with the Sanctuaries program, 
and in particular one who lives on the shore of the Thunder Bay 
National Marine Sanctuary, I hope that our expansion is not repealed. 
There were NEVER any funds added for the expansion to occur but because 
of it we have been able to apply and obtain grants which have funded 
many of our programs which affect what is our expanded three county 
area. There has been a steady increase in our area of new businesses 
coming into the area and those which are here being more stable since 
the sanctuary being established. Even where I live, 40 miles north of 
Alpena in the expanded area, empty store front buildings are being 
occupied with new businesses and we are seeing growth again. Reducing 
our size will effect greatly our ability serve the new 3 county area 
with educational programs and coordinate co-operative use of resources.
            I thank you for representing my concerns,
                                           Stephen D. Kroll
                                 ______
                                 
Margaret (P.J.) Webb
Public Interest Attorney at Law
Cambria, CA

Senator Dan Sullivan,
Chair,
Senate Commerce Committee's Subcommittee on Oceans, Atmosphere, 
            Fisheries and Coast Guard,
U.S. Senate,
Washington, DC.

Dear Senator Sullivan and Committee Members,

    Sanctuaries are designated in recognition of nationally significant 
oceanographic, geological, biological and archaeological 
characteristics. These are very special places. Given the threats to 
our coasts and oceans from offshore oil and gas development, urban and 
rural pollution, global climate change and so much more, we must 
strengthen and keep intact our national marine sanctuaries. They are a 
vital part of building resilience for our planet.
    National marine sanctuaries protect natural resources while 
encouraging responsible public access to our vital ocean. Protecting 
this habitat preserves the beauty of nature and our local economies. 
Sanctuaries attract funding for science, research opportunities and 
educational institutions. Sanctuary outreach and education focuses on 
stewardship of the land, the watersheds, the intertidal, the coast, the 
ocean and our planet. Sanctuaries increase the collaboration of 
government agencies and non-governmental organizations leveraging 
diminishing funding into more efficient outcomes. The extensive 
volunteer support expands the natural resource protection and forges 
strong bonds between sanctuaries and their communities. In my region, 
there is considerable public and business support for the Monterey Bay 
National Marine Sanctuary because it has proven to be a good partner 
for protecting the beauty of our coast while bringing so many visitors 
here to witness the grandeur of nature.
    Beyond the socioeconomic and ecological benefits, the advantages of 
the national marine sanctuary system are numerous. The National Marine 
Sanctuaries Act requires that communities drive the process of 
designating a sanctuary. I have participated in this public input for 
over 10 years. I find that intensive public participation is a vital 
part of ongoing sanctuary management. There is transparency in decision 
making; adaptive and accountable management along with research, 
education and enforcement responsibilities. National marine sanctuaries 
encourage public access and usage by both commercial and recreational 
interests while protecting the resources that all benefit from.
            Sincerely,
                                      Margaret (P.J.) Webb,
                                                   Attorney at Law.
                                 ______
                                 
                                     Inland Ocean Coalition
                                                      June 23, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

    Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
members of the Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard,

    On behalf of the Inland Ocean Coalition and the seven Inland Ocean 
chapters throughout North America, we would like to emphasize that we 
greatly value the National Marine Sanctuary Program. Sanctuaries are 
for all Americans and inland communities care deeply about these 
national treasures.
    We live in land locked states, and going to the coast is a big deal 
for us. When we travel to the ocean, we are often looking for regions 
that have special characteristics--areas that have been conserved for 
recreation, historical, and aesthetic qualities. Sanctuaries are 
attractive in that they draw many people in for their beauty, 
biodiversity, and accessibility. These are major economic engines that 
attract visitors from SCUBA divers to fishermen to families looking for 
peace and relaxation.
    Sanctuaries do not just pop up, they are about community 
engagement. The open public process and extensive community 
participation is central to how sanctuaries operate and this process 
allows and invites people who do not live near a sanctuary to 
participate. People care deeply about these protected and managed areas 
and want to see them properly cared for. This open process encourages 
us to have a voice and share how important sanctuaries are for current 
and future generations.
            Best,
                                   Vicki Nichols Goldstein,
                                              Founder and Director,
                                                Inland Ocean Coalition.
                                 ______
                                 
                                        O'Neill Sea Odyssey
                                      Santa Cruz, CA, June 23, 2017

Senator Dan Sullivan,
Chair,
Senate Commerce Committee's Subcommittee on Oceans, Atmosphere, 
            Fisheries, and Coast Guard,
U.S. Senate,
Washington, DC.

Dear Senator Sullivan and Committee Members:

    On behalf of O'Neill Sea Odyssey, a non-profit organization that 
provides a free, ocean-going hands-on science program on Monterey Bay, 
I am writing in support of the national marine sanctuaries that protect 
15,500 square miles, or 5 percent, of America's west coast as well as 
other U.S. waters and the Great Lakes, including areas that have been 
added to this designation in the past ten years.
    The west coast national marine sanctuaries, from south to north, 
include Channel Islands surrounding its namesake island chain off Santa 
Barbara, Monterey Bay which extends from northern San Luis Obispo 
County north to San Francisco Bay, Cordell Bank, then Greater 
Farallones Sanctuary that extends up past the southern part of 
Mendocino County, and finally, Olympic Coast off Washington State. 
Channel Islands is the oldest west coast site, having been established 
in 1980. Greater Farallones--formerly known as Gulf of the Farallones 
in tribute to the islands it surrounded--and Cordell Bank Sanctuaries 
were expanded in size in 2015.
    An outcome of the 1969 oil spill during an offshore drilling 
operation off Santa Barbara, California was the Marine Protection, 
Research, and Sanctuaries Act, approved by Congress and signed by 
President Richard Nixon in 1972. It authorized the establishment of 
marine sanctuaries and today, 13 of them located in the ocean and Great 
Lakes are managed for their ecological or cultural values and to 
promote resource protection, research and education.
    Besides rules such as a ban on oil and gas drilling, they also, 
among other things, protect marine heritage sites such as shipwrecks. 
The National Oceanic and Atmospheric Administration's National Ocean 
Service oversees the sanctuaries, along with two national marine 
monuments, with varying levels of protection.
    National marine sanctuaries protect habitats and the plants and 
animals they host alongside uses such as fishing and recreation. While 
that sounds contradictory, it actually does work, as is the case on 
California's central coast where Monterey Bay National Marine Sanctuary 
prevents offshore oil development, but whose waters are also a host a 
power generating plant at Moss Landing, a big wave contest at the world 
famous Maverick's reef near Half Moon Bay and a fishing industry while 
also promoting marine research and education.
    I strongly encourage continued sanctuary management of these areas. 
Thank you for considering our views.
            Sincerely,
                                               Dan Haifley,
                                                Executive Director.
                                 ______
                                 
                       Sheboygan County Chamber of Commerce
                                                      June 23, 2017
Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Senate Commerce Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard,

    I am writing on behalf of the Sheboygan County Chamber of Commerce 
of Wisconsin. We are pleased to support the National Oceanic and 
Atmospheric Administration's designation of the Wisconsin-Lake Michigan 
National Marine Sanctuary. As proposed, the sanctuary would protect and 
interpret maritime heritage resources, including 37 historic shipwrecks 
in a 1,075-square-mile area off the coast of Ozaukee, Sheboygan and 
Manitowoc counties. The designation proposal mirrors the successful 
sanctuary nomination submitted in 2014 by Governor Walker on behalf of 
the State of Wisconsin and the coastal communities in the mid Lake 
Michigan region.
    This is a valuable and timely project that will reap rewards for 
generations to come. A sanctuary on this nationally recognized 
shoreline will add to Wisconsin's own efforts to preserve and protect 
the historic treasures of this highly valued body of water. In addition 
it will provide significant educational opportunities for residents and 
students throughout the Midwest and attract thousands of visitors 
interested in experiencing this history up close and personal. The 
spotlight this will put on this unmatched resource will ensure the 
largest number of people gain a greater understanding and commitment to 
this precious ecosystem we all share and depend upon.
    We also recognize the potential creation of businesses and jobs 
that will be a significant economic plus to our region. Perhaps most 
importantly, the collaboration between this diverse but now-connected 
string of coastal cities and towns that was sparked by this new NOAA 
designation model, promises even greater benefits moving forward.
    We fully support the designation of the Wisconsin-Lake Michigan 
National Marine Sanctuary--the first in Lake Michigan and in Wisconsin. 
It will be a proud accomplishment that will bring benefits to this 
lakeshore region, the State of Wisconsin and the United States of 
America.
            Yours Truly
                                               Betsy Alles,
                                                Executive Director.
                                 ______
                                 
                              The Mariner's Museum and Park
                                    Newport News, VA, June 23, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
members of the Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard,

    I write today to express my strong support for the National Marine 
Sanctuary Program [NMSP] and for continued funding and expansion of the 
Monitor National Marine Sanctuary [the Monitor Sanctuary]. I have the 
distinct honor of serving and leading The Mariners' Museum, one of only 
two museums that the U.S. Congress first designated as ``America's 
National Maritime Museum'' in the FY 1999 NDAA.\1\ The Museum's longest 
running and most important programmatic partnership is our work with 
NOAA to conserve over 200 tons of USS Monitor artifacts in the world's 
largest conservation effort of its kind. Every year, tens of thousands 
of visitors from across the Nation and the world visit the Museum to 
see the USS Monitor and to connect with its powerful stories.
---------------------------------------------------------------------------
    \1\ The U.S. Congress renewed the designation on December 19,2014 
at 54 U.S.C. 308705.
---------------------------------------------------------------------------
    Every single day, my team and I labor to advance a critically 
important facet of the NMSP's mission: the preservation of our Nation's 
incredibly rich maritime cultural heritage. Each year, Tens of millions 
of our Nation's proud citizens visit the more than two dozen 
battlefields and historic sites that preserve and commemorate our most 
hallowed grounds. The preservation of these National military parks and 
landmarks--the actual physical spaces and the objects contained within 
them--plays a key role in sustaining the social capital that, in turn, 
sustains us as a nation: reminding our citizens, no matter their 
individual differences, of their shared history as a people. In that 
same way, the NMSP preserves similar special places in our Oceans. 
Since 1975, the NMSP has protected the wreck site of the Civil War 
ironclad U.S.S. Monitor off the coast of North Carolina, WWII sites in 
the Pacific at Midway Island, and dozens of other nationally 
significant shipwrecks in our Nation's waters.
    As you know, the NMSP is the broadest governmental effort to 
preserve such spaces, objects, and heritage both at sea and in our 
national waterways. Ours is a maritime nation as much as anything else, 
and many of our shared history's greatest achievements in exploration, 
commerce, and defense occurred on the water. Our Museum is uniquely 
situated--not far from Jamestown Settlement (exploration). sharing 
Hampton Roads with the world's greatest natural deep water port 
(commerce) and the world's largest complex naval installations 
(defense)--to recognize the value of the work of the Monitor Sanctuary, 
Thunder Bay National Marine Sanctuary, and the entire National Marine 
Sanctuary system to preserve our Nation's maritime cultural heritage.
    It is perhaps best to make the case for these sanctuaries by 
considering our Nation without them. We, as a government and a people, 
could not and would not abandon Gettysburg or Yorktown or any similar 
piece of land, allowing curiosity-seekers with metal detectors to 
scavenge the objects that hold the stories of the sacrifice that 
occurred there, or the natural elements to erase the structures and 
landscape that mark those sacred places. We would not allow these 
moments in our shared history to pass forever from our collective 
consciousness. Simply put, the NMSP is our Nation's commitment to the 
moral imperative that we preserve the space, objects, and heritage made 
sacred by the lives of American merchant mariners, sailors, watermen, 
travelers, voyagers, and scores of others on the water.
    The work of conserving artifacts from the USS Monitor will continue 
for several more years. As the artifacts complete their extensive 
treatment, we display them in the award winning galleries of the 
Museum's USS Monitor Center. The USS Monitor Center opened in 2007 and 
was the result of a decades-long partnership with NOAA and the NMSP. 
Just a couple of weeks ago, we were honored to host more than a dozen 
World War II veterans of the USS Indiana (service in the Pacific 
Theater) for a tour of The Mariners' Museum (see attached photo). The 
galleries they most wanted to tour were the USS Monitor galleries. 
First, virtually the entire surface and submariner Navy traces its 
legacy to the USS Monitor's transformation of naval warfare. Second, 
and most importantly, visitors to the Museum begin the USS Monitor 
story at a case that honors the two sailors whose remains were 
recovered in the turret. The USS Monitor story is a story about the 
grit and sacrifice of people. Hearing the stories of sailors, our USS 
Indiana vets that visited a couple of weeks ago saw their own stories 
in the stories of ``The Monitor Boys,'' and several expressed their 
gratitude that our Nation had memorialized the lost Monitor sailors.
    Over sixty percent of The Mariners' Museum visitors report that the 
USS Monitor Center is their favorite exhibit. A similar number tell us 
that they come to the Museum specifically to see the USS Monitor. We 
conserve the USS Monitor artifacts in our Batten Conservation Complex, 
which was designed to allow visitors to see the active conservation 
treatment in progress. Consistently, the opportunity to see the ongoing 
conservation of the USS Monitor turret, the Dahlgren guns, and the 
steam engine rates as the most impactful part of the USS Monitor 
experience in our galleries. We have built a program for school 
children called ``Clash of Armor'' that teaches elementary 
schoolchildren about the Battle of Hampton Roads between the USS 
Monitor and the CSS Virginia. That program is one of our top on-site, 
in-person school programs. Despite the fact that history--and 
especially Civil War history--comprises less and less of current grade 
school curricula, the story of the USS Monitor and its crew continues 
to resonate.
    A significant reason for the continuing importance and relevance of 
the USS Monitor story is the many, many components of its story. Most 
of our visitors and students are surprised to learn that seven African 
Americans served on the USS Monitor crew, that the USS Monitor was 
built in only 100 days in a feat of industrial innovation, or that the 
science and technology built into the USS Monitor continues to 
influence naval architecture and engineering today. For example, just 
last year, the American Society of Mechanical Engineers named the 
Worthington Pump a historic landmark in recognition of its influence on 
the field of mechanical engineering. Additionally, both the History 
Channel and the Travel Channel have, within the last nine months, 
filmed episodes on the USS Monitor for two popular series airing on 
their respective channels.
    Last year, following eight years of research, NOAA began a formal 
review of the current boundaries at the MNMS to consider an expansion 
to protect the gravesites of nearly 1,600 men lost off the North 
Carolina coast during WWII's Battle of The Atlantic. This expansion 
would protect nearly 60 vessels in the only WWII battlefield in 
American waters. I urge you to support this effort as The Mariners'' 
Museum will. Earlier this year, the Monitor Sanctuary team presented a 
program to the largest Museum audience that we have had in recent 
memory. Several hundred Museum guests heard about the team's work on 
the Battle of the Atlantic--specifically, the stunning imagery of one 
of the most unique wrecks in history: the German U-576 lying on the 
ocean floor just 240 yards from its prey, the SS Bluefields. The 
presentation forecast just how powerful the expansion of the Monitor 
Sanctuary could be. Throughout, the Monitor Sanctuary team told stories 
of the U.S. merchant mariners who had literally dozens of ships blown 
out from under them in a matter of months. By protecting and 
documenting the Battle of the Atlantic wrecks, we have the opportunity 
to honor the nearly-forgotten sacrifice of merchant mariners and other 
sailors during our Nation's ascension to a global leadership role. 
Allowing these mariners' service and stories to fade is unacceptable.
    In summary, the NMSP as a whole and the Monitor Sanctuary in 
particular are providing an invaluable service to our Nation. We live 
in a time where we are all painfully aware of the forces that pull our 
communities--our nation--apart. Our shared maritime heritage--our 
connection to the water--is a powerful force that binds us together. I 
urge you to make NMSP funding and the expansion of the Monitor 
Sanctuary a priority.
            Sincerely,
                                       Howard H. Hoege III,
                                                 President and CEO.
                                 ______
                                 
                                                      June 23, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
members of the Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard,

    As the 2017 Volunteer of the Year honored by the National Marine 
Sanctuary Foundation during Capitol Hill Ocean Week last week, I wish 
to share my understanding of the benefits of national marine 
sanctuaries for myself, my community, public access, science and 
economy from sanctuaries using my involvement with the Stellwagen Bank 
National Marine Sanctuary (SBNMS) in Cape Cod Bay, MA as
    an example. Since my retirement in 2013 I have volunteered at SBNMS 
as a member of the Sanctuary Advisory Council (SAC), a contributor to a 
research program involving satellite-based telemetry of a seabird 
(Great Shearwater) and a participant in a citizen science program that 
systematically surveys seabirds in the sanctuary 5-6 times a year. 
Prior to my retirement I was a seabird biologist from 1976-1983 both in 
the Atlantic and Pacific Oceans.
    Through my own prior research in this area and that with SBNMS 
since 2013 it is obvious to me that calanoid copeods and a forage fish 
called sand lance (Ammodytes dubius) form a core fabric of the food web 
for seabirds, whales, dolphins, seals and selected species of ground 
and mid-water fishes (which includes mackerel, cod and sea herring) in 
the southwest Gulf of Maine. A recent workshop (May 2017) was convened 
by the U.S. Fish and Wildlife Service at the Parker River National 
Wildlife Refuge in Newburyport, MA to gather academics, research 
groups, and government agencies to discuss available information on 
sand lance, detail existing research underway and by whom, and compile 
a publishable document on the importance and vulnerability of this 
forage fish in this marine community. To this end the New England 
Fisheries Council was strongly encouraged to pursue an ecosystem-based 
policy for their management of harvested groundfish and mid-water 
fisheries. The basis of this encouragement is that is necessary to 
factor in take/harvest for all marine predators (i.e., seabirds, 
whales, seals) when setting limits for commercial harvesting of 
specific fisheries, not just limits (i.e., takes) for commercial 
fishermen. None of this recognition and action would have been possible 
if were not for the SBNMS and their internal research program on sand 
lance and its connection to marine predators such as seabirds and 
marine mammals.
    The SAC at each national marine sanctuary provides representation 
for a most diverse group of stakeholders. It represents commercial 
interests (e.g., fishing, whale watching, diving, etc.), law 
enforcement, government agencies (state and federal) and research 
organizations. From my perspective as a seabird biologist and volunteer 
of the year, SBNMS represents an important marine area that requires 
the recognition and protection as afforded by its national marine 
sanctuary status. All interests have a collective reason to meet and 
discuss its health and future.
    SBNMS offers educational outreach to surrounding public schools and 
partners with other educational groups to reach and educate the public, 
in particular youth, about what is available to them in the sanctuary.
    SBNMS is diverse both economically and environmentally. The 
commercial shipping lanes that take cargo to and from Boston move 
through the sanctuary. In the past decade SBNMS was able to enable a 
change in the earlier configuration of the shipping lanes, which had 
been routed through the most heavily used southern part of Stellwagen 
Bank by endangered Right and Humpback Whales, to an area that mostly 
avoided these critical feeding areas without undo hardship to 
commercial shipping. This change provided an immense environmental 
benefit in that it reduced the number of whales struck by cargo 
vessels.
    During my trips on the citizen science seabird surveys, I have met 
a diverse background of volunteers. These volunteers included 
professional engineers, scientists, educators, students and bird 
watchers who wanted an opportunity to have an experience on the ocean, 
learn new skills, or create new networking contacts to get a job or 
start a career. In all cases, they took personal time off from their 
existing work in order to participate.
    There is a growing community of people from both sides of the 
Atlantic Ocean that come to Massachusetts to see marine mammals 
(whales, dolphins and seals) and seabirds. Commercial ventures for 
whale-watching and sea birders exist in coastal towns from Boston to 
Provincetown. These boat operators primarily go to SBNMS. Recreational 
and charter fishing tours also go to SBNMS. These commercial 
enterprises advertise SBNMS in their marketing. The towns in which 
these enterprises operate benefit from dining and parking revenue.
    America's national marine sanctuaries, including my very own 
Stellwagen Bank in Massachusetts, are national treasures that protect 
natural, cultural and historic resources in the ocean and Great Lakes 
on behalf of the American people for current and future generations. I 
thank the subcommittee for the opportunity to provide this letter of 
support for our Nation's national marine sanctuaries.
            Sincerely,
                                              Kevin Powers,
                                                         Volunteer,
                             Stellwagen Bank National Marine Sanctuary.
                                 ______
                                 
                                            Visit Sheboygan
                                       Sheboygan, WI, June 23, 2017

Subcommittee on Marine Sanctuaries: Fisheries, Access, the Environment, 
            and 
            Maritime Heritage
c/o U.S. Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Honorable Subcommittee Members:

    I am writing to you to express my support for the current National 
Marine Sanctuary nomination and designation processes. Marine 
sanctuaries are robust drivers of economic activity, reaching far into 
the fabric of local communities with a positive impact on an area's 
socio-economic environment. As you may know, a freshwater National 
Marine Sanctuary is currently in the designation process, with 
boundaries spanning the shorelines of three Wisconsin counties: 
Ozaukee, Sheboygan, and Manitowoc. As a stakeholder in the marine 
sanctuary process, I have been researching the pros and cons of 
sanctuary designation to the local community. I have found the vast 
number of opportunities and benefits far exceed any possible negative 
impact, and impending the current designation process would hinder many 
future economic expansion plans now underway. For example, the 
Wisconsin State Department of Tourism currently released a report 
indicating that the economic impact of the tourism economy in our tri-
county area is more than $330 million. Analyzing the effect of a 
National Marine Sanctuary on available market share, the economic 
impact of tourism could increase by 92 percent, bringing the full 
economic impact to more than $650 million.
    Marine Sanctuaries are not just for divers, snorkelers, marine 
biologists, and scientists; they reach into all facets of a community 
including tourism, education, workforce development, economic 
development, and historic preservation. For example, impending National 
Marine Sanctuary designation has prompted plans for the construction of 
a new visitor in City of Sheboygan, Wisconsin. However, the new visitor 
will not just be a place to stop for options on dining, but it will 
feature hands-on interactive exhibits about historic shipwrecks that 
part of the area's rich maritime past. It will also feature an exhibit 
that outlines mankind's exploration progress from sea to space, along 
with robotics exhibits that mimic remote operated vehicle (ROV) 
exploration. There are plans for shipwreck boat tours, featuring 
submerged passenger hulls and cameras that allow residents and visitors 
a chance to explore Lake Michigan below the surface. There are also 
plans to host regional ROV competitions, which offer the next 
generation of scientists and engineers to show off their potential in 
invention and innovation.
    I realize it may not be intuitive to connect a National Marine 
Sanctuary to such far-reaching ideas, but please allow me to briefly 
explain how a marine sanctuary is interconnected to the well-being and 
economic welfare of a community. First in the area of tourism: As you 
know from your own experiences, tourists demand higher quality services 
than most people do in the course of their day-to-day lives. Quite 
simply, when we're on vacation, we splurge. The impact of tourist 
quality demand also means a higher quality of life for a destination's 
residents. Second in the areas of workforce develop and education: In 
particular, Sheboygan County depends on its largely privately-owned 
manufacturing economy that is in sync with its tourism economy as the 
heavy drivers of economic robustness.
    However, the area's manufacturing sector is currently facing a 
workforce shortage. Competing for talent is not an easy game; but one 
of the best resources of a future workforce is the current K-12 
population. Nevertheless, manufacturing depends on tech and robotic 
operations. Thus, it is crucial to inspire students to explore science, 
technology, mathematic, and engineering (STEM) fields in order to 
ensure a future sustainable workforce, and National Marine Sanctuaries 
are incubators of STEM education, not only on their own or through 
visitor centers, but in partnering with local schools and becoming an 
intricate part of local, regional, and national STEM projects and 
competitions. Finally, when recruiting workforce needs from other 
areas, potential recruits consider the quality of life, education, 
community services, and general landscape and offerings of an area 
before making a decision to move and join a new community. In the 
simplest of terms, people want to be where they have the best chance 
for prosperity, and a National Marine Sanctuary that raises the quality 
of life through tourism, education, and future development contributes 
greatly to that opportunity.
    On a larger, national scale, one might not think that a National 
Marine Sanctuary could have so much impact on a local community, but 
the impending sanctuary for our community is sparking new construction 
and infrastructure projects, expanded marketing projects, expanded 
school curriculum at the K-12 and college levels, new collaboration 
between tri-county governments and municipalities, as well as new 
strategies for workforce development. All of these projects and 
movements have two things in common: They spend and circulate money 
through the economy, and they create jobs.
    As the National Marine Sanctuary designation along the eastern 
shoreline of Wisconsin continues to move through its formal designation 
process, have no doubt that the community realizes how much of an asset 
the sanctuary will be to the area. We hope you can see the same 
opportunities that marine sanctuaries offer to the socio-economic 
status of the communities of which they are a part. If you would like 
to see firsthand how a National Marine Sanctuary can impact economic 
development, I invite you to visit Sheboygan, Wisconsin, and tour our 
coastline. Six hundred and fifty million dollars in visitor spending 
may not seem like much when compared to a national budget, but it 
provides tremendous economic benefit to our area.
    Thank you for your consideration.
            Sincerely,
                                      Amy L. Wilson, Ph.D.,
                                                      President/CEO
                                                  Visit Sheboygan, Inc.
                                 ______
                                 
                                                      June 25, 2017

TO: U.S. Senate Commerce Committee's Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard

FROM: Surfrider Foundation San Luis Obispo, California

    Our local Chapter and International Surfrider Foundation stand in 
strong support of all existing National Marine Sanctuaries as protected 
ocean habitats essential to the survival of diverse marine life, 
fishing resources, and recreational opportunities. National Marine 
Sanctuaries protect some of the most beautiful, sensitive, and 
endangered ocean environments and protect them from the threats of oil 
and gas development which pose severe environmental threats.
    We are also specifically in favor of the proposed Chumash Heritage 
National Marine Sanctuary off the San Luis Obispo coast which will 
connect the Channel Islands and Monterey NMS' to create one of the 
largest marine sanctuaries to protect one of the most sensitive and 
diverse marine environments on earth.
    We encourage you to stand strong against any threats to dismantle, 
reduce, or minimize existing and future National Marine Sanctuaries.
            Thank you for your consideration,
                                                Brad Snook,
                                                             Chair,
                                  Surfrider Foundation San Luis Obispo.
                                 ______
                                 
Karl Kempton
Oceano, CA
June 26, 2017

Senator Dan Sullivan,
Chair,
Senate Commerce Committee's Subcommittee on Oceans, Atmosphere, 
            Fisheries and Coast Guard,
U.S. Senate,
Washington, DC.

Dear Senator Sullivan and Committee Members,

    I have worked for ocean protection since 1990, first as an Energy 
Planner for San Luis Obispo County and then as an activist. The effort 
was and remains twofold: (1) stopping oil development in Federal waters 
off county waters, and (2) creating the National Marine Sanctuary 
between the Channel Islands National Marine Sanctuary and the Monterey 
Bay National Marine Sanctuary to fill the unprotected gap of a marine 
environment meeting the requirements of nationally significant 
oceanographic, geological, biological and archaeological 
characteristics.
    Sanctuaries are designated in recognition of nationally significant 
oceanographic, geological, biological and archaeological 
characteristics. These are very special places. Given the threats to 
our coasts and oceans from offshore oil and gas development, urban and 
rural pollution, global climate change and so much more, we must 
strengthen and keep intact our national marine sanctuaries. They are a 
vital part of building resilience for our planet.
    National marine sanctuaries protect natural resources while 
encouraging responsible public access to our vital ocean. Protecting 
this habitat preserves the beauty of nature and our local economies. 
Sanctuaries attract funding for science, research opportunities and 
educational institutions. Sanctuary outreach and education focuses on 
stewardship of the land, the watersheds, the intertidal, the coast, the 
ocean and our planet. Sanctuaries increase the collaboration of 
government agencies and non-governmental organizations leveraging 
diminishing funding into more efficient outcomes. The extensive 
volunteer support expands the natural resource protection and forges 
strong bonds between sanctuaries and their communities. In my region, 
there is considerable public and business support for the Monterey Bay 
National Marine Sanctuary because it has proven to be a good partner 
for protecting the beauty of our coast while bringing so many visitors 
here to witness the grandeur of nature.
    Beyond the socioeconomic and ecological benefits, the advantages of 
the national marine sanctuary system are numerous. The National Marine 
Sanctuaries Act requires that communities drive the process of 
designating a sanctuary. Intensive public participation is a vital part 
of ongoing sanctuary management. There is transparency in decision 
making; adaptive and accountable management along with research, 
education and enforcement responsibilities. National marine sanctuaries 
encourage public access and usage by both commercial and recreational 
interests while protecting the resources that all benefit from. There 
is tremendous support in our area for marine protection which includes 
support for a National Marine Sanctuary.
            Sincerely,
                                              Karl Kempton,
                                                Health Food Grower.
                                 ______
                                 
                      Port Washington Tourism Council, Inc.
                                 Port Washington, WI, June 26, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Senate Commerce Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard,

    Our marine sanctuaries are national treasures that protect natural, 
cultural and historic resources in the ocean and Great Lakes on behalf 
of the American people. Sanctuaries are home to millions of species, 
protect some of the world's oldest and largest corals, preserve more 
than 300 shipwrecks that are part of our Nation's maritime heritage, 
and promote public access for exploration and world-class outdoor 
recreation and enjoyment for future generations.
    Sanctuaries provide a science-based, bottom-up, community driven 
approach for conservation and stewardship while balancing multiple 
sustainable uses that benefit our communities and economy. Across all 
national marine sanctuaries, about $8 billion annually is generated in 
local, coastal economies from diverse activities like commercial 
fishing, research, education and recreation-tourist activities. Over 42 
million people visit sanctuaries each year. From restaurants and 
hotels, to aquariums and kayak operators, the success of many 
businesses, millions of dollars in sales and thousands of jobs, 
directly depend on thriving national marine sanctuaries.
    The Lake Michigan waters off the coast of Port Washington are part 
of a sanctuary that is currently in the designation process. Tourism is 
one of the largest drivers of economic development in our city. Our 
tourism is strongly based on its maritime heritage. With two 
lighthouses, and two museums featuring the stories of Lake Michigan, 
the creation of a National Marine Sanctuary right off of our shores 
will only enhance that.
    We urge you to continue your support of the National Marine 
Sanctuary program, and the current designation process.
                                                Kathy Tank,
                                                Executive Director.
                                 ______
                                 
                                       Manitowoc, WI, June 26, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Senate Commerce Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard,

    I am writing in support of the nomination to the National Oceanic 
and Atmospheric Administration (NOAA) for a national marine sanctuary 
in Wisconsin's Lake Michigan waters. As envisioned, the sanctuary would 
protect and interpret maritime heritage resources, including 33 known 
shipwrecks, in an 875-square-mile area off the coast of Ozaukee, 
Sheboygan and Manitowoc counties.
    A national marine sanctuary would build on the accomplishments by 
the State of Wisconsin in protecting Great Lakes shipwrecks and 
educating the public about Wisconsin's nationally significant 
shipwrecks. A sanctuary would provide important benefits to this area, 
including increased tourism and a wide variety of educational programs 
to share the history of Wisconsin's shipwrecks and maritime heritage 
with the public. It would be of great benefit to the State, local 
communities, and user groups to be part of the NOAA National Marine 
Sanctuary System.
    The creation of a sanctuary off Wisconsin's Lake Michigan Coast 
would add to our tourism product and give us new attractions to draw 
visitors to our destination. We are ready to assist in whatever way 
possible to move this project forward.
    The Manitowoc Area Visitor & Convention Bureau is a private non-
profit corporation designated with promoting the Manitowoc Area as a 
destination for leisure travel, meetings, sports tournaments, festivals 
and events.
            Sincerely,
                                                Jason Ring,
                                                         President,
                            Manitowoc Area Visitor & Convention Bureau.
                                 ______
                                 
            GREAT LAKES AND ST. LAWRENCE CITIES INITIATIVE 
        ALLIANCE DES VILLES DES GRANDS LACS ET DU SAINT-LAURENT
                          RESOLUTION 05--2017M
  RESOLUTION IN SUPPORT OF THE DESIGNATION OF THE NOAA WISCONSIN-LAKE 
                   MICHIGAN NATIONAL MARINE SANCTUARY
Submitted by: Cities of Manitowoc, Port Washington and Sheboygan
    WHEREAS, Wisconsin's Great Lakes contain some of the Nation's most 
important natural, cultural, and recreational resources; and

    WHEREAS, in 2014 Governor Walker submitted a successful sanctuary 
nomination to the National Oceanic and Atmospheric Administration 
(NOAA) on behalf of the State of Wisconsin and the coastal communities 
in the proposed sanctuary; and

    WHEREAS, in January 2017, based on the sanctuary nomination, NOAA 
proposed designation of the 1,075 square-mile Wisconsin-Lake Michigan 
National Marine Sanctuary which would protect 37 historic shipwrecks 
and related underwater heritage sites. Eighteen of the sites are listed 
on the National Register of Historic Places, and archival research 
indicates that as many as 80 shipwrecks are yet to be discovered; and

    WHEREAS, the State of Wisconsin and local communities have invested 
in documenting, preserving, and celebrating Wisconsin's rich maritime 
heritage;

    WHEREAS, NOAA's National Marine Sanctuary System was established in 
1972, and today the program serves as the trustee for a system of 13 
national marine sanctuaries and two national monuments encompassing 
more than 600,000 square miles of ocean and Great Lakes waters; and

    WHEREAS, national marine sanctuaries draw regional, national and 
international tourism, impact regional and local economies, and are 
featured and promoted in national magazines, journals, books, and 
films; and

    WHEREAS, national marine sanctuaries support a wide variety of 
educational programs to share the history of Great Lakes shipwrecks 
with the public and promote science, technology, engineering and 
mathematics (STEM); and

    WHEREAS, national marine sanctuaries protect nationally significant 
resources, such as Wisconsin's Great Lakes shipwrecks; and support 
research and documentation to better understand, protect, and increase 
public appreciation and access to the well-preserved shipwrecks; and

    WHEREAS, the proposed Wisconsin-Lake Michigan National Marine 
Sanctuary would leverage the investment made by the State and Mid-Lake 
Michigan harbor towns to enhance tourism as a key component of economic 
development in the State and this region; and

    WHEREAS, local resources and infrastructure may be used in 
partnership with NOAA to complement and enhance a national marine 
sanctuary in the State.

    NOW, THEREFORE, BE IT RESOLVED, that the Great Lakes and St. 
Lawrence Cities Initiative endorses and strongly supports the 
designation of the ``Lake Michigan--Wisconsin National Marine 
Sanctuary'' on behalf of the State of Wisconsin; the Cities of Two 
Rivers, Manitowoc, Sheboygan, Port Washington and Mequon; and 
Manitowoc, Sheboygan, and Ozaukee Counties currently under 
consideration by the National Oceanic and Atmospheric Administration.

            Signed this 14th day of June 2017
                                             Denis Coderre,
                                                             Chair,
                        Great Lakes and St. Lawrence Cities Initiative,
                                                             Mayor,
                                                      City of Montreal.
                                 ______
                                 
       Friends of Mallows Potomac National Marine Sanctuary
                                                      June 26, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Senate Commerce Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard,

    I am submitting this testimony on behalf of the Friends of Mallows 
Potomac National Marine Sanctuary. Although Mallows Bay has not yet 
been designated, a locally driven Friends group has already been 
established in support of the proposed National Marine Sanctuary.
    Mallows Bay is located in Charles County, Maryland on the Potomac 
River about 30 miles south of Washington, D.C. and is the site of the 
largest concentration of sunken ships in the Western Hemisphere. 
Mallows Bay and the surrounding Potomac River have a diverse collection 
of nearly 200 known historic shipwreck vessels dating back to the Civil 
War and perhaps the Revolutionary War. The majority of the ships are 
the remains of over 100 wooden steamships, known as the ``Ghost 
Fleet'', that were built for the U.S. Emergency Fleet between 1917-1919 
as part of the World War I war effort. Their construction at more than 
40 shipyards in 17 states reflected a massive national wartime effort 
that drove the expansion and economic development of communities and 
related maritime service industries including the U.S. Merchant Marine.
    In September, 2014, the Maryland Department of Natural Resources, 
at the urging, and with the support of the citizens of Charles County, 
submitted a nomination to NOAA to designate Mallows Bay as a National 
Marine Sanctuary. In October, 2014, President Obama announced the 
nomination had been accepted. Since then, the draft designation 
documents have been completed, a notice of intent to designate has been 
issued, and public comment received. The public comments are now being 
compiled. Completion of the final Environment Impact Statement, 
Management Plan, and Federal Regulations is expected by October, 2017.
    The designation of Mallows Bay as a National Marine Sanctuary could 
have a significant economic benefit to Charles County, as well as other 
counties bordering the proposed Sanctuary boundary. Although the 
population of Charles County is only around 157,000 people, the 
economic study area of the preferred alternative was a population of 
4,170,639 people (Mallows Bay--Potomac River DEIS, 2016) and includes 
most of the MD/VA/DC metropolitan area. The study area is the 
geographical range where the social and economic impacts are 
anticipated to occur from the use of the Mallows Potomac National 
Marine Sanctuary.
    Leisure and hospitality is now Charles County's second largest 
private employment sector. According to the Maryland Office of Tourism 
Development data, Charles County generated $184 million in tourism 
sales in 2013. The designation of Mallows as a National Marine 
Sanctuary is expected to dramatically increase tourism in Charles 
County, particularly in the relatively remote and underserved area of 
Nanjemoy in Charles County, where the main access site to the proposed 
sanctuary is located. The county park (Mallows Bay Park), which 
presently serves as the principal access point, has already seen a 
significant increase in use by kayakers, fisherman, and day trippers 
since nomination, despite the fact there are presently very limited 
interpretive facilities at the site. The exposure and national 
recognition that comes with National Marine Sanctuary designation will 
further Increase tourism and visitation and spawn business development, 
such as outfitters for guided trips, kayak and small boat rental, 
increased hotel occupancy, increased restaurant business, and gas 
station and convenience store stops.
    The proposed Mallows Bay National Marine Sanctuary is using, as its 
model, the Thunder Bay National Marine Sanctuary on Lake Huron near 
Alpena, Michigan, which is also a National Marine Sanctuary centered 
around shipwrecks. Thunder Bay has been estimated to generate $100 
million annually to the regional economy and support 1,500 jobs. The 
visitor center at Alpena sees over 60,000 visitors annually, which is 
remarkable for a site that is very remote and far from populated areas. 
The Washington Metropolitan Area, where Mallows Bay is located, has a 
population of over 6.1 million people.
    In summary, the designation of Mallows Bay/Potomac River as a 
National Marine Sanctuary will help preserve a piece of American 
history of World War I highlighting the role of the U.S. Shipping 
Board, the Emergency Fleet Corporation, and the creation of the 
Merchant Marine. This is a part of history that is little understood 
and has been lost over time, but is shared with communities all over 
the country that helped to build these ships. We believe the 
designation of Mallows Bay/Potomac River as a National Marine Sanctuary 
will become an engine for tourism, economic development, education, and 
interpretation. We urge your full support for the National Marine 
Sanctuary system and for the designation of additional sanctuaries.
            Sincerely,
                                         Stephen M. Bunker,
                                                          Chairman,
                                        Friends of Mallows Potomac NMS.
                                 ______
                                 
                 County of Erie--Office of County Executive
                                            Erie, PA, June 26, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Senate Commerce Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard,

    As County Executive of Erie County, Pennsylvania--a community 
largely defined by its location on the southern shore of Lake Erie--I 
write to express the vital importance of National Marine Sanctuaries to 
communities across our great nation. The advantages of National Marine 
Sanctuaries, as collaborative partnerships that shore up local 
economies, might best be explained through Erie County's story.
    Erie County's rich maritime history began during the War of 1812, 
when its shipyards were used to construct the American fleet that 
protected our new nation. In later years, the fledgling port prospered, 
thanks to commerce and industry that flourished along the waterways. 
Today, even as manufacturing shifts have taken a toll on Erie County's 
economy, the reinvigorated waterfront areas remain attractive to 
residents, tourists, and innovative new businesses.
    Erie County's proposed Lake Erie Quadrangle National Marine 
Sanctuary would prove an invaluable designation in allowing Erie County 
to more fully capitalize on its potential as a Great Lakes port. The 
proposal, which enjoys broad support from local elected officials, 
businesses, nonprofits, and residents, would position Erie County as a 
destination for culture and heritage, education, research, and tourism. 
The proposed Lake Erie Quadrangle sanctuary would encompass nearly 200 
shipwrecks, as well as historical sites, lighthouses, and museums, 
while preserving the county's active sport fishing industry and vital 
port operations.
    The unique advantages of the National Marine Sanctuary System would 
provide necessary resources that bridge the gap between cultural 
preservation and economic opportunity. A sanctuary designation would 
prove to be the vital connection that would link Erie County's 
disparate resources--including museums, lighthouses, shipyards, the 
U.S. Brig Niagara, and plentiful opportunities for recreation and 
scientific study--into a unified waterfront destination. Designating 
the Lake Erie Quadrangle would create opportunities for education and 
outreach, including both in-the-water shipwreck exploration and on-the-
ground historic research. All told, the proposed sanctuary would inject 
a much-needed boost into Erie County's burgeoning tourism industry, 
enhancing our existing opportunities for fishing, boating, swimming and 
diving.
    Most vitally, the proposed Lake Erie Quadrangle National Marine 
Sanctuary would be a boon for Erie County's small business owners, many 
of whom build their livelihoods on the tourists who spend money in our 
community. Michigan's Thunder Bay National Marine Sanctuary, on Lake 
Huron, has resulted in growth to existing businesses, the creation of 
new businesses, and an increase in tax revenue. The Lake Erie 
Quadrangle sanctuary, if designated, would work together with Thunder 
Bay to highlight the importance of the Great Lakes Basin--the world's 
largest surface freshwater system, and the source of nearly a quarter 
of the world's supply of surface freshwater. Adding Great Lakes Basin 
assets to the National Marine Sanctuary System, which currently is 
almost entirely focused on ocean-shore sanctuaries, would further bring 
the advantages of a sanctuary to the interior of the nation, helping to 
reinvigorate so-called ``Rust Belt'' states like Pennsylvania and the 
entire Great Lakes region.
    National Marine Sanctuaries provide an opportunity for communities 
to best utilize their marine assets, leveraging local partnerships and 
on-the-ground resources into an engine for economic growth. The Lake 
Erie Quadrangle proposal began with just such a mission, bringing 
together a patchwork of interested parties with a common purpose: 
Expanding Erie County's economic opportunities. Supporters include 
officials from local municipalities as well as from neighboring 
counties and states; environmental organizations, recreational groups, 
educational institutions and nonprofits; and economic development 
agencies and business owners. All came together to create and support 
the sanctuary proposal, knowing that such a designation was the best 
course for Erie County to not only protect one of its most important 
cultural assets--its maritime heritage--but also to capitalize on it as 
an economic driver.
    Though Erie County's proposed Lake Erie Quadrangle National Marine 
Sanctuary awaits approval, the advantages of a National Marine 
Sanctuary are clear to our leaders, business owners, and residents. 
Erie County has witnessed the vast benefits--to economy, to 
preservation, and to community pride--that sanctuary designations have 
had on other similar communities, notably Thunder Bay, and remains 
confident that our region, too, could only be enhanced by receiving 
such a Federal designation.
            Sincerely,
                                          Kathy Dahlkemper,
                                                  County Executive.
                                 ______
                                 
       County of Oswego--Office of the County Administrator
                                          Oswego, NY, June 26, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Senate Commerce Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard:

    Thank you for this opportunity to submit comment to the 
subcommittee regarding the National Marine Sanctuary (NMS) nomination 
process and the role an NMS can play in economic development. During 
development of the nomination for the Great Lake Ontario National 
Marine Sanctuary, NOAA's community-based nomination procedure proved to 
be a constructive and unifying process across several governments. 
Those interactions facilitated planning and the creation of common 
regional goals regarding maritime heritage, tourism, education and 
economic development.
    By way of background, the proposed Great Lake Ontario National 
Marine Sanctuary includes unique and significant submerged cultural 
resources within a corridor that is one of the most historically 
significant regions in the Great Lakes and the North American 
continent. Located in the southeast quadrant of Lake Ontario, this area 
and its tributaries provided food and transportation trade routes for 
indigenous peoples and early European explorers. During the co colonial 
period through the War of 1812, it was a strategic theater of conflict 
among European powers and the young American republic. Later, this 
region was critical to the development of the American west and our 
Nation's industrial core and the westward of The area also served as a 
location of maritime innovation and invention, and was crucial in the 
agricultural expansion of the 19th century. Within the nomination area 
there are an estimated 68 shipwrecks and three historic aircraft. Many 
of these are the oldest and only known of their type and exhibit intact 
architectural features, such as the Atlas, Bay State, Queen of the 
Lakes, Royal Albert, Roberval. Black Duck and the Lady Washington, 
which is the second oldest (1797) intact shipwreck discovered in the 
Great Lakes. The oldest is also in Lake Ontario, the Revolutionary War-
era HMS Ontario (1780).
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Lady Washington, built during George Washington's presidency (1797) 
rests intact, unresearched and vulnerable. www.shipwreckworld.com

    The community-based nomination process inspired the counties of 
Jefferson, Oswego, Cayuga and Wayne, along with the City of Oswego and 
the State of New York to embark together on this effort to preserve, 
protect, promote and create economies around such submerged historic 
resources. A multi-entity task force was created to develop the 
nomination, comprised of local governments, educational institutions, 
community planning and non-profit interests, all with technical support 
from state agencies. To fulfill the nomination requirements, these 
entities worked together to assess resources, management capabilities, 
community assets, and develop common goals regarding potential 
educational opportunities and economic development prospects 
surrounding the proposed NMS. The process also spurred a public 
education effort to secure wide-spread support for the proposal, 
bringing the potential of these untapped submerged resources to the 
forefront in the public mind. The positive public reaction was 
immediate. Attached is a list of public and business entities, local 
through international, which submitted written support for the 
proposal.
    Conservation and education are important goals of an NMS. 
Designation of an NMS here would increase the reach and capabilities of 
existing national and local educational and research institutions such 
as, but not limited to: New York Sea Grant, several colleges of the 
State University of New York, Syracuse University, the NYS Office of 
Parks, Recreation and Historic Preservation, the NYS Museum, Erie 
Canalway National Heritage Corridor, the NYS Department of 
Environmental Conservation (DEC), Great Lakes Research Consortium, and 
not for-profit museums and local school districts that operate on the 
shores of southern and eastern Lake Ontario.
    Economic development is a key factor in the proposed NMS. In 2015, 
the County of Qswego submitted the concept of having a NMS designated 
in the south-eastern quadrant of Lake Ontario to Governor Andrew 
Cuomo's Central New York Regional Economic Development Council 
(CNYREDC) through a process developed to identify ideas/projects that 
have the potential to transform the region in any one of a dozen or so 
predetermined business sectors. Our application discussed the potential 
economic impacts that might be brought about by the various activities 
that would likely result from an NMS designation. It suggested that the 
project would require some civic infrastructure enhancements in the 
lakeside communities that would see the greatest influx of visitors if 
the sanctuary nomination proposal is approved. Oswego County identified
    $10 million as an approximate number that could fulfill those 
needs. The CNYREDC recognized that this NMS initiative could, in fact, 
be ''transformative'' and selected it as one of a very few in the 
tourism sector to be highlighted in their 5-year plan. The regional 
plan was subsequently selected as one of the top three regional 
development plans in New York State and the region was awarded $500 
million over a five-year period to implement their strategies.
    This region is already an international destination for 
sportfishing, diving, boating and sailing, marine recreation, and 
heritage tourism. An NMS would increase tourism and economic 
opportunity, particularly along the Seaway Trail--a 518-mile National 
Scenic Byway that travels directly along the entire length of the 
proposed sanctuary corridor. Increased tourism would have exponential 
effects on the communities, and the shore-based resources within them 
that support the education, research, exploration and access to these 
nationally significant submerged cultural resources.
    The collaborative nomination process not only allowed the 
communities to develop a common vision of what they wanted the NMS to 
be, but also what they don 't want it to be. In their heritage-based 
nomination, the communities and the State proposed no new regulations 
that would hinder other forms of economic development nor interfere 
with the current commercial uses of the waterways, ports and harbors.
    On behalf of the nomination task force and the proposal's sponsors, 
I want to express appreciation for NOAA's constructive and forward-
thinking nomination process.
    I also respectfully urge the subcommittee to recommend to the 
Executive that NOAA be allowed to continue accepting nominations, and 
that those already in NOAA's inventory be allowed to continue through 
the designation process.
            Respectfully,
                                          Philip R. Church,
                                              County Administrator,
                                                          Chairman,
    Great Lake Ontario National Marine Sanctuary Nomination Task Force.
                                Appendix
List of Supporting Entities, Letters of Support, & Petitions

State of New York
Governor Andrew Cuomo
 
Sponsoring Communities
Cayuga County Legislature
City of Oswego Common Council
Jefferson County Legislature
Oswego County Legislature
Wayne County Board of Supervisors
 
Elected & Appointed Officials
U.S. Senator Kirsten Gillibrand
Congressman Richard Hannah
Congressman John Katko
State Senator Patty Ritchie
Assemblyman William Barclay
Assemblyman Robert Oaks
Oswego County Legislature Chairman
 Kevin Gardner
City of Oswego Mayor William Barlow
Legislator Margaret Kastler, Oswego
 County
Legislator Shawn Doyle, Oswego
 County
Legislator Roy Reehil, Oswego
 County
Town of Scriba Supervisor Ken
 Burdick
Oswego County Administrator Philip
 Church
 
Local Governments
New York State Association of
 Counties representing all 62
 counties of NYS
North Shore Council of Governments
 representing V Central Square, V.
 Cleveland, T. West Monroe. T.
 Hastings
Salmon River Council of Governments
 representing V. Parish, T. Parish.
 T. Albion. T. Amboy, T. Orwell
Town of Ellisburg
Town of Henderson
Town of Huron
Town of Montezuma
Town of Ontario
Town of Oswego
Town of Sterling
Village of Sandy Creek
 
International
Onondaga Nation
Ontario Underwater Council
Save Ontario Shipwrecks
                                     Government Agencies
 
 
 
Stewardship Organizations
New York State Conservation Council
 Inc.
Oswego County Environmental
 Management Council
Oswego County Federation of
 Sportsmen's Clubs
Sterling Nature Center
                                     Recreational User Groups
Economic Development                 Above & Below The Water Training
Cayuga County Office of Tourism       Center
CenterState CEO                      Auburn Skin Divers Association
Central New York Regional Planning   Captain Duane Morton
 and Development Board               Eastern Lake Ontario Salmon and
County of Oswego Industrial           Trout Association
 Development Agency                  Oswego Yacht Club
Greater Oswego-Fulton Chamber of
 Commerce
Jefferson County Local Development
 Corporation
Ontario Chamber of Commerce
Operation Oswego County, Inc
Oswego County Tourism Advisory
 Council
Pulaski Fanner's Market and
 Preservation & Revitalization of
 Pulaski
Pulaski-Eastern Shore Chamber of
 Commerce
Town of Hastings Community
 Development & Tourism Office
Tug Hill Commission
Visit Syracuse
Wayne County Industrial Development
 Agency & Economic Development
 Corp.
Wayne County Economic Development
 and Planning
Wayne County Tourism
 
 
 

                                 ______
                                 
                           Marathon Boat Yard Marine Center
                                        Marathon, FL, June 26, 2017

Senator Dan Sullivan,
Chair,
Senate Commerce Committee's Subcommittee on Oceans, Atmosphere, 
            Fisheries, and Coast Guard,
U.S. Senate,
Washington, DC.

Dear Senator Sullivan and Committee Members:

    As a Florida Keys National Marine Sanctuary community leader, I 
want to thank you for the opportunity to address Congress about the 
importance of protecting our precious marine resources. I chair the 
Florida Keys National Marine Sanctuary Advisory Council and can tell 
you how critical the health of our surrounding waters is to the island 
chain, the State of Florida, the United States and the international 
community. Having been a member since 2004, chair for 7 years and now 
back in that position my perspective is broad and based significant 
experience.
    The Florida Keys National Marine Sanctuary spans 2,900 square 
nautical miles from south of Miami westward to encompass the Dry 
Tortugas, excluding Dry Tortugas National Park. It includes the world's 
third largest coral reef, mangrove-fringed islands, shipwrecks and 
other archeological treasures as well as more than 6,000 species of 
marine life. Recreational and commercial activities in and around the 
sanctuary are the lifeblood of the Florida Keys and contribute greatly 
to the economy of Florida and this country.
    We are in the Marine Business and know that a healthy, vibrant 
marine environment is critical to the success of our business. 5 
million visitors are annually drawn to the only barrier reef in the 
continental USA and to our small chain of islands, our economy is the 
environment. It requires special and carefully protections to insure 
our children and future generations have the opportunity to enjoy this 
very unique part of America. Our history, Maritime Heritage, fishing, 
access and healthy environment needs continued protection.
    The members of our advisory council-be they mayors, fishermen, dive 
operators or tourism and hospitality proprietors-value the balance 
between our strong economy and protecting the very resources that fuel 
it. We are currently reviewing and evaluating the rules and regulations 
in our sanctuary. We are finding that some areas have rebounded due to 
restricted use, while other areas suffer from overuse, disease and the 
effects of climate change. The review is a painstaking, multi-year 
process undertaken with the expertise of Florida Keys National Marine 
Sanctuary staff and partner agencies including state and Federal fish 
and wildlife officials. The task is arduous, but entirely necessary to 
maintain the equilibrium between man and nature.
    I strongly encourage continued management of all the nationa1 
marine sanctuaries and monuments. Thank you for considering our views.
            Sincerely,
                                              Bruce Popham,
                                                             Chair,
               Florida Keys National Marine Sanctuary Advisory Council,
                                                             Owner,
                                  Marathon Boat Yard and Marine Center.
                                 ______
                                 
                                        Syracuse University
                                                       26 June 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
members of the Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard,

    I am writing from a unique firsthand perspective of the strong 
impacts of our National Marine Sanctuaries program from its very 
beginning. As a 16-year-old Duke sophomore, I had the chance to help 
prepare for an oceanographic voyage, and then unexpectedly to join that 
voyage in which we discovered the shipwreck of the USS Monitor in 1973. 
Immediately after determining this was Monitor, our discovery team 
drafted an initial document for a proposal that evolved through 
collaboration with the state of North Carolina, for the first national 
marine sanctuary, formally approved in 1975.
    As the Monitor National Marine Sanctuary progressed, those of us 
who were students now had support for accelerated technological 
research and scientific studies. Many students, both graduate and 
undergraduate, were involved. Scientists and engineers who had their 
start in this inaugural marine sanctuary were among the top of their 
peer groups, inventing new marine scientific models published in places 
like Science, and creating new technology that accelerated the field of 
underwater robotics. The students within the sanctuary research efforts 
fanned out into superb careers in research universities, technology 
firms, and the marine service industries. The core point is that the 
Monitor Marine Sanctuary and its successors have become accelerators in 
the science and technology sectors. For a relatively small cost, marine 
sanctuaries fuel innovation, regional economic growth, and 
technological sophistication.
    This pattern of scientific and technological vigor witnessed off 
North Carolina for the Monitor Sanctuary has also been vividly evident 
in the formerly economically distressed region of Thunder Bay. This 
marine sanctuary has provided magnificent growth in jobs and tourism 
and now is considered a magnet for serious divers from across the 
world.
    In a beautiful symmetry, four decades after Monitor, I am now 
involved in supporting scientifically both the emerging Mallows Bay 
Marine Sanctuary, where I now have research students of my own hard on 
innovative studies, and also in supporting the remarkable opportunity 
provided by the Great Lake Ontario National Marine Sanctuary proposal. 
Ontario is a priceless natural system that, like the region off 
Hatteras, preserves an underwater museum of our Nation's history. It 
also has the advantage that it is accessible from the shore. Those of 
us in the research universities of the Ontario region have been highly 
supportive of its potential for
    both STEM innovation and large-scale tourism. Syracuse University 
affirms its energetic support for the Ontario project, and we envision 
that many students will contribute their research here, as they have in 
the other sanctuaries.
    The National Marine Sanctuary program is a gem. I have seen 
firsthand the power for a 16-year-old of the dramatic boosts 
sanctuaries can give to talented students across economic backgrounds. 
It has been an honor to be a scientist that has been part of the 
sanctuaries' research since the inception of the program--and also to 
have mentored many students whose careers have also been accelerated by 
sanctuaries. The latest such student, a talented 21-year-old, has only 
just begun her research. She and I are both part of a lineage of true 
accomplishment and moxie among the thousands of engineers and 
scientists trained in the sanctuaries.
    I urge you to continue to provide support to this program with such 
a distinguished record--and one that is keeping the United States at 
the forefront.
            Sincerely,
                                         Cathryn R. Newton,
                                 Special Advisor to the Chancellor,
                          Professor of Earth & Interdisc. Sciences,
                                                   Syracuse University.
                                 ______
                                 
                                          City of Sheboygan
                                       Sheboygan, WI, June 26, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.
Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Senate Commerce Subcommittee on Oceans, 
            Atmosphere, Fisheries, and Coast Guard:

    I am writing to you on behalf of the City of Sheboygan to express 
our support for the current National Marine Sanctuary nomination and 
designation process. Protection our greatest treasures and heritage as 
a national asset is very important and should be protected. The City of 
Sheboygan is excited about the opportunity to be part of the Wisconsin 
National Marine Sanctuary currently in the designation process. The 
City looks forward to the future opportunities that are potential with 
the sanctuary designation in economic development and tourism. Marine 
Sanctuaries are not just for divers, snorkelers, marine biologists and 
scientists. They reach into all facets of a community including 
tourism, education, workforce development, economic development, and 
historic preservation.
    Since the process to establish a National Marine Sanctuary has 
begun for the mid Lake region of Wisconsin, we have heard from 
international travelers and businesses looking to relocate or travel 
here to experience the sanctuary and our coastal communities. It should 
also be noted that currently Sheboygan County faces a workforce 
shortage. With over 3,000 positions open in the County and unemployment 
rates of less than three percent, in order to fill positions strong 
efforts are being made to recruit people from other large metro areas 
in our large, locally owned manufacturing companies. Competing for 
talent is not an easy game, but one of the best resources for future 
workforce is the current K-12 population. Offering resources in our 
schools for students to experience STEM education and the ties to the 
sanctuary provide another reason why students would be more likely to 
stay in the community than join a neighboring community that offers 
better quality of life assets.
    As the National Marine Sanctuary designation along the eastern 
shore of Wisconsin continues through the designation process, I urge 
you to continue to support these efforts. These efforts circulate money 
through the economy, creates jobs and protect our past through numerous 
socio-economically avenues. In closing, I want to personally say thank 
you to our two Wisconsin delegates, Congressman Johnson and Congressman 
Baldwin who have supported this designation from the very beginning and 
continue to be huge supports of this designation.
            Sincerely,
                                       Michael Vandersteen,
                                                             Mayor.
                                 ______
                                 
 Northwest Association of Networked Ocean Observing Systems
                                         Seattle, WA, June 26, 2017
Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
        members of the Senate Commerce Subcommittee on Oceans, 
        Atmosphere, Fisheries, and Coast Guard,

    I am writing in support of the network of National Marine 
Sanctuaries that our Nation has preserved. I currently sit in the 
Research seat of the Advisory Council for the Olympic Marine National 
Marine Sanctuary (OCNMS). I see first-hand how enmeshed the Sanctuary 
is from all the Advisory Council participants who hail from diverse 
sectors including Fishing, Tourism/Economic Development, Marine 
Business/Ports, Conservation, Education, as well as Research. Also 
included on the Council are representatives of Tribal, Federal, State, 
and Local governments. Sanctuaries serve as a focal point for regional 
conversations that can enhance all of these topics and assure that any 
difficult conversations are had on a local level, in person, and with 
good discussion. Aside from the protecting critical natural habitat, 
the Sanctuaries are living resources because of their inclusion of 
these representatives. The fact that this is happening locally 
nationwide is a true service that is making a difference.
    I also write from one of the eleven Regional Associations of the 
U.S. Integrated Ocean Observing System, the Northwest Association of 
Networked Ocean Observing Systems (NANOOS), which I direct. OCNMS has 
been an original member of NANOOS since 2003, and plays a key role in 
providing coastal ocean data to the Pacific Northwest that can be used 
for understanding diverse issues, such as Harmful Algal Blooms or 
Marine Heat Waves. In turn, their connection to the community extends 
the use and awareness of our data portal and products, increasing the 
use of ocean data to provide safe and efficient maritime operations, 
increase coastal hazard preparedness and risk reduction, and foster 
coastal stewardship for recreation and tourism.
    Please continue to ensure that these national treasures are 
preserved. Thank you for your work on this.
            Sincerely,
                                                Jan Newton,
                                         NANOOS Executive Director,
                                    Senior Principal Oceanographer,
                   University of Washington Applied Physics Laboratory.
                                 ______
                                 
                                         Cambria, CA, June 27, 2017
Senator Dan Sullivan,
Chair,
Senate Commerce Committee's Subcommittee on Oceans, Atmosphere, 
            Fisheries and Coast Guard,
U.S. Senate,
Washington, DC.

Dear Senator Sullivan and Committee Members,

    Elephant seals began coming to the beach at Piedras Blancas in 
1990. Since those few first arrived, the rookery has grown to over 
22,000 seals. They are never all there at once, but come and go during 
the year.
    As do the tourists! They come from across the United States and 
around the world. Visitor materials are presented in several languages, 
to serve the people from Asia, Europe, South America and Africa who 
come to visit.
    The county and private landowner Hearst Corporation have partnered 
to create a viewing place for the public to see the seals. It is free, 
open 24/7, and staffed entirely by volunteer docents. The people of 
California hold this in trust for the world.
    It's a wildlife success story. Rather than conflict between 
wildlife and the public, it is a showcase for the public to learn about 
marine mammals, the importance of the ocean, and the inspiration it 
brings to our lives.
Central Coast History
    The Piedras Blancas elephant seal rookery is relatively new. The 
seals were first reported on the beach near the lighthouse in 1990. The 
first birth of a pup was observed in 1992. More seals arrived every 
year, soon causing problems along the highway.
    Drivers stopped along Highway 1. Excited visitors climbed down to 
the beach to get close to the seals. Occasionally a seal parked himself 
on the highway. Collisions killed seals and totaled cars. The situation 
was dangerous for both sides. Something had to be done.
    Usually, this kind of interaction at the border of humans and 
wildlife does not end well for the critters. People generally want 
their way, and the wildlife gets killed or chased off. Instead, local 
people stepped up and worked with government agencies and the Hearst 
Corporation to create a solution.
    The individuals who envisioned a happy outcome for both seals and 
the public founded Friends of the Elephant Seal. They began their 
training program for docents in 1997, so that the public could be 
welcomed to observe the animals without risk to either side. People 
learn about the seals and their ocean habitat, and the seals live their 
lives unmolested. A Win-Win.
    The Piedras Blancas elephant seal rookery has become a major 
tourist attraction. Hundreds of Thousands come from around the world to 
see the seals. It's an unusual opportunity for the public to see a herd 
of wild animals without having to take a safari.
Save the Sanctuaries
    The area is within the Monterey Bay national Marine Sanctuary. 
Please support the Marine Sanctuary program. It benefits local 
businesses as well as being an example to the world of responsible 
stewardship.
            Thank you.
                                       Christine Heinrichs.
                                 ______
                                 
                                     Chesapeake Conservancy
                                        Annapolis, MC, 27 June 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fishe1ies, and 
Coast Guard,
Washington, DC.

RE: Proposed Mallows Bay-Potomac River National Marine Sanctuary

Chairman Sullivan and Ranking Member Peters:

    On behalf of the Chesapeake Conservancy, I am writing in support of 
the designation of the Mallows Bay-Potomac River National Marine 
Sanctuary. Chesapeake Conservancy is a non-profit organization that 
works to conserve land and increase public water access along the Great 
Rivers of the Chesapeake Bay.
    Thirty miles south of Washington, D.C. in Charles County, Maryland 
is Mallows Bay, where the wooden hulls of scores of World War I era 
ships lie clustered in the Potomac River. These shipwrecks tell an 
important chapter in American history when the U.S. was on the brink of 
becoming the greatest shipbuilding nation in the world. Once a 
junkyard, these wrecks have become unique habitat for birds, fish, and 
other marine life and an amazing place for outdoor recreation 
activities like fishing and paddling.
    A National Marine Sanctuary designation for Mallows Bay-Potomac 
River would be transformative for Charles County and for the Chesapeake 
Bay. National Marine Sanctuaries provide recognition and bring 
international attention for the historic and unique resources that 
comprise U.S. marine heritage. They also leverage new opportunities for 
recreation and tourism and become economic drivers in the communities 
where they are located.
    Each year in Maryland, 10 million people visit state parks and 
generate a total economic impact of over $650 million. According to the 
Outdoor Industry Association, Maryland outdoor recreation generates 
$9.5 billion in consumer spending, 85,000 direct Maryland jobs, $2.8 
billion in wages and salaries, and $686 million in state and local tax 
revenue. A National Marine Sanctuary would directly contribute to the 
recreation and tourism economy in Maryland and importantly, it would be 
a boon for the local economy of Charles County.
    There is broad public supp01i for the sanctuary; during the public 
comment period 1,100 out of 1,300 of the comments were in support. 
Community residents recognize that the Mallows Bay-Potomac River 
National Marine Sanctuary would enhance awareness and interest in the 
site, create new recreation and tourism opportunities, and contribute 
to economic growth in Charles County. We urge you to recognize the 
strong local support for this proposal and issue a favorable opinion on 
the proposed sanctuary.
            Sincerely,
                                                 Joel Dunn,
                                                 President and CEO,
                                                Chesapeake Conservancy.
                                 ______
                                 
                            Alpena Area Chamber of Commerce
                                          Alpena, MI, June 28, 2017
Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
            Coast Guard,
Washington DC.

Dear Senator Peters,

    The Senate Commerce Committee's Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard recently held a hearing with a focus on 
national marine sanctuaries. Although I was not able to complete this 
letter prior to that hearing, I wish to submit comment on the topic 
now.
    As you are aware, Alpena is location of the Thunder Bay National 
Marine Sanctuary (TBNMS). We couldn't be prouder to be the home of this 
outstanding facility and area. The TBNMS has developed into a very 
important part of our region's economy with its impacts on tourism, 
education, and business development. The TBNMS impacts tourism because 
it is a draw for a variety of tourists from divers to water and 
shipwreck enthusiasts. The TBNMS has had a tremendous impact on 
education. From the research that happens to the students who are now 
involved in Remote Operated Vehicle competitions, TBNMS has helped to 
grow our STEM knowledge and educational opportunities. The TBNMS has 
also had an impact on business development as we are starting to see 
businesses start and become more successful based on the interests 
surrounding TBNMS. TBNMS helps drive the desire to explore the 
Sanctuary through kayaking, diving, and other activities.
    Our community is stronger with greater pride because of the TBNMS. 
We have a much broader and deeper understanding/knowledge of our 
history and heritage because we are now able to understand not only 
what is above ground, but what lies below the water. A one-page letter 
is not nearly enough to communicate how strongly we feel about the 
value of the TBNMS, but we hope you begin to understand the impact the 
Sanctuary has had on our community.
    Thank you for allowing me to express my thoughts.
            Sincerely,
                                        Jaclyn A. Krawczak,
                                                     President/CEO.
                                 ______
                                 
                                      Boston Harbor Cruises
                                          Boston, MA, June 28, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.
Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
members of the Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard,

    I am writing to you on behalf Boston Harbor Cruises, a New England-
based whale watching company, to support the benefit of National Marine 
Sanctuaries to our business, the environment, and the tourism industry.
    As business owners and advocates for New England's thriving tourism 
industry, we recognize the economic value of having healthy coasts and 
oceans. In 2012, tourism and travel brought in over $17 billion in 
direct spending in Massachusetts alone, and the whale-watching industry 
was worth about $26 million per year to the New England economy. New 
England is one of the country's leading regions for the boat-based 
whale-watching industry, treating about one million visitors every year 
to close encounters with an array of charismatic marine mammals.
    The Stellwagen Bank National Marine Sanctuary supports a remarkable 
richness and diversity of ocean life. The unique bathymetry of 
Stellwagen Bank attracts an array of protected and endangered ocean 
wildlife, such as marine mammals, sea turtles, fishes, and sea birds, 
including the critically endangered North Atlantic Right Whale, which 
demonstrates Stellwagen Bank National Marine Sanctuary's importance as 
a foraging area for key marine species.
    We value healthy protected area for our marine mammals, and fully 
support the National Marine Sanctuary Program.
            Thank you,
                                               Laura Howes,
                     Director of Marine Education and Conservation,
                                                 Boston Harbor Cruises.
                                 ______
                                 
          State of Michigan Department of Natural Resources
                                         Lansing, MI, July 10, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
members of the Senate Commerce Subcommittee on Oceans, Atmosphere, 
Fisheries, and Coast Guard:

    In 1981 Lake Huron's Thunder Bay became Michigan's first state 
Underwater Preserve dedicated to our state's maritime stories and the 
shipwrecks that tell those stories. In 2000 the bay became our Nation's 
first freshwater National Marine Sanctuary. It is jointly managed by 
National Oceanic and Atmospheric Administration (NOAA) and the State of 
Michigan.
    At first there were quite a few sceptics, but in 2014 the Thunder 
Bay National Marine Sanctuary and Underwater Preserve expanded to 
nearly 10 times its original size. Why? Because the people who lived in 
the counties adjacent to the sanctuary saw the increased tourism and 
related business development it brought to Northeast Michigan and used 
the 2012 sanctuary management planning process to ask to become part of 
the success.
    The sanctuary protects history-laden shipwrecks, but its positive 
impact on Michigan goes well beyond the maritime history it researches, 
preserves and shares. Area children see the potential for science 
careers they never imagined. Their community college offers 
certification in the growing field of marine technology. Local students 
build Remote Operated Vehicles (ROVs) that operate underwater. They not 
only win competitions with their work, but also drew the international 
ROV competition to Michigan two years ago.
    Because of the sanctuary, Alpena, a community that lost one of its 
largest economic drivers, in 2002, is booming. Drawing more than 80,000 
visitors annually, the sanctuary's Great Lakes Maritime Heritage Center 
features more than 10,000 square feet of interactive exhibits and has 
become a major tourism destination in the region. Enterprises from 
kayak rentals to a glass-bottom tour boat, from shops and restaurants 
to a new hotel and a brewery, are all part of the town's new economy. 
Entrepreneurs attracted to the positive spirit and opportunities of the 
town are creating diverse businesses that could be anywhere, but chose 
Northeast Michigan.
    Because of the sanctuary, researchers from across the country come 
to Thunder Bay to test methods of surveying the shipwrecks. What they 
learn drives the mission of the sanctuary, but it also develops 
technology with many other offshore uses. This summer, NOAA and Alpena 
Community College will use unmanned aircraft systems (UAS) to capture 
shallow water high-resolution images. The University of Delaware will 
join NOAA in working with wide-sweeping sonar devices for deep-water 
exploration.
    Michigan Technological University will follow this with targeted 
sonar exploration using an autonomous underwater vehicle. East Carolina 
University and National Marine Sanctuary divers will work with video 
that can produce 3D photogrammetric maps of underwater features.
    In summary, the Thunder Bay National Marine Sanctuary has been an 
economic driver, an educational resource and a community building force 
for Michigan. To reduce this program in any way, much less to eliminate 
the increased access to its benefits provided by the expansion of its 
boundary, would be a large step backwards for the people of Michigan.
                                              Keith Creagh,
                                                          Director.

cc: Mr. Mark Hoffman, Chief Administrative Deputy, MDNR Ms. Sandra 
Clark, MDNR
                                 ______
                                 
       Pacific Coast Federation of Fishermen's Associations
                                   San Francisco, CA, July 10, 2017

Senator Dan Sullivan,
Chairman,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Subcommittee on Oceans, Atmosphere, Fisheries, and Coast Guard,
Washington, DC.

Dear Chairman Sullivan, Ranking Member Peters, and distinguished 
            members of the Subcommittee on Oceans, Atmosphere, 
            Fisheries, and Coast Guard,

    I write to express the Pacific Coast Federation of Fishermen's 
Associations' (PCFFA) strong support for the Greater Farallones 
National Marine Sanctuary (GFNMS) and Cordell Bank National Marine 
Sanctuaries (CBNMS). These sanctuaries have been developed, expanded, 
and managed in a manner that supports the coexistence of commercial 
fishing activities with marine conservation in a transparent and 
equitable manner. They are the pinnacle examples of what spatial 
management of our country's oceans and marine resources should 
exemplify.
    PCFFA is the largest organization of commercial fishermen and women 
on the West Coast. For forty years, we have been leading the industry 
in assuring the rights of individual fishermen and fighting for the 
long-term survival of commercial fishing as a productive livelihood and 
way of life. PCFFA represents fifteen local fishermen's associations on 
the West Coast from Santa Barbara to the Canadian border, collectively 
comprising the largest commercial fishing organization on the West 
Coast.
    Years ago, it was PCFFA that first suggested inclusion of CBNMS as 
part of a proposed Point Reyes/Farallon Islands sanctuary in the early 
hearings on the creation of the sanctuary. That recommendation was not 
followed, but later following undersea photographs of Cordell Bank, 
Cordell Bank was made a stand-alone marine sanctuary. In subsequent 
years, PCFFA has worked with current and former Members of Congress and 
Marine Sanctuary staff on the proposed boundary expansion of the 
northern boundaries of the two sanctuaries in order to ensure 
traditional fishing activity, as well as the fishing grounds, would be 
protected under such a boundary expansion.
    PCFFA's support for these sanctuaries is based on the desire to 
protect the important fishing grounds and upwelling area encompassed 
under the expansion of these two sanctuaries. More importantly, 
however, it is based on the fishing community's long and cordial 
working relationship and collaboration with past and present management 
and staff of the two sanctuaries. In fact, there is probably no other 
government entity--State or Federal--that PCFFA and the fishing 
community has worked closer with than the Gulf of the Farallones and 
Cordell Bank National Marine Sanctuaries.
    PCFFA has long recognized and lauded the Sanctuaries' charge to 
protect the resources of their waters. To that end, CBNMS and GFNMS 
have developed a highly successful method for dealing with conflicts 
between fishing and the protection of sanctuary resources in the few 
times a conflict has arisen. When fishing conflicts, or their 
potential, have arisen at CBNMS or GFNMS, sanctuary management has 
contacted the fishing community, communicating the nature of the 
problem with any proposed solutions, soliciting input from the fishing 
community, including thoughts on the nature of the conflict and fishing 
community recommendations for a solution. Both sides have worked in 
good faith and in mutually respectful manner. If regulatory action was 
needed, (i.e., beyond an agreement with the fishing community), the two 
sanctuaries have sought resolution by taking the issue to the 
California Fish & Game Commission for a state managed fishery, or the 
Pacific Fishery Management Council for a Federal managed fishery.
    This approach has proven highly successful, minimizing interference 
with fishing while maximizing sanctuary resource protection. The 
sanctuaries have recognized the authority and expertise of the fishery 
management entities; the fishery management entities have recognized 
the sanctuaries' charge to protect sanctuary resources. Indeed, the 
approach by the two sanctuaries to fishing issues should be a model for 
the nation; it is the primary reason these two sanctuaries are held in 
high regard by both the fishing community and fishery management 
entities. National Marine Sanctuaries, when managed properly as these 
two Sanctuaries have, allow economic activity to occur and even enhance 
it.
    PCFFA appreciates and fully supports the continuing ban on offshore 
oil and gas development within sanctuary waters. We are strongly 
opposed to the authorization by a sanctuary superintendent (or, in 
fact, that superintendent's superior) of the waiving of sanctuary rules 
and the permitting of, among other things:

  <bullet> Renewable or nonrenewable energy development, which could 
        include petrochemical, wave, or offshore wind energy 
        development in sanctuary waters. This is particularly troubling 
        since such development could be harmful to sanctuary resources 
        and there is no compelling reason along the West Coast for this 
        form of offshore energy development given the potential for 
        solar and wind development onshore;

  <bullet> Disposal of sewage water;

  <bullet> Dumping;

  <bullet> Mining;

  <bullet> Seismic airgun surveys;

  <bullet> Installation of cables on the seafloor;

  <bullet> Expanded shellfish mariculture using non-native species;

  <bullet> Offshore finfish aquaculture with the potential for escapes, 
        marine mammal interactions, pollution (e.g,, fecal material 
        from these concentrated ``feed lot'' types of operation, 
        pesticides used to control sea lice, herbicides used to control 
        algae growth), spread of disease or parasites into the wild, 
        and conflicts with navigation.

    Allowing these types of non-traditional and harmful activities is 
contrary to the purpose of a marine sanctuary and all would be harmful 
to our fish stocks and fisheries. Equally troubling is the potential 
for circumventing current sanctuary engagement in fishery management 
through efforts to designate certain sanctuary waters as special areas 
(e.g., research) and then close them to fishing.
    GFNMS, CBNMS, and other well designed and well managed Sanctuaries 
have long enjoyed the support of commercial fishermen throughout the 
United States. The important protections that they bring must remain 
intact and robust in order to safeguard the working families of 
California's coastal communities. I strongly encourage you to support 
the sanctuaries that enjoy fishermen's support as you evaluate their 
impacts to the marine economy and the living marine resources of the 
United States.
            Sincerely,
                                            Noah Oppenheim,
                                                Executive Director.
                                 ______
                                 
                                          New York Aquarium
                                        Brooklyn, NY, July 11, 2017

Senator Dan Sullivan,
Chairman,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Senator Gary Peters,
Ranking Member,
Senate Commerce Subcommittee on Oceans, Atmosphere, Fisheries, and 
Coast Guard,
Washington, DC.

Re: Comment Letter regarding Senate Commerce Committee June 27, 2017 
            Hearing on Marine Sanctuaries: Fisheries, Access, the 
            Environment, and Maritime Heritage

    The Wildlife Conservation Society (WCS) submits the following 
comments as a part of the record for the Senate Commerce Committee's 
June 27, 2017 hearing on Marine Sanctuaries. As the Commerce Committee 
conducts its oversight of the National Marine Sanctuary (NMS) Program, 
WCS encourages committee members to continue to reaffirm and support 
the stakeholder driven National Marine Sanctuary nomination and 
designation process.
    WCS saves wildlife and wild places worldwide through science, 
conservation action, education, and inspiring people to value nature. 
To achieve our mission, WCS, based at the Bronx Zoo, harnesses the 
power of its Global Conservation Program in nearly 60 nations and in 
all the world's oceans and its 5 wildlife parks in New York City, 
visited by 4 million people annually. WCS combines its expertise in the 
field, zoos and the aquarium to achieve its conservation mission. To 
ensure a safe place for wildlife in New York's waters, the Wildlife 
Conservation Society's New York Aquarium conducts scientific research, 
advocates for species and habitat protection, promotes sustainable 
ocean use, and cultivates local marine conservation stewardship.
    There are currently 13 sanctuaries in the NMS network, from the 
Olympic Coast to the Florida Keys. Each sanctuary, managed by the 
National Oceanic and Atmospheric Administration (NOAA), is dedicated to 
the conservation of unique and valuable marine ecosystems as well as 
economic, cultural and historical resources. And while all the 
sanctuaries emphasize resource protection and decision-making based on 
the best available scientific and socioeconomic data, they are managed 
with local input from stakeholders to address their own individual 
issues and needs. The long-term success of the NMS network is due in 
large part to the devotion to local input and needs. They provide 
diverse opportunities for public use and education, collaborative 
management, economic growth, commercial and recreational fishing, and 
scientific exploration.
    The sanctuary nomination process that NOAA oversees is built on 
this same strong foundation of stakeholder and community engagement 
with multiple, transparent opportunities for dialogue. From the very 
beginning, NOAA expects communities nominating a marine area to build 
support from the public, multiple and diverse ocean users and local 
decision-makers. By creating a process that relies on local stakeholder 
input and support from the very beginning, NOAA is best ensuring the 
long-term community support that forms the foundation for success of a 
new NMS.
    With a long-term commitment to research in the New York Bight and 
after conducting several months of public, stakeholder and decision-
maker outreach, WCS's New York Aquarium engaged in NOAA's new process 
for designating a NMS by submitting a proposal to create the Hudson 
Canyon National Marine Sanctuary. To support the nomination, WCS built 
a diverse group of stakeholders that includes aquariums, NGOs, local 
businesses, elected officials, members of the public and others in the 
effort to nominate Hudson Canyon for sanctuary status. WCS also met 
with representatives from the commercial and recreational fishing 
industry. Based on those meetings, WCS recommended that fisheries in 
and around Hudson Canyon continue to be regulated through existing 
regional and Federal entities, not through a National Marine Sanctuary 
designation. NOAA's community-based approach to the nomination process 
had a positive influence on the nomination and we believe that it will 
also have a very beneficial effect on the sanctuary itself if created.
    WCS firmly believes that marine sanctuaries provide a science-
based, community-driven approach for conservation and stewardship while 
balancing multiple sustainable uses that benefit our communities and 
economy, including recreational and commercial fishing and sustainable 
tourism. Sanctuaries also provide a place-based approach to increase 
public access to the ocean, expand opportunities for marine research, 
and monitoring, and support the development and dissemination of 
educational programming and materials. A Hudson Canyon National Marine 
Sanctuary designation would extend many of these benefits to the 
residents of New York and New Jersey.
    WCS would like to also note concerns about President Trump's 
Executive Order Implementing an America-First Offshore Energy Strategy 
and in particular its requirement that oil and gas reserves be assessed 
for sanctuaries designated or expanded during the last ten years as 
well as for the newly nominated sanctuaries. Nationwide, existing 
marine sanctuaries contribute $8 billion to local coastal and ocean-
dependent economies from diverse sectors like commercial and 
recreational fishing, research, and tourism-related activities In the 
Mid-Atlantic, tourism, recreation, and living resources represents 
approximately 93 percent and 70 percent of the state ocean economy in 
New York and New Jersey, respectively. These important economic 
activities, dependent on healthy ocean ecosystems, could be threatened 
by oil and gas exploration and development in the region.
    The New York Bight's local marine waters support a world-class 
metropolitan region, a rich maritime history, and highly productive 
fisheries, meriting recognition as a national treasure. A National 
Marine Sanctuary in these waters would provide opportunities for tri-
state communities to advance sustainable use and conservation of our 
local waters. WCS asks that you support the community driven nomination 
and designation process and help ensure it continues so that new 
sanctuaries, including in Hudson Canyon, can provide special places for 
Americans to enjoy and use today while securing an ecological legacy 
for generations to come.
            Thank you,
                                        Jon Forrest Dohlin,
                                       Vice President and Director,
                     Wildlife Conservation Society's New York Aquarium.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                              Ernest Weiss
    Question 1. Mr. Weiss, can you share any examples from Alaska where 
the existing fisheries management system is adequately protecting 
fisheries and habitat resources yet you are forced to fend off the 
threat of sanctuaries or monument designations in the absence of 
adequate scientific justification? What can we do here in Congress to 
minimize the potential for these problems in the future?
    Answer. The Aleutian Island National Marine Sanctuary proposed by 
PEER in December 2014 would have engulfed all of the Aleutian Islands 
and Bristol Bay as well as most of the Alaska Peninsula. It should be 
noted that there are already significant fishery and habitat 
protections in the region that were adopted through the rigorous 
scientific and public process of the North Pacific Fishery Management 
Council. Over 95 percent (277,100 nm\2\) of the Aleutian Island fishery 
management area is closed to bottom trawling to protect benthic habitat 
including coral communities. Additionally, there are other habitat 
areas of particular concern in the region and fishery closures and 
vessel transit restrictions for the protection of Steller sea lion 
populations. A good resource displaying some of the many marine 
protected areas in Alaska can be found at this link: http://
marineprotectedareas.noaa.gov/helpful_resources/inventoryfiles/
AK_Map_090831_final.pdf
    Congress can and should recognize the Regional Fishery Management 
Council process in the Magnuson-Stevens Act (MSA) as the prevailing 
system to develop fishery and fish habitat protections and regulations, 
with possible advisory input from marine sanctuary managers.

    Question 2. Are you aware of any efforts by outside stakeholders or 
Federal officials to advocate for public sanctuary nominations to be 
considered for national monument designations?
    Answer. I am not personally aware of any efforts to designate any 
National Marine Monuments. I am aware that the National Marine Monument 
designation process seems to require considerably less public process 
than either the Regional Fishery Management Council process or the 
National Marine Sanctuary process. And that is a chilling thought.

    Question 3. Does the indirect use of sanctuary stature, in 
advocating for fishing restrictions in other state and Federal 
processes, constitute a violation of the science and public process 
requirements of the national standards found in the MSA?
    Answer. I am not sure if the Sanctuary process violates MSA. In my 
opinion it does conflict with, and potentially undermine the Council 
process and the MSA National Standards. The Regional Fishery Management 
Councils work hard under MSA to balance the sometimes competing 
National Standards, while also adhering to the National Environmental 
Protection Act, the Marine Mammal Protection Act and the Endangered 
Species Act.

    Question 4. Under EO 13795 the Trump Administration is re-examining 
a number of sanctuary and monument designations. For example, the 
Northeast Canyons and Pacific Remote Islands National Monument 
designations took nearly a total of 60 million acres off the table from 
commercial fishermen with the stroke of a pen and no public or 
scientific processes to justify or even evaluate these long term & 
impactful restrictions. Let me ask the PANEL, in your opinions as 
marine stakeholders, is this an appropriate way for the Executive 
Branch to manage large tracts of our marine environment?
    Answer. I believe that the public process and scientific method of 
the Regional Fishery Management Councils is the most appropriate method 
to manage our marine environment related to fishing. Executive actions 
should not be used to manage fishery resources. The normal marine 
sanctuary nomination process under the limits of the National Marine 
Sanctuaries Act is preferred. However, the June 13, 2014 Final Rule in 
the Federal Register ``Re-establishing the Sanctuary Nomination 
Process'' should be rescinded or revised by the Administration to 
prevent the influx of nominations we have seen in the Aleutians and 
elsewhere around the country, which could well develop into potential 
monument designations.

    Question 5. Can any of you share an example where Sanctuary 
management advocated for or implemented fishing restrictions that were 
consistent--or not, with Magnuson Act process and requirements?
    Answer. Since there are no National Marine Sanctuaries currently in 
Alaska, I cannot comment. I can say that the Sanctuary Nomination 
process is not fully consistent with the National Standards in MSA that 
the Regional Fishery Management Councils strive to uphold.

    Question 6. Would you be in favor of Congress more clearly 
clarifying who manages fishery resources in marine sanctuaries? And 
would the preferred ruling statute be the Magnuson-Stevens Act?
    Answer. Yes, I would support Congressional clarification on which 
is the controlling statute. The law should be clear that the Magnuson-
Stevens Act is the ruling authority regarding fishery and habitat 
marine resources.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Gary Peters to 
                              Ernest Weiss
    Question. Cultural and Maritime Heritage Resources in Sanctuaries: 
National Marine Sanctuaries protect non-fishery resources in addition 
to fisheries in some sanctuaries across the country. For example, 
Thunder Bay Sanctuary in Michigan protects historic shipwrecks and 
maritime heritage from degradation. In your written testimony, you note 
that you believe the regional fishery management councils should take 
the lead on managing resources of national significance like our 
national sanctuaries. How would the regional fishery management council 
approach take into account cultural and maritime heritage resources 
unrelated to fishing?
    Answer. Thank you for the question regarding my testimony to the 
Subcommittee on June 27, 2017 regarding marine sanctuaries. My 
experience and testimony mainly pertains to the fisheries of Alaska and 
the waters of the North Pacific. In regards to fisheries regulations 
for Federal waters, I believe that the Regional Fishery Management 
Council, with a rigorous public process and best science approach, 
should be the lead authority.
    There are no National Marine Sanctuaries in the North Pacific, 
however the North Pacific Fishery Management Council has put in place 
many protections and fishing restrictions to preserve fishery and non-
fishery resources including coral communities.
    The many Steller sea lion protection areas in the Aleutian Islands, 
Bering Sea and the Gulf of Alaska are considered National Heritage 
conservation. These thousands of nautical square miles of protected 
areas employ fishing restrictions adopted through the Fishery 
Management Council process.
    I agree that the National Marine Sanctuary Act is an appropriate 
tool to protect historical shipwrecks of national significance. I 
recently enjoyed reading about how the very first marine sanctuary was 
created to protect the civil war ironclad USS Monitor. The problem is 
when sanctuaries are used to protect expansive marine spaces, and 
fisheries management is undertaken within the boundaries absent 
critical scientific and public processes.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                         Captain Scott Hickman
    Question 1. Fishing regulations vary depending on the Sanctuary, 
can you outline the fishing regulations imposed on the Flower Garden 
Banks National Marine Sanctuary and how you think they have affected 
the economy in the region?
    Answer. The current fishing regulations for the Flower Garden Banks 
National Marine Sanctuary impose very stringent restrictions on 
commercial fishing, while not prohibiting commercial fishing activities 
all together. Certain gear types, like bottom longlines are prohibited 
as well as anchoring within the sanctuary. This is understandable, as 
fishermen are supportive of protecting coral communities and understand 
their vital importance to the ecosystem. As it pertains to the current 
proposed expansion, these restrictions are very concerning when coupled 
with the large rectangular boundaries without coral communities. This 
leaves large areas of productive fishing grounds, void of corals, with 
no commercial fishing access. There are great opportunities to partner 
with industry to ensure coral protections while promoting access as 
well. Development and implementing a fishermen's education program and 
best use practices for fishermen wishing to utilize areas within the 
sanctuary boundary would be a great first step.

    Question 2. As part of the Advisory Council, you had a leadership 
role in the community in working closely with NOAA as the agency 
fulfilled its broad consultation requirements, which mandate that 
everyone from local governments to ``other interested persons'' have 
the opportunity to weigh in on the ``terms of designation'' of the 
marine sanctuary.

    a. How many years did this process take?

    b. At its conclusion, did you feel that the agency heeded any of 
the community and stakeholder suggestions?

    c. Did the structure of the Flower Garden Banks Marine Sanctuary 
reflect the suggestions of the consultants?
    Answer.
    a. I'm unsure of how many years this took place, but I do know that 
the topic of sanctuary expansion has been ongoing. Over 10 years 
considering the recommendation of a previous FGBNMS recommendation for 
expansion in 2007.
    b. Following the release of the Draft Environmental Impact 
Statement, it was clear to me that the agency heeded community and 
stakeholder suggestions when convenient to meet expansion aspirations. 
There have been many further discussions and recommendations since, and 
we shall see what recommendations were seriously considered and taken 
into account during a Final Environmental Impact Statement, if any. 
This could be a betrayal of trust in a process based on stakeholder 
engagement.
    c. The structure of the sanctuary advisory council, and boundary 
expansion working group both reflect stakeholder groups and consultants 
in the process very well.

    Question 3. How do you think the process for future expansions 
could be improved?
    Answer. The process could be dramatically improved through the 
addition of some type of weighting of Sanctuary Advisory Council 
recommendations to the sanctuary superintendent.

    Question 4. Under EO 13795 the Trump Administration is re-examining 
a number of sanctuary and monument designations. For example, the 
Northeast Canyons and Pacific Remote Islands National Monument 
designations took nearly a total of 60 million acres off the table from 
commercial fishermen with the stroke of a pen and no public or 
scientific processes to justify or even evaluate these long term & 
impactful restrictions. Let me ask the PANEL, in your opinions as 
marine stakeholders, is this an appropriate way for the Executive 
Branch to manage large tracts of our marine environment?
    Answer. This is not acceptable for mixed use areas belonging to the 
people of the United States of America.

    Question 5. Can any of you share an example where Sanctuary 
management advocated for or implemented fishing restrictions that were 
consistent--or not, with Magnuson Act process and requirements?
    Answer. The best opportunity for this would be in the consultation 
with the Gulf of Mexico Fishery Management Council recommendations on 
regulations in the expansion. This is ongoing and will ultimately be 
reflected in the Final Environmental Impact Statement.

    Question 6. Would you be in favor of Congress more clearly 
clarifying who manages fishery resources in marine sanctuaries? And 
would the preferred ruling statute be the Magnuson-Stevens Act?
    Answer. It would be hugely helpful, as a stakeholder, to have a 
streamlined and well defined process of engagement and management 
responsibilities of fishery resources in National Marine Sanctuaries. 
The Magnuson Act serves as a monumentally successful piece of 
legislation and is responsible for the successful rebuilding and 
recovery of many of our nations' fishery resources. It stands to reason 
that National Marine Sanctuaries be defined and recognized in their own 
authorizing act. But to the extent practicable, overlap and gray areas 
between the two should be kept to a minimum.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                         Captain Scott Hickman
    Question 1. Stakeholder Input: In your testimony, you detailed the 
importance of collaboration and listening that are inherent to 
Sanctuary Advisory Committees, such as the one on which you serve. 
Providing avenues for stakeholder input, such as through the Sanctuary 
Advisory Committees, and having community-driven processes are crucial 
parts of the National Marine Sanctuary program. With so many 
stakeholders and diverse groups represented, how are differences of 
opinion worked out to develop the solutions, referenced in your 
testimony?
    Answer. Collaboratively, with every stakeholder group having two 
representatives at our Sanctuary Advisory Council meetings. We 
establish either subcommittees of just SAC members, or working groups 
of SAC members AND outsider parties, to consider every major issues, 
such as boundary expansion, and reefing-in-place the legacy petroleum 
platform that was included in the sanctuary when created in 1992. The 
platform had been put there by Mobil in 1981, and we are in the last 
stages of reefing--its 60-400, deep jacket in place.

    Question 2. Creating Economic Opportunities: Resources, whether 
cultural, scientific, or environmental, that National Sanctuaries 
preserve and protect can be the genesis of new beginnings with a 
sanctuary's designation. The Thunder Bay Sanctuary completely 
transformed the City of Alpena, Michigan. The Sanctuary designation has 
given Alpena notoriety and provided resources through which to develop 
not just the city but the entire tri-county area into maritime cultural 
landscape. This rejuvenated an economy with $100 million in sales 
associated with sanctuary activities, $39.1 million in personal income 
to residents, $59.1 million in value added, and over 1,700 jobs. How 
does the Flower Garden Banks Marine Sanctuary affect your charter 
fishing business?
    Answer. Unfortunately, it pretty much restricts my commercial 
business from even fishing its deep flanks around the two main coral 
capped domes at 300' or less. As more platforms are removed and not 
reefed around the sanctuary area, the deep flanks of these domes will 
be the only place to fish. Please try and get the BOEM-BSEE Rigs-to-
Reef Program quickly improved and amended to allow for all the 
remaining petroleum production platforms in the GOM everywhere, to be 
reefed-in-place. They've removed 2,500 platforms in 10 years, and there 
are only 2,100 remaining. Within 5 years, the situation will soon be 
critical with only 25 banks along the shelf edge to fish, and a couple 
hundred platforms left, if that many.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Dan Sullivan to 
                        Captain Jeremiah O'Brien
    Question 1. In 2016 the Alaska Federation of Natives passed a 
resolution that opposes the creation of any national marine monument 
that, ``jeopardizes the economic health and vitality of one or more 
rural communities reliant on commercial and/or subsistence fisheries''

  <bullet> Can you speak to the economic impacts marine sanctuaries 
        have had in your region?

  <bullet> What about as it relates to infrastructure development?

    Answer. The actions of the Channel Islands and Monterey Bay 
National Marine Sanctuaries (NMSs) have had largely negative economic 
impacts on recreational and commercial fishermen in the Central Coast 
of California. Most of this occurred as a result of these sanctuaries 
role in creating Marine Protected Areas (MPAs)--no or limited fishing 
zones--that identified the best fish habitat and removed much of it 
from fishing. I do not know what the dollar impact is from the Channel 
Islands National Marine Sanctuary (CINMS) closures are, but I do know 
of one experience where a squid fisherman sold his boat after the 
CINMS/State closures, being so discouraged by his best spots being 
taken away, and by what he felt was a process stacked against 
fishermen. For the CINMS, the MPA effort in state waters utilized state 
law, but with great CINMS influence. The CINMS also changed its 
designation document and created a water column no-fishing zone in 
Federal waters--creating more lost fishing opportunity.
    For the Monterey Bay NMS, they also heavily influenced the state 
process to create no fishing zones. The state estimated the loss to 
just commercial fishermen at just under one million dollars per year, 
but a subsequent peer review of the state's economic methodology showed 
that it likely greatly underestimated the cost. No accounting was 
provided for recreational fishing's lost opportunities. Rec fishing is 
big business so I imagine the loss was about equal to commercial 
fishing. In this state process, we lost 18 percent of state waters to 
MPAs, but an analysis showed that the 18 percent represented 45 percent 
of the best hard bottom habitat--where the fish are! We also had to 
spend @ $40,000 to conduct a FOIA on Monterey Bay National Marine 
Sanctuary (MBNMS) records of its MPA role, and to provide science 
products to show there was no science basis for new MBNMS MPAs in 
Federal waters.
    I have heard that MBNMS regulations for dredging have cost the 
harbors dearly, but I don't know the dollar cost. People, including 
researchers, who do anything that impacts the bottom or discharges have 
to get a permit from the sanctuaries. This takes time and has a cost to 
it. In terms of larger economic impacts, I believe that a survey of 
hotels and restaurants would show that very few jobs have been created 
because of the sanctuary status. People come to our area of California 
because it is beautiful, not because it is a sanctuary. When I hear 
numbers thrown out that ``sanctuaries generate 8 Billion dollars of 
economic growth'', I have to laugh. The sanctuaries seem to be taking 
credit for the business income that already exists--sanctuaries don't 
cause this.
    Regarding infrastructure development, there are sanctuary visitor 
centers in CINMS and MBNMS. My sense is that people visit them when 
they are in the area for other reasons--they largely don't come to the 
area just to visit the centers. They provide information about 
sanctuary resources which is a good thing. I think the sanctuaries are 
trying to place weather info stations and signage at the harbors, a 
good idea. I do hope they stop sending sanctuary staff to exotic South 
Pacific Islands for ``dive certifications''.

    Question 2. Can you provide some examples of redundant fishing 
regulations in the Sanctuaries in the Pacific?
    Answer. As I have previously explained, most of the sanctuary's 
actions have been in their using their stature and Federal funds, to 
influence the regulations of other agencies. The CINMS Federal waters 
MPA is an exception as that is a sanctuary regulation. I personally 
believe there is no environmental benefit to that MPA, so it was 
needlessly redundant to other management authorities which have 
stronger science capabilities.
    Regarding using National Marine Sanctuary (NMS) influence, please 
be aware that the MBNMS ignored the best available science on creating 
MPAs in the state process. They would not acknowledge the many other 
forms of fishing regulation and habitat protection that exist, so, in 
this way, the sanctuary's actions were redundant and costly to 
fishermen. As I testified, I believe the fishing regulation in the NMSA 
(16 U.S.C. 1434, Sec. 304-a-5) is both redundant and in conflict with 
the requirements of the MSA. I hope Congress clarifies that the Marine 
Sanctuary Act (MSA) with its national standards prevails for fishing 
and habitat protection.

    Question 3. Do you have any recommendations for how we could reduce 
the duplicative bureaucracy when it comes to developing fishery 
regulations in Sanctuaries?
    Answer. Remove the ``fishing'' section from the National Marine 
Sanctuaries Act (NMSA). Additionally, place limits on the lobbying NMSs 
can do to other fishery management agencies. NMSs simply do not have 
the science capabilities nor the credible public process to be involved 
in fishery issues or issues that affect fishing.

    Question 4. Under EO 13795 the Trump Administration is re-examining 
a number of sanctuary and monument designations. For example, the 
Northeast Canyons and Pacific Remote Islands National Monument 
designations took nearly a total of 60 million acres off the table from 
commercial fishermen with the stroke of a pen and no public or 
scientific processes to justify or even evaluate these long term & 
impactful restrictions. Let me ask the PANEL, in your opinions as 
marine stakeholders, is this an appropriate way for the Executive 
Branch to manage large tracts of our marine environment?
    Answer. NO. It bypasses the public process and good science. 
Fishermen in particular have sacrificed a great deal to get to 
sustainable fisheries only to have that disregarded by such an 
executive action.

    Question 5. Can any of you share an example where Sanctuary 
management advocated for or implemented fishing restrictions that were 
consistent--or not, with Magnuson Act process and requirements?
    Answer. I can only speak to my experience with the CI and MBNMSs. I 
don't think anything they have done is consistent with the MSA and the 
way that the Regional Fisheries Management Councils (RFMCs) would be 
required to examine the need for a regulation like a closure.

    Question 6. Would you be in favor of Congress more clearly 
clarifying who manages fishery resources in marine sanctuaries? And 
would the preferred ruling statute be the Magnuson-Stevens Act?
    Answer. YES. MSA should prevail and the fishing section of the NMSA 
should be removed.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Gary Peters to 
                Vice Admiral Conrad C. Lautenbacher Jr.
    Question 1. Creating Economic Opportunities: Resources, whether 
cultural, scientific, or environmental, that National Sanctuaries 
preserve and protect can be the genesis of new beginnings with a 
sanctuary's designation. The Thunder Bay Sanctuary completely 
transformed the City of Alpena, Michigan. The Sanctuary designation has 
given Alpena notoriety and provided resources through which to develop 
not just the city but the entire tri-county area into maritime cultural 
landscape. This rejuvenated an economy with $100 million in sales 
associated with sanctuary activities, $39.1 million in personal income 
to residents, $59.1 million in value added, and over 1,700 jobs. In 
your testimony, you shared that across the National Marine Sanctuary 
system, about $8 billion is generated for local economies. What is the 
best way to encourage these types economic opportunities for other 
coastal communities?
    Answer. National Marine Sanctuaries have been enormously successful 
in generating new economic activity, as well as educating the public on 
the need for conservation and sustainability. Clearly, better and more 
comprehensive understanding and advertising of the overall value of a 
National Marine Sanctuary is in order, and much of that can and should 
be accomplished by the communities that are currently benefiting from 
the increases in both sustainability and economic activity. Users and 
beneficiaries are always very credible spokespersons.

    Question 2. Differences between Sanctuaries and other Marine 
Protected Areas: Your written testimony described an extensive 
designation process that only occurs after what sounds like an equally 
rigorous nomination process. Not all of our marine protected areas go 
through as an extensive series of hoops to be recognized. What 
characteristics makes sanctuaries unique from other protected areas?
    Answer. Sanctuaries are unique from other protected areas for a 
variety of reasons. First and foremost is the rigorous and inclusive 
community-based nomination process created to ensure a sanctuary is 
welcomed and supported into the area. Then the public designation 
process created by the National Marine Sanctuaries Act ensures that the 
sanctuary will provide coordinated management that complements existing 
authorities. Sanctuaries are designed to allow and encompass multiple 
activities and support a wide range of objectives which are ideally 
suited to the areas and the users alike.

    Question 3. Determining Restricted Activities: The Thunder Bay 
National Marine Sanctuary emphasizes protecting the shipwrecks, which 
allows for many other uses throughout the sanctuary. Who determines 
what will and will not be allowed within a designated sanctuary?
    Answer. The nomination and designation processes are very detailed 
and require multiple submissions, discussions, and public comments 
periods regarding the projected uses and purposes of a sanctuary. 
Complete public airing and discussion continues throughout the process. 
As with any other public activities in the United States, sanctuaries 
are subject to the laws of the land such as the National Marine 
Sanctuaries Act itself, and such other directives including the 
Endangered Species Act, and the Magnuson-Stevens Fisheries Act for 
example. Sanctuaries also have management plan reviews once established 
that gather input from the community and the sanctuary advisory council 
on to adapt management of the area over time.

    Question 4. Resources in Sanctuaries: In my home state of Michigan, 
the Thunder Bay National Marine Sanctuary has allowed us to protect the 
part of Lake Huron known as ``Shipwreck Alley''. The unpredictable 
weather in this treacherous stretch of water has caused numerous 
shipwrecks over the years, and the cold, freshwater of the Lake has 
preserved a chronology of maritime heritage for us today. The 
historical and cultural resources preserved by the Thunder Bay 
Sanctuary are but one of the many types of resources Sanctuaries 
preserve and provide. Can you detail the variety of resources that our 
National Marine Sanctuaries provide us?
    Answer. Sanctuaries provide protection for a wide range of 
resources and objectives from historical to conservational. Resting 
places of ships important to our history like the Monitor and the Lake 
Huron ``Shipwreck Alley'' are included. Coral reef resources are 
essential parts of a number of sanctuaries and draw visitors who bring 
billions of dollars to local economies. Many sanctuaries include 
invaluable fishing and recreation areas popular with the public and 
critical for a sustainable future. The reasons for establishing a 
marine sanctuary include a long list of cultural, historical, 
recreational, and biological purposes and goals. Each one is unique as 
stated in its specifically designed charter. The flexibility and 
multiple uses commonly included are originated and celebrated by the 
local users and supporters.

    Question 5. Synergies with other NOAA programs: One of the best 
assessments of the economic, cultural, and ecological benefits in the 
tri-county area boarding the Thunder Bay National Marine Sanctuary was 
completed through Michigan's Sea Grant Program. When you were 
administrator how did you witness the Office of National Marine 
Sanctuaries interfacing with other NOAA offices and programs? And how 
do those synergies benefit communities?
    Answer. NOAA is a unique example of a national organizational 
structure that brings together the great majority of national programs 
and resources that relate to the ocean and atmosphere, including the 
biology and living resources. The Office of National Marine Sanctuaries 
is an integral part of the National Ocean Service within NOAA and is 
fully integrated with related programs in other parts of NOAA, 
especially those within Fisheries and Research. Connection and 
consultation is a part of the NOAA gene structure. Many missions of 
NOAA are reliant on cooperative connections across and within the 
various NOAA line offices. These are exercised daily in NOAA's 
continuing quest to serve the Nation with the best possible management 
of resources and programs within their multiple areas of 
responsibility. The Office of National Marine Sanctuaries was during my 
tenure, and remains, a poster child example of cross collaboration and 
cooperation.

    Question 6. Importance of All Benefits from Sanctuaries: From my 
visits to different sanctuaries, I have seen a variety of different 
benefits from protecting maritime heritage, cultural sites, fishing 
access, and conservation for threatened species; all dependent on the 
goals of each sanctuary. Sadly in April, the president issued an 
executive order that places a narrow focus on potential energy and 
mineral resources, but our sanctuaries provide numerous other uses and 
benefits beyond their energy resource potential. Can you elaborate on 
the importance of these other benefits to communities served by 
Sanctuaries and why it is so important to avoid such the myopic focus 
taken by the current administration on these protected areas?
    Answer. While energy and mineral resources are certainly vital to 
national economic security, they represent only one piece of a very 
complex combination of human activities and resources that provide for 
our overall economic security. A healthy ocean is essential to a long 
list of activities that form the basis of human health and prosperity.
    Our personal health, jobs, food security, transportation, economic 
activity, and overall quality of life are supported by and continually 
rejuvenated by the ocean This is a ``blue'' planet; everything we are 
and have today came from and continues to comes from the ocean. We 
neglect the health of the ocean only to our great peril now and in the 
future. Sanctuaries are one of the absolutely necessary commitments to 
protecting, celebrating, and ensuring the health of the ocean, and 
consequently the foundation of our security now and in the future.

    Question 7. Leveraging National Marine Sanctuaries: In your 
testimony, you state that Nation Marine Sanctuaries ``with increased 
support can play a major role in actually reversing the downward trend 
[of our oceans and Great Lakes]''. In what ways do we need to increase 
our support and leverage the full suite of benefits possible from 
setting aside the areas that compose the National Marine Sanctuary 
system?
    Answer. The comprehensive management of the national marine 
sanctuaries brings together diverse stakeholders to develop innovative 
solutions to managing our oceans and Great Lakes. The sanctuary 
research, monitoring, education, and outreach programs help communities 
understand the economic, cultural and ecological importance of their 
areas and help find options to address issues of concern. Sanctuaries 
bring together the public to engage in managing their unique area now 
and into the future. Increased community support and engagement will 
bring additional benefits.

                                  [all]

                  This page intentionally left blank.

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
